<html>
<title> - HOMELAND SECURITY SCIENCE AND TECHNOLOGY BUDGET HEARING FOR FISCAL YEAR 2005</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                HOMELAND SECURITY SCIENCE AND TECHNOLOGY
                  BUDGET HEARING FOR FISCAL YEAR 2005

=======================================================================

                                HEARING

                                 of the

                     SUBCOMMITTEE ON CYBERSECURITY,
                       SCIENCE, AND RESEARCH AND
                              DEVELOPMENT

                               before the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 25, 2004

                               __________

                           Serial No. 108-37

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
22-453                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY



                 Christopher Cox, California, Chairman

Jennifer Dunn, Washington            Jim Turner, Texas, Ranking Member
C.W. Bill Young, Florida             Bennie G. Thompson, Mississippi
Don Young, Alaska                    Loretta Sanchez, California
F. James Sensenbrenner, Jr.,         Edward J. Markey, Massachusetts
Wisconsin                            Norman D. Dicks, Washington
W.J. (Billy) Tauzin, Louisiana       Barney Frank, Massachusetts
David Dreier, California             Jane Harman, California
Duncan Hunter, California            Benjamin L. Cardin, Maryland
Harold Rogers, Kentucky              Louise McIntosh Slaughter, New 
Sherwood Boehlert, New York          York
Lamar S. Smith, Texas                Peter A. DeFazio, Oregon
Curt Weldon, Pennsylvania            Nita M. Lowey, New York
Christopher Shays, Connecticut       Robert E. Andrews, New Jersey
Porter J. Goss, Florida              Eleanor Holmes Norton, District of 
Dave Camp, Michigan                  Columbia
Lincoln Diaz-Balart, Florida         Zoe Lofgren, California
Bob Goodlatte, Virginia              Karen McCarthy, Missouri
Ernest J. Istook, Jr., Oklahoma      Sheila Jackson-Lee, Texas
Peter T. King, New York              Bill Pascrell, Jr., North Carolina
John Linder, Georgia                 Donna M. Christensen, U.S. Virgin 
John B. Shadegg, Arizona             Islands
Mark E. Souder, Indiana              Bob Etheridge, North Carolina
Mac Thornberry, Texas                Ken Lucas, Kentucky
Jim Gibbons, Nevada                  James R. Langevin, Rhode Island
Kay Granger, Texas                   Kendrick B. Meek, Florida
Pete Sessions, Texas
John E. Sweeney, New York

                      John Gannon, Chief of Staff

       Stephen DeVine, Deputy Staff Director and General Counsel

           Thomas Dilenge, Chief Counsel and Policy Director

               David H. Schanzer, Democrat Staff Director

             Mark T. Magee, Democrat Deputy Staff Director

                    Michael S. Twinchek, Chief Clerk

                                 ______

  Subcommittee on Cybersecurity, Science, and Research and Development

                    Mac Thornberry, Texas, Chairman

Pete Sessions, Texas, Vice Chairman  Zoe Lofgren, California, Ranking 
Sherwood Boehlert, New York          Member
Lamar Smith, Texas                   Loretta Sanchez, California
Curt Weldon, Pennsylvania            Robert E. Andrews, New Jersey
Dave Camp, Michigan                  Sheila Jackson-Lee, Texas
Robert W. Goodlatte, Virginia        Donna M. Christensen, U.S. Virgin 
Peter King, New York                 Islands
John Linder, Georgia                 Bob Etheridge, North Carolina
Mark Souder, Indiana                 Charles Gonzalez, Texas
Jim Gibbons, Nevada                  Ken Lucas, Kentucky
Kay Granger, Texas                   James R. Langevin, Rhode Island
Christopher Cox, California, Ex      Kendrick B. Meek, Florida
Officio                              Jim Turner, Texas, Ex Officio

                                  (ii)
                                CONTENTS

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Mac Thornberry, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Science, and Research and Development...........     1
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California, and Ranking Member, Subcommittee on 
  Cybersecurity, Science, and Research and Development
  Oral Statement.................................................     3
  Prepared Statement.............................................     2
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................    39
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, Ranking Member, Select Committee on Homeland 
  Security
  Oral Statement.................................................    40
  Prepared Statement.............................................     4
The Honorable Robert E. Andrews, a Representative in Congress 
  From the State of New Jersey...................................    36
The Honorable Bob Etheridge, a Representative in Congress From 
  the State of North Carolina....................................    43
The Honorable Kay Granger, a Representative in Congress From the 
  State of Texas.................................................    45
The Honorable Pete Sessions, a Representative in Congress From 
  the State of Texas.............................................    46

                                WITNESS

Dr. Charles E. McQueary, Under Secretary for Science and 
  Technology, Department of Homeland Security
  Oral Statement.................................................     5
  Prepared Statement.............................................     8

                                APPENDIX
                   Material Submitted for the Record

Questions for the Record From The Honorable Mac Thornberry.......    61
Questions for the Record From The Honorable Jim Turner...........    63
Questions for the Record From The Honorable Kendrick B. Meek.....    67

 
                     HOMELAND SECURITY SCIENCE AND
                     TECHNOLOGY BUDGET HEARING FOR
                            FISCAL YEAR 2005

                              ----------                              


                      Wednesday, February 25, 2004

                          House of Representatives,
            Subcommittee on Cybersecurity, Science,
                              and Research and Development,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:04 p.m., in 
Room 2325 of the Rayburn House Office Building, Hon. Mac 
Thornberry [Chairman of the Subcommittee] presiding.
    Present: Representatives: Sessions, Camp, Granger, Cox, 
Lofgren, Andrews, Christensen, Etheridge, Lucas, Langevin, 
Meek, and Turner.
    Mr. Thornberry. The Subcommittee will come to order. I want 
to welcome the members, the witness, to our hearing today, 
which is going to focus on the Department of Homeland 
Security's budget for science and technology. Next Monday, the 
Department will mark its one year birthday. It seems to me this 
is an appropriate time to measure how much progress has been 
made over the past year, and assess where we are now, and also 
plan on where we--how we move ahead. And I am also cognizant of 
the fact that as September 11 recedes further back into our 
memory, it is a challenge to maintain the sense of urgency, 
both in improving operations of the Department and also in the 
day to day job of making our country safer.
    I personally believe that there are five areas in which the 
Department and Congress ought to focus in our second year 
efforts. One is integrating the Department into that one 
seamless unit that we intended it to be. Two is improving 
coordination with the private sector, with other government 
entities, and ultimately, also international entities. Three is 
improving intelligence analysis and sharing. Four is developing 
ways to measure whether we are really making the country safer. 
And five is developing and fielding technology, which of 
course, is the subject of our hearing today.
    Most of us acknowledge that central to success in the war 
on terrorism is fielding of technologies that can help prevent 
attack, as well as those that help us to respond quickly and 
effectively when something does occur; but deciding what to 
buy, and in which technology--technologies to invest involves 
setting priorities, and to a certain extent, in making educated 
guesses. It also involves not buying everything that somebody 
has for sale, and having the discipline to invest for longer 
term solutions.
    The first step was to get the building blocks in place, the 
people, the organizations, the processes to make decisions; and 
my view is that the S & T Directorate has done a good job so 
far in setting those cornerstones. The next step is to begin 
making decisions, whether it is identifying an existing 
technology that you want to field quickly, or developing a 
technology to a more useful application, or directing research 
dollars into some area where you have vulnerabilities.
    For Fiscal Year 2005, the Administration has requested just 
a little over a billion dollars for the S & T Directorate, 
about $126 million more than last year. The largest increase 
over last year is for biosurveillance. Other parts of the 
Department of Homeland Security, as well as other Cabinet 
agencies, also have Homeland Security-related science and 
technology funding, and one of the issues we will want to 
explore is how that is coordinated. The bottom line, it seems 
to me, is that we are safer than we were a year ago, but we are 
not nearly as safe as we should be, or as safe as we will be. 
Technology, in our ports, in our cities, or in our squad cars, 
are going to help us all do a better job of protecting 
Americans.
    With that, I will yield to the distinguished Ranking 
Member, the gentlelady from California, for any statements she 
would like to make.
    Mr. Lofgren. Thank you, Mr. Chairman, and I ask unanimous 
consent to put my entire statement into the record.
    Mr. Thornberry. Without objection.
    [Statement of Ms. Lofgren follows:]

PREPARED OPENING STATEMENT OF THE HONORABLE ZOE LOFGREN, RANKING MEMBER 
  SUBCOMMITTEE ON CYBERSECURITY, SCIENCE, AND RESEARCH AND DEVELOPMENT

    Today is the first hearing of the Homeland Security Subcommittee on 
Cybersecurity, Science and Research and Development in 2004. This 
subcommittee accomplished much in the past year since its initial 
creation, and let me once again state how much I have enjoyed working 
with our chairman, Congressman Mac Thornberry and his staff. I look 
forward to working with you, and have high expectations for the coming 
year.
    Today we will hear from Under Secretary Charles E. McQueary of the 
Department of Homeland Security's Science and Technology Directorate. 
Dr. McQueary was the first person to testify before this subcommittee 
last year, and I want to thank you for appearing before us once again 
today.
    At the time of last year's hearing, Dr. McQueary was new to the 
job, and he spoke about his priorities for the S & T Directorate, and 
mentioned 7 specific areas of emphasis for the Directorate. These 
included the following:
    1. Develop and deploy state-of-the art, high-performance, low 
operating-cost systems to prevent the illicit traffic of radiological/
nuclear materials and weapons into and within the United States.
    2. Provide state-of-the art, high-performance, low operating-cost 
systems to rapidly detect and mitigate the consequences of the release 
of biological and chemical agents.
    3. Provide state-of-the art, high-performance, low operating-cost 
systems to detect and prevent illicit high explosives transit into and 
within the United States
    4. Enhance missions of all Department operational units through 
targeted research, development, test and evaluation (RDT & E), and 
systems engineering and development.
    5. Develop and provide capabilities for protecting cyber and other 
critical infrastructures.
    6. Develop capabilities to prevent new-technology as a surprise 
weapon by anticipating emerging threats.
    7. Develop, coordinate and implement technical standards for 
chemical, biological, radiological, arid nuclear (CBRN) non-medical 
countermeasures.
    Dr. McQueary proposed an ambitious agenda at that first hearing and 
the Members of this subcommittee were willing to give the Directorate 
some time to organize.
    Dr. McQueary, you have been on the job at DHS for almost a year. 
Now is an appropriate time for this subcommittee to get a report from 
you on your progress. We want to learn about the status of your stated 
priorities, and if they have changed as a result of your experiences 
over the past year.
    We also will spend a considerable amount of time today looking at 
your fiscal year 2005 budget request. This year's request is $1.04 
billion, which is an increase over last year's enacted budget of $912.9 
million. As you know, this budget proposal invests heavily in 
biological countermeasures (over a 40 percent increase over last year's 
enacted budget). I want to hear how you came to decide that bio-defense 
is the most important priority at this time. What about chemical, 
nuclear, and high explosives countermeasures? Their budgets remained 
almost flat over last year's enacted budget. Without releasing any 
classified information, I hope you will take some time today to walk us 
through your process for assessing threats, setting priorities and 
investing resources.
    Finally, at last year's hearing, you were questioned extensively 
about the process that the department uses for reviewing ideas and 
products from the private sector and individuals. As I am sure you 
recall, several members asked you about this, including Congressman 
Thornberry, Camp, Lucas, Congresswoman Dunn and myself. You told this 
subcommittee that you personally reviewed each incoming proposal and 
product that is sent to the directorate. Specifically, you said the 
following.  .  .
        ``The first formal thing that we put in place was the e-mail 
        address because it was clear that we had a pent up emotional 
        demand from people that wanted to be able to tell us about 
        things that they're doing. . . .And what we do with those 
        [incoming e-mail proposals], I actually read every one of them 
        myself. I mean, and when I say read them, those that are many 
        pages long, I only read the executive summary to get a sense of 
        what's there.''\1\
---------------------------------------------------------------------------
    \1\ I Undersecretary of Homeland Security Charles McQueary in 
testimony before the House Subcommittee on Cybersecurity, Science, and 
Research and Development; May 21, 2003.
---------------------------------------------------------------------------
    The fact that you reviewed each and every proposal was a bit 
shocking to me. I can only imagine how many incoming requests arrive at 
the directorate and I suspect that if you are still reviewing each one, 
you have very little time for anything else.
    I continue to hear from people, both here in Washington and back in 
Silicon Valley, who have ideas and products that they would like to 
share with the Department. They are frustrated because they do not know 
where to go or who to talk within DHS. I share their frustrations. It 
is a major concern to me that I can't give them advice on how best to 
approach the staff at DHS. Some individuals have excellent and 
innovative ideas that merit consideration by DHS. Others may not have 
the best ideas, but I am not in a position to judge their thoughts on 
the merits. You are.
    Earlier this week at a ceremony marking the first anniversary of 
the creation of the Department of Homeland Security, Secretary Tom 
Ridge outlined several goals for DHS in 2004. One of these goals was 
the creation of a ``Private Sector One-Stop Shop.'' He described this 
shop as a ``robust web and personal assistance service venue where all 
elements of the business community can learn how to do business with 
the department.''
    I have many questions about this shop that I hope you will answer 
today. How will this one-stop shop work? Where in the Department will 
it be located? What is the difference between this and the ``technology 
clearinghouse'' provided for in the Homeland Security Act, Sec. 313? Is 
this just a way to send information to the department, or will it also 
include an ability to interact directly with DHS officials? I hope you 
are not still in the business of reviewing each incoming e-mail and 
that this one-stop shop will be effective. I look forward to learning 
more about it today.
    Before I conclude, I want to thank the Democratic staff on the 
Homeland Security Committee for their hard work. In particular, David 
Grannis was particularly helpful in preparing for today' shearing.

    Ms. Lofgren. First, this is our first hearing of the--of 
this year, and I think when we look back over the last year, we 
did accomplish a lot, but there is much, much more to do, as 
you have just referenced, and thinking back to when we first 
met with Dr. McQueary last year, he spoke about seven specific 
areas that he wished to focus in on.
    I am hoping today to get an update on all seven of those, 
and where we stand with each of them. As you have mentioned, in 
the budget, there is a strong emphasis on biodefense. I am 
interested in how, to the extent you can discuss that in an 
unclassified setting, we reached the conclusion that that was 
our highest priority, as compared to other threats, chemical, 
nuclear, high explosives, and the like.
    The other thing I hope you can touch on, and I have 
mentioned it to the Chairman, we may want to propose having 
some further discussions, in--either in a workshop format or 
the like, is to pursue further the interface between the 
private sector and your shop.
    I still hear concerns that people don't know who to talk 
to, how to be heard. Clearly, I remember last time we met, you 
mentioned, and it actually made me--it scared me here, that you 
were reading all the emails. I am sure that that can no longer 
be the case.
    Mr. McQueary. That is correct.
    Ms. Lofgren. And that is good news. But I want to know 
about the processes in place, and I--without being unduly 
negative, note that we need to do a better job here, because 
I--the members of the Committee are constantly being approached 
with--by private sector people with suggestions. We shouldn't 
really be the entry point for the Department. We are not 
skilled to do that, and so I am hopeful that we can come up 
with--I mean there are so many great ideas out there, but some 
of them are also vaporware, and so somebody needs to sort 
through what is real, what isn't, what can be applied, and in a 
way that is better than what we are doing now.
    So, I am hopeful to hear about the private sector one stop 
shop, where that is, and where it is going to be located, and 
how we can deploy it. And with that, I would just like to 
mention, again, what a pleasure it has been to work with the 
Chairman, Mr. Thornberry, and I look forward to another good 
year.
    Mr. Thornberry. I thank the gentlelady, and it is also my 
pleasure in working with her. All members may, without 
objection, have opening statements submitted for the record, 
unless there is a member who would like to make an oral opening 
statement, we will turn to our witness at this point.

PREPARED STATEMENT OF THE HONORABLE JIM TURNER, RANKING MEMBER, SELECT 
                     COMMITTEE ON HOMELAND SECURITY

    Thank you Mr. Chairman.
    Under Secretary McQueary, welcome back. We appreciate your 
testimony today.
    As you may know, the Democratic Members of this Committee issued a 
report today entitled ``America at Risk: Closing the Security Gap.'' A 
principle reason why we issued the report was to underscore that while 
the nation is more secure one year after the creation of the 
Department, it is not as secure as it needs to be. Additional measures, 
supported by appropriate resources, need to be taken to ensure the 
safety and security of our homeland. I hope that the Department will 
take a close look at the report and that we can work together to 
implement its recommendations.
    Closing our existing security gaps will require the continued 
efforts of the Department's Science and Technology Directorate. I 
appreciate you being here to give us a better understanding of how the 
budget request for the Science and Technology Directorate for Fiscal 
Year 2005 will do this. The hearing will help us produce the first ever 
Department of Homeland Security authorization bill.
    Let me first say that this Directorate, under your leadership, has 
made great strides to build an institution from scratch. And my staff 
informs me that your staff has been very accessible and helpful 
throughout the past year.
    My two largest concerns today are whether the top line of your 
Directorate's budget request is sufficient, given the importance of 
your research and development work, and whether it will be spent in the 
most effective way to improve homeland security.
    The President's Fiscal Year 2005 budget request for the Directorate 
is about $1 billion, representing a $127 million, or 14 percent, 
increase above the current year levels. Outside of the portfolio for 
biological research and development, the request is almost exactly the 
same as what Congress appropriated for the current year.
    I think it's important, however, to put the budget into greater 
context. The DHS budget is only about one third of the Administration's 
total request for homeland security research and development of $3.6 
billion. It is less than two percent of what was requested for the 
Department of Defense for research and development, and less than one 
percent of the total President's total R & D budget.
    In this context, I am concerned that we may not be devoting 
sufficient resources to the science and technology programs within the 
Department of Homeland Security. We could be moving faster and stronger 
to protect the homeland.
    For example, I mentioned that the Fiscal Year 2005 budget request 
for radiological and nuclear countermeasures and for the chemical 
countermeasures are flat. Even the Department's own strategic plan 
released earlier this week underscores the need for better technologies 
to detect nuclear, biological, and chemical weapons.
    There are Customs and Border Protection officials at the nation's 
ports of entry that don't have the ability to detect nuclear materials 
in containers and cargo. Our nation's first responders are frequently 
called to investigate suspicious white powders, and are unable to tell 
whether it is ricin, anthrax, or powdered donut. So I am concerned that 
these research and development portfolios are not commensurate with the 
security gaps that exist.
    Secondly, I have concerns with the way funds are prioritized within 
the Directorate's budget request. During a hearing of this 
Subcommittee's late last fall, we heard about the Directorate's process 
for allocating funds across research and development portfolios by 
speculating on the sophistication and potential damage caused by 
different terrorist attacks. But that process does not include 
intelligence on the likelihood that terrorists will attempt a given 
type of attack or information on what capabilities a terrorist group 
has to carry out an attack.
    Your Directorate should be getting this information as part of a 
comprehensive threat and vulnerability assessment from the IAIP 
Directorate. While this responsibility clearly falls outside of your 
Directorate, I expect that future budget decisions will be made on the 
basis of this information.
    The Directorate has also decided to prioritize short-term 
development at the expense of longer-term research. While the urge to 
deploy important and nearly-mature products out into the field is 
understandable, I believe the Directorate will need to begin shifting 
additional resources towards developing the next-generation of homeland 
security technologies.
    Mr. Under Secretary, the Science and Technology Directorate has 
made impressive strides since it was created in the Homeland Security 
Act, and I commend you for your leadership. I urge you to work with 
your colleagues to ensure that threats and vulnerabilities are fully 
assessed when preparing your budget. And I hope this Committee can work 
with you to ensure that you have all the resources that are necessary 
to advance your important homeland security work.

    Let me welcome back before the Subcommittee Dr. Charles E. 
McQueary, Under Secretary for Science and Technology of the 
Department of Homeland Security. And you are recognized, sir.

  STATEMENT OF CHARLES McQUEARY, UNDER SECRETARY SCIENCE AND 
        TECHNOLOGY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. McQueary. Thank you very much. I would like to say good 
afternoon to you, Chairman Thornberry, Congresswoman Lofgren, 
and the distinguished members of the panel, my good friend from 
North Carolina, Congressman Etheridge. It is a pleasure to be 
here with you today to discuss the research and development 
activities of the Department of Homeland Security's Science and 
Technology Directorate.
    The Nation's advantage in science and technology is key to 
securing the homeland. The most important mission for the 
Science and Technology Directorate is to support the efforts of 
the dedicated men and women who protect and secure our 
homeland.
    When I first reported to you about our activities last May, 
we had just begun our work. The Directorate has accomplished 
much since its inception last March 1, and I would like to give 
you some of those highlights.
    We have deployed monitoring systems that operate 
continuously to detect biological pathogens in approximately 30 
U.S. cities.
    We have also set up test beds to provide accurate radiation 
and nuclear warnings at air and marine cargo ports in 
cooperation with the Port Authority of New York and New Jersey.
    We have established the first series of interoperability 
guidelines for the Nation's wireless emergency communications 
network.
    In another effort, we have greatly reduced the time it 
takes to develop national standards for technologies to protect 
the homeland. Our new standards for radiation detection 
equipment will help us put needed technologies into the hands 
of responders
quickly.
    And the Homeland Security Advanced Research Project Agency 
has started extensive research for next generation biological 
and chemical and radiological and nuclear detectors.
    We have awarded the first round of 100 Homeland Security 
Fellowships and Scholarships to build U.S. leadership in 
science and technology.
    We have also established the first university-based 
Homeland Security Center of Excellence to address both the 
targets and means of terrorism, and we have become active 
contributors in numerous interagency working groups.
    In accomplishing this, we have doubled the staff of this 
Directorate with some of the country's brightest and most 
dedicated people. We started this Directorate with 87 people, 
53 of whom were transferred in from the Environmental 
Measurements Laboratory in New York, and so we had a very small 
staff to start. Today, we are at about 212 people.
    However, the threats to our homeland remain diverse and 
daunting. We must constantly monitor current and emerging 
threats, and assess our vulnerabilities to them, and we must 
develop new and improved capabilities to counter them and be 
prepared to respond to and recover from a potential attack.
    The Science and Technology Directorate has prioritized its 
research and development efforts based upon the directives and 
recommendations from many sources, and I will only mention a 
few of those here, although the complete list is in my written 
testimony: the Homeland Security Act of 2002, President Bush's 
National Strategies and 9 Homeland Security Presidential 
Directives, the report from the National Academies of Sciences 
on ``Making the Nation Safer,'' and reports from the Gilmore, 
Bremer, and Hart-Rudman Committees.
    We have identified and integrated into the information in 
these sources for review and evaluation by our scientific 
staff, and it
provides the basis for determining the R & D needed to meet our 
mission. We recognize that many organizations are contributing 
to the homeland security science and technology base.
    In the Homeland Security Act of 2002, Congress recognized 
this as well, and directed the Under Secretary of Science and 
Technology to coordinate the Federal Government's civilian 
efforts to identify and develop countermeasures to current and 
emerging threats, and I can assure you we take this 
responsibility very seriously.
    We began this coordination process by evaluating and 
producing a report on Department of Homeland Security R & D 
activities underway that were not under the direct cognizance 
of the Science and Technology Directorate, and, where 
appropriate, S & T will absorb these R & D functions. We are 
now initiating the effort needed to coordinate homeland 
security research and development across the entire United 
States Government, and that is a large challenge, as you 
obviously would know. Discussions are ongoing with Federal 
departments and agencies, as well as the Office of Management 
and Budget, the Office of Science and Technology Policy, and 
the Homeland Security Council to ensure the best possible 
coordination.
    In the area of the budget request, what I would like to do 
is very briefly describe our Fiscal Year 2005 plans. We have an 
overall budget request of $1.04 billion, which is an increase 
of $126.5 million, or almost 14 percent over the Fiscal Year 
2004 levels. With these funds, Science and Technology will 
continue to make progress in securing the homeland.
    For example, under President Bush's new biosurveillance 
initiative, which accounts for most of the increase in funding, 
additional capability will be implemented quickly in the top 
threat urban areas to provide more than twice the current 
capability. We will continue to provide the science and 
technology capabilities and enduring partnerships needed to 
develop methods and tools to test and assess threats and 
vulnerabilities to protect our critical infrastructure and 
enhance information exchange.
    We will continue to work in cybersecurity, both through 
partnerships and by creating low-cost, high-impact solutions to 
identified cybersecurity challenges. We will ramp up our work 
in counter MANPADS (man-portable air defense systems), to 
improve technologies to protect the commercial aircraft from 
this threat. We will award contracts in fiscal year 2005 for 
integrating commercial prototype equipment on selected 
commercial aircraft, and conduct tests and evaluate--and 
conducting tests and evaluation, including live fire range 
tests.
    In less than a year, the science and the engineers of the 
Science and Technology Directorate have accomplished more than 
I could have expected. I am proud to have shared with--some of 
these success stories with you here today. We have appended a 
more comprehensive summary of accomplishments to date for the 
record. As yet, we also recognize--and yet, we also recognize 
there is much to do, which is the point you have made, and I 
fully agree, and we will be working just as hard in 2005 to 
make further progress.
    I look forward to working with you and my colleagues in 
other Federal agencies and with private industry and academia 
to
continue this work and improve our ability to protect our 
homeland. This concludes my prepared statement, and I would 
welcome the opportunity to take questions, if I may, at this 
time.
    [The statement of Mr. McQueary follows:]

PREPARED STATEMENT OF DR. CHARLES E. McQUEARY, UNDER SECRETARY, SCIENCE 
            AND TECHNOLOGY, DEPARTMENT OF HOMELAND SECURITY

Introduction
    Good morning. Chairman Thornberry, Congresswoman Lofgren, and 
distinguished Members of the subcommittee, it is a pleasure to be with 
you today to discuss the research and development activities of the 
Department of Homeland Security's Science and Technology Directorate.
    The Nation's advantage in science and technology is key to securing 
the homeland. The most important mission for the Science and Technology 
Directorate is to develop and deploy cutting-edge technologies and new 
capabilities so that the dedicated men and women who serve to protect 
and secure our homeland can perform their jobs more effectively and 
efficiently--these men and women are my customers..
When I last reported to you about our activities, we had just started 
our work. Since its inception less than a year ago, the Science and 
Technology Directorate has:
        (1) deployed continuously operating biological pathogen 
        detection systems to approximately 30 United States cities;
        (2) set up testbeds for radiation and nuclear warnings at air 
        and marine cargo ports in cooperation with the Port Authority 
        of New York and New Jersey,
        (3) established the first series of interoperability guidelines 
        for the Nation's wireless emergency communications network;
        (4) established the first national standards guidelines for 
        radiation detection equipment;
        (5) awarded the first Homeland Security Fellowships and 
        Scholarships;
        (6) established the first Homeland Security University Center 
        of Excellence,
        (7) transferred the Plum Island Animal Disease Center from the 
        Department of Agriculture to the Science and Technology 
        Directorate;
        (8) engaged private industry in bringing innovative and 
        effective solutions to homeland security problems through the 
        interagency Technical Support Working Group and issuance of 
        HSARPA's first two Broad Agency Announcements and a Small 
        Business Innovative Research Program solicitation;
        (9) initiated a development and demonstration program to assess 
        the technical and economic viability of adapting military 
        countermeasures to the threat of man portable anti-aircraft 
        missiles for commercial aircraft;
        (10) collaborated with and assisted other components of the 
        Department to enhance their abilities to meet their missions 
        and become active contributors in interagency working groups--
        all while staffing this Directorate with some of this country's 
        brightest and most dedicated people.
    I continue to be energized by and proud of the scientists, 
engineers, managers, and support staff in the Science and Technology 
Directorate. We have accomplished a great deal in a short amount of 
time and are positioning the Directorate to make continuing 
contributions to the homeland security mission of the Department.
    However, the threats to our homeland remain diverse and daunting. 
We must constantly monitor current and emerging threats and assess our 
vulnerabilities to them, develop new and improved capabilities to 
counter them, and mitigate the effects of terrorist attacks should they 
occur. The Science and Technology Directorate must also enhance the 
conventional missions of the Department to protect and provide 
assistance to civilians in response to natural disasters, law 
enforcement needs, and other activities such as maritime search and 
rescue.

Results from Current Research and Development (R & D) Spending and 
Fiscal Year 2005 Plans: Portfolio Details
    The Science and Technology Directorate has organized its efforts 
into research and development portfolios that span the set of product 
lines of the Directorate.
    Four portfolios address specific terrorist threats:
        <bullet> Biological Countermeasures
        <bullet> Chemical Countermeasures
        <bullet> High Explosive Countermeasures
        <bullet> Radiological and Nuclear Countermeasures.
    Four portfolios crosscut these threats:
        <bullet> Threat and Vulnerability, Testing and Assessment--this 
        portfolio includes our support to the Information Analysis and 
        Infrastructure Protection Directorate, including our critical 
        infrastructure protection and cybersecurity activities.
        <bullet> Standards
        <bullet> Emerging Threats
        <bullet> Rapid Prototyping
    We also have portfolios that support the operational units of the 
Department (Border and Transportation Security; Emergency Preparedness 
and Response, United States Coast Guard and United States Secret 
Service) in both their homeland security and conventional missions.

    Our University and Fellowship Programs portfolio addresses the need 
to build an enduring science and technology capability and support 
United States leadership in science and technology.

    Our most recent program, Counter-MANPADS, is seeking to improve 
technologies to protect commercial aircraft from the threat of MAN-
Portable Air Defense Systems (MANPADS).

    In addition, the Science and Technology Directorate is responsible 
for the management of one of the United States government's E-Gov 
Initiatives, the SAFECOM Program. There are tens of thousands of state 
and local public safety agencies, and 100 Federal law enforcement 
agencies that depend on interoperable wireless communications. The 
SAFECOM (Wireless Public SAFEty Interoperable COMmunications) program 
is the umbrella initiative to coordinate all Federal, state, local, and 
Tribal users to achieve national wireless communications 
interoperability. The placement of SAFECOM in the Department of 
Homeland Security's Science and Technology Directorate allows it full 
access to the scientific expertise and resources needed to help our 
nation achieve true public safety wireless communications 
interoperability.

    At this time I would like to briefly describe some of our 
accomplishments to date and our fiscal year 2005 plans. As can be seen 
in the following chart, we have an overall fiscal year 2005 budget 
request of $1.039 billion, which is an increase of$126.5 million (13.9 
percent) over the fiscal year 2004 levels. The request includes $35 
million for construction of facilities. In addition, the increase 
includes President Bush's request for an additional $65 million dollars 
to enhance and expand the BioWatch Program.

----------------------------------------------------------------------------------------------------------------
                                  FY 2003       FY 2004 less     Proposed FY    Increases/Decreases from FY 2004
---------------------------------------------    rescission          2005                    to 2005
                                             -------------------------------------------------------------------
       BUDGET ACTIVITY            Amount           Amount           Amount           Amount          Percent
                                (millions)       (millions)       (millions)       (millions)        Increase
----------------------------------------------------------------------------------------------------------------
Budget Activity M & A         0.0             44.2             52.6             8.4              19.1%
  Salarv and expenses         0.0             44.2             52.6             8.4              19.1%

Budget Activitv R & D         553.5           868.7            986.7            118.0            13.6%
  Bio Countermeasures         362.6           285.0            407.0            122.0            42.8%
  (incl. NBACC)
  High-Explosives             0.0             9.5              9.7              0.2              2.1%
  Countermeasures
  Chemical Countermeasures    7.0             52.0             53.0             1.0              1.9%
  R/N Countermeasures         75.0            126.3            129.3            3.0              2.4%
  TVTA (incl. CIP & Cyber)    36.1            100.1            101.9            1.8              1.8%
  Standards                   20.0            39.0             39.7             0.7              1.9%
  Components                  0.0             34.0             34.0             0.0              0.0%
  University & Fellowship     3.0             68.8             30.0             -38.8            -56.4%
   Programs
  Emerging Threats            16.8            21.0             21.0             0.0              0.0%
  Rapid Prototyping           33.0            73.0             76.0             3.0              4.1%
  Counter MANPADS             0.0             60.0             61.0             1.0              1.7%
  R & D Consolidation         0.0             0.0              24.1             24.1
   transferred funds
Total enacted appropriations  553.5           912.8            1039.3           126.5            13.9%
 and budget estimates
----------------------------------------------------------------------------------------------------------------

Biological Countermeasures
    Biological threats can take many forms and be distributed in many 
ways. Aerosolized anthrax, smallpox, foot and mouth disease, and bulk 
food contamination are among the threats that can have high 
consequences for humans and agriculture. Our Biological Countermeasures 
portfolio uses the nation's science base to prevent, protect, respond 
to and recover from bioterrorism events. This portfolio provides the 
science and technology needed to reduce the probability and potential 
consequences of a biological attack on this nation's civilian 
population, its infrastructure, and its agricultural system. Portfolio 
managers and scientists are developing and implementing an integrated 
systems approach with a wide range of activities, including 
vulnerability and risk analyses to identify the need for vaccines, 
therapeutics, and diagnostics; development and implementation of early 
detection and warning systems to characterize an attack and permit 
early prophylaxis and decontamination activities; and development of a 
national bioforensics analysis capability to support attribution of 
biological agent use.

In fiscal year 2003 and 2004, the Biological Countermeasures portfolio:
        <bullet> Deployed BioWatch to approximately 30 cities across 
        the nation. BioWatch consists of air samplers that detect the 
        release of biothreat pathogens, such as anthrax, in a manner 
        timely enough to allow for effective treatment of the exposed 
        population. In addition, with additional funds provided by 
        Congress in fiscal year 2004, we were able to integrate 
        environmental monitoring data with biosurveillance to provide 
        early attack alerts and assessments. The environmental 
        monitoring activities include not only Bio Watch, which 
        provides continuous monitoring of most of our major 
        metropolitan areas, but also targeted monitoring that is 
        temporarily deployed for special national needs, such as a 
        Homeland Security Elevated Threat Level. While serving the 
        primary function of mitigating attacks, both BioWatch and 
        environmental monitoring systems also play a significant 
        deterrent role, since terrorists are less likely to attack when 
        they know that defensive systems prevent them from attaining 
        their goals.
        <bullet> Established the National Biodefense Analysis and 
        Countermeasures Center, which provides scientific support for 
        intelligence activities, prioritizes biothreats, and conducts 
        bioforensic analyses for attribution and hence deterrence.
In fiscal year 2005, we will build upon our past work and continue to 
deploy and improve wide area monitoring systems for urban areas. Under 
President Bush's new Biosurveillance Initiative, which accounts for 
most of the fiscal year 2005 increase in funding, additional capability 
will be implemented quickly in the top threat urban areas to more than 
twice the current capability. We will be working on decontamination 
technologies and standards for facilities and outdoor areas, and a 
National Academy of Science study characterizing contamination risks 
will be completed in fiscal year 2005. At a smaller scale, we will 
define requirements for expanded technology in detect-to-warn scenarios 
relevant to facilities monitoring. At the same time, we will be 
building our capabilities in the National Biodefense Analysis and 
Counterterrorism Center (NBACC) and at Plum Island Animal Disease 
Center (PIADC). At the NBACC, we are focusing first on bioforensics and 
development of a biodefense knowledge center; for agro-bioterrorism, we 
are prioritizing countermeasures to foreign animal diseases. We are 
requesting additional funding in fiscal year 2005 for Plum Island to 
improve the facilities and security of this important research and 
development site.

Chemical Countermeasures
    The National Research Council Report Making the Nation Safer points 
out that ``chemicals continue to be the weapon of choice for terrorist 
attacks.'' The large volumes of toxic industrial chemicals and 
materials along with the potential for chemical warfare agents and 
emerging threat agents constitute a broad range of threats that may be 
applied to virtually any civilian target.
    Our Chemical Countermeasures portfolio provides the science and 
technology needed to reduce the probability and potential consequences 
of a chemical attack on this nation's civilian population. The 
portfolio places high priority on characterizing and reducing the 
vulnerability posed by the large volumes of toxic industrial materials 
in use, storage or transport within the nation. The research and 
development activities include prioritization of efforts among the many 
possible chemical threats and targets, and development of new detection 
and forensic technologies and integrated protective systems for high-
value facilities such as airports and subways. These activities are 
informed by end-user input and simulated exercises.
    Over the past year, our Chemical portfolio completed Project 
PROTECT--Program for Response Options and Technology Enhancements for 
Chemical/Biological Terrorism--a program conducted in collaboration 
with the Washington Metropolitan Area Transit Authority (WMATA). 
PROTECT, an operational chemical agent detection and response 
capability, significantly decreases response time, which in the event 
of an attack will save human lives. PROTECT is deployed in Metro 
stations and is operated by the WMATA.
    In fiscal year 2005, our focus will be on protecting facilities 
from chemical attacks and controlling the industrial chemicals that may 
be used for such attacks. Our scientists, working with the Information 
Analysis and Infrastructure Protection Directorate (IAIP), will 
complete a detailed end-to-end study of three reference scenarios, to 
culminate in recommendations for top-level architectures, 
identification of key gaps, and a ``report card'' showing present, mid-
term (three-year), and long-term (five-plus year) capabilities. We will 
qualify candidate off-the-shelf sensors for demonstration in an 
application to facilities protection. We will also address response and 
recovery. Working with the user community, we will develop first-
generation playbooks for responding to the three reference scenarios 
and develop technical requirements for personal protection equipment.

High Explosives Countermeasures
    The High Explosives Countermeasures portfolio addresses the threat 
that terrorists will use explosives in attacks on buildings, critical 
infrastructure, and the civilian population of the United States. The 
Science and Technology Directorate's portfolio is closely coordinated 
with the activities ongoing in the Transportation Security 
Administration to ensure that research and development (R & D) 
activities are complementary, not duplicative. R & D priorities in this 
portfolio have focused on the detection of vehicle bombs and suicide 
bombers, and on providing the science and technology needed to 
significantly increase the probability of preventing an explosives 
attack on buildings, infrastructure and people.
    This portfolio in fiscal year 2005 will develop and field 
equipment, technologies and procedures to interdict suicide bombers and 
car and truck bombs before they can reach their intended targets while 
minimizing the impact on the American way of life. We will complete 
testing and evaluation of known procedures and commercial off-the-shelf 
devices applicable to indoor or outdoor interdiction of suicide 
bombers, and develop a training package for local law enforcement, 
including recommended equipment and procedures. In addition, we will 
support the development of new devices to interdict suicide bombers and 
study the feasibility of using existing detectors to identify 
explosives in trucks. Finally, we will analyze the costs and benefits 
of hardening aircraft cargo containers, cargo bays, and overhead bin 
storage compartments to better withstand the effects of an explosion.

Radiological and Nuclear Countermeasures
    Potential radiological and nuclear threats range from the 
deliberate dispersal of small amounts of radioactive material to the 
detonation of an improvised or stolen nuclear weapon to an attack on 
our nuclear power industry. Our Radiological and Nuclear 
Countermeasures portfolio provides the science and technology needed to 
reduce both the probability and the potential consequences of a 
radiological or nuclear attack on this nation's civilian population or 
our nuclear power facilities.
    On August 19, 2003, our Radiological and Nuclear Countermeasures 
portfolio formally assumed management of the Port Authority of New York 
and New Jersey radiation detection test bed. The test bed was 
previously managed by the United States Department of Energy. Following 
the transfer, we have broadened the project scope beyond testing and 
evaluating individual pieces of technology to a systems approach, 
including response protocols and operational concepts. As part of the 
Science and Technology Directorate's effort, radiation detection 
sensors will be deployed and operated by Federal, state, and local 
inspectors and police at land, maritime and aviation venues. By judging 
the efficacy of deployed systems over time, we will be able to inform 
future decisions on detection technology R & D investment, deployment 
of urban monitoring systems, configurations best able to enhance 
security, and viable ways to defend against a radioactive dispersal 
device or an improvised nuclear device.
    For fiscal year 2005, we plan to leverage our previous technology 
and capability successes and place a high priority on providing the 
end-user community with the most appropriate and effective detection 
and interdiction technologies available to prohibit the importation or 
transportation and subsequent detonation of a radiological or nuclear 
device within U.S. borders. Specifically, we will do the following:

        <bullet> Integrate at least five Federal, state, and local 
        sites into an operational detection system architecture to 
        detect radiological and nuclear threats;
        <bullet> Establish a test and evaluation capability, and test 
        and evaluate 90 percent of the fiscal year 2005 prototype 
        technologies developed in the portfolio's programs;
        <bullet> Demonstrate two advanced characterization technologies 
        for crisis response; and
        <bullet> Demonstrate a prototype for automatic radiological 
        imaging analysis that enhances current imaging systems at one 
        pilot site.

Threat and Vulnerability, Testing and Assessment
    Our Threat and Vulnerability, Testing and Assessment (TVTA) 
portfolio is one of our largest portfolios, and includes our scientific 
and technical support to the Information Analysis and Infrastructure 
Protection (IAIP) Directorate. TVTA includes our R & D activities in 
Critical Infrastructure Protection and Cybersecurity. Activities in 
this portfolio are designed to help evaluate extensive amounts of 
diverse threat information; detect and document terrorist intent; 
couple threat information with knowledge of complex, interdependent 
critical infrastructure vulnerabilities; and enable analysts to draw 
timely insights and distribute warnings from the information. This 
portfolio provides the science and technology needed to develop methods 
and tools to test and assess threats and vulnerabilities to protect 
critical infrastructure and enhance information exchange; this 
portfolio also includes a Biometrics Program and a Cybersecurity 
Program.

In fiscal year 2004, TVTA:
        <bullet> Developed and installed an operational component, the 
        Threat-Vulnerability Mapper (TVM), as part of the Threat and 
        Vulnerability Integration System for the Information Analysis 
        and Infrastructure Protection Directorate. The TVM provides 
        counterterrorism analysts with a simple, straightforward way 
        not only to depict the geographic distribution of threats 
        across the United States, but also to search the underlying 
        databases for information on the possible actors, agents, 
        potential severity of attacks, and extent of the 
        vulnerabilities to and effects of such attacks.
        <bullet> Co-funded the Cyber Defense Technology Experimental 
        Research (``DETER'') Network with the National Science 
        Foundation, a $5.45 million, three-year research project to 
        create an experimental infrastructure network to support 
        development and demonstration of next-generation information 
        security technologies for cyber defense. This is a multi-
        university project led by the University of California at 
        Berkeley.
        <bullet> Developed a Decision Support System focused on 
        prioritizing investment, protection, mitigation, response, and 
        recovery strategies related to Critical Infrastructure 
        Protection. The initial proof-of-concept began in August 2003 
        and a case study is being conducted in February 2004. The 
        prototype model will include representation of all 14 critical 
        infrastructure sectors/assets and their interdependencies.
        <bullet> Developed advanced algorithms for speeding the 
        creation of DNA signatures for biological pathogen detection 
        through the Advanced Scientific Computing Research and 
        Development program. These discoveries will result in cheaper, 
        faster and more reliable bio-detectors for homeland security.
    In fiscal year 2005, TVTA will provide the science and technology 
capabilities and enduring partnerships needed to develop methods and 
tools to test and assess threats and vulnerabilities to protect 
critical infrastructure and enhance information exchange. The Threat-
Vulnerability Mapper is only one component of a large Threat and 
Vulnerability Information System that we will continue to build, 
drawing upon advances in the information and computer sciences as well 
as innovative analytic techniques. Our objective is to continually 
improve an analyst's capability to answer threat-related questions. The 
Science and Technology Directorate will contribute to the capability to 
produce high-quality net assessments and assessments of weapons of mass 
destruction. We will develop advanced computing algorithms in support 
of improved aerosol dispersion models, blast effects calculations, 
neutron interrogation models, bioinformatics, and scalable information 
extraction; improved algorithms make more accurate information 
available faster. We will continue to provide, in collaboration with 
other relevant organizations, the science and technology and associated 
standards needed in the development of biometrics for precise 
identification of individuals and develop instrumentation to aid 
authorized officials in detecting individuals with potentially hostile 
intent. In the cybersecurity area, the DETER Network testbed will be up 
and running, and we will competitively fund several low-cost, high-
impact solutions to specific cybersecurity problems.

Standards
    Ensuring that standards are created and adopted is critically 
important for homeland security. We need consistent and verifiable 
measures of effectiveness in terms of basic functionality, 
appropriateness and adequacy for the task, interoperability, 
efficiency, and sustainability. Standards will improve the quality and 
usefulness of homeland security systems and technologies. Our Standards 
portfolio cuts across all aspects of the Science and Technology 
Directorate's mission and all threats to improve effectiveness, 
efficiency, and interoperability of the systems and technologies 
developed, as envisioned in the Homeland Security Act.
    Our Standards portfolio continues to actively engage the Federal, 
state, and local first responders to ensure that developed standards 
are effective in detection, prevention, response, management, and 
attribution. This portfolio also conducts the essential activities in 
order to meet the requirement of the SAFETY (Support Anti-Terrorism by 
Fostering Effective Technologies) Act in developing certification 
standards for technologies related to homeland security.

In fiscal year 2004, our Standards portfolio:
        <bullet> Created initial standards guidelines, with formal 
        standards nearing completion, for radiation pagers, hand-held 
        radiation dosimetry instruments, radioisotope identifiers and 
        radiation portal monitors. These standards were developed under 
        the auspices of the American National Standards Institute's 
        Accredited American Standards Committee on Radiation 
        Instrumentation.
        <bullet> Published guidelines for interoperable communications 
        gear. Common grant guidance has been developed and incorporated 
        in the public safety wireless interoperability grant programs 
        of both the Department of Justice and the Department of 
        Homeland Security;
        <bullet> Launched the SAFETY Act process for evaluating anti-
        terrorism technologies for potential liability limits.
    In fiscal year 2005, the Standards portfolio will continue to work 
on many fronts and with many partners to establish needed standards for 
technologies (including equipment), processes, and systems. We will 
especially focus on two major milestones. First, we will establish 
technical standards and test and evaluation protocols for 
decontamination technologies and analysis across the ranges of weapons 
of mass destruction. Second, we will publish a ``Consumer's Report'' on 
radiation and bioagent detection devices for Federal, state, and local 
users.

Emerging Threats
    It is truly the threats we do not yet know that are often the most 
terrifying. Our Emerging Threats portfolio addresses the dynamic nature 
of terrorist threats, as science and technology advancements enable new 
agents of harm and new ways to employ them. This portfolio places high 
priority on developing the capability to use innovative, crosscutting, 
out-of-the-box approaches for anticipating and responding to new and 
emerging threats. Successful identification of emerging threats will 
permit capabilities to be developed to thwart these emerging threats 
before they are used.
    Relevant R & D is underway at other agencies and organizations; 
thus, partnerships in this area hold great potential for synergistic 
focus on homeland security. Work is being done and will continue to be 
pursued in partnership with the Departments of Energy, Defense, 
Justice, and Agriculture, the intelligence community, and the National 
Institutes of Health.
    In fiscal year 2003 and 2004, our scientists in the Emerging 
Threats portfolio established informal partnerships with the 
intelligence community and with the United States Secret Service in 
order to leverage ongoing activities in support of over-the-horizon 
assessment.
    In fiscal year 2005, we will leverage the activities started during 
fiscal year 2004, and continue to focus on developing the capability to 
use innovative, crosscutting, out-of-the-box approaches for 
anticipating and responding to new and emerging threats and to develop 
revolutionary technologies to combat them.

Rapid Prototyping
    By accelerating the time needed to develop and commercialize 
relevant technologies, the Science and Technology Directorate will 
ensure that operational end-users will be better able to prevent 
terrorist attacks, reduce the nation's vulnerability, and minimize the 
damage and assist in recovery if attacks occur. Our Rapid Prototyping 
portfolio advances the Directorate's mission to conduct, stimulate and 
enable research, development, test, evaluation and timely transition of 
homeland security capabilities to Federal, state and local operational 
end-users.
    In fiscal year 2003 and fiscal year 2004, the Rapid Prototyping 
portfolio provided funding of $30 million each year through our 
Homeland Security Advanced Research Projects Agency (HSARPA) to the 
interagency Technical Support Working Group (TSWG) to solicit ideas, 
concepts and technologies for 50 requirement areas of interest to both 
the Department and TWSG; initial contracts have been made and HSARPA 
will provide the programmatic monitoring of those efforts for the 
Science and Technology Directorate. This portfolio also provided 
support through HSARPA for a joint port and coastal surveillance 
prototype testbed designated ``HAWKEYE'' with the United States Coast 
Guard. Funding has been made available to support the creation of a 
Technology Clearinghouse as required in the Homeland Security Act of 
2002.
    In fiscal year 2005, this program will continue to provide a 
mechanism for accelerated development of technologies relevant to 
homeland security in a process driven by technology developers. Through 
rapid prototyping and commercialization, these technologies will be 
made available to operational end-users as quickly as possible, thus 
increasing their capability to secure the homeland.

    Support to Department of Homeland Security Components
    As I have mentioned, the operational components of the Department 
are my customers. The Department of Homeland Security's Science and 
Technology Directorate supports the missions of the Information 
Analysis and Infrastructure Protection (IAIP) Directorate, Border and 
Transportation Security (BTS), Emergency Preparedness and Response (EP 
& R), United States Coast Guard (USCG), and United States Secret 
Service (USSS). Our TVTA portfolio supports the mission of the IAIP 
Directorate as previously indicated. This portfolio places high 
priorities on high-risk, high-reward research and development relevant 
to homeland security that might not otherwise be conducted in support 
of the missions of BTS, EP & R, USCG, and the USSS.
    In fiscal year 2003 and fiscal year 2004, we continued to support 
the conventional missions of these operational components. Ongoing 
activities within BTS, USCG and USSS focus on preventing terrorists and 
terrorist weapons (particularly weapons of mass destruction) from 
entering the United States, on detecting and preventing cyber attacks, 
supporting maritime transportation, safety and economy (Port and 
Channel navigation, Search and Rescue, and Aquatic Nuisance Species 
Remediation), and on preventing attacks on United States Secret Service 
protectees and highvisibility venues.

    Support to Border and Transportation Security
    The Science and Technology Directorate supports all elements of BTS 
enforcement and facilitation processes through identifying operational 
requirements, developing mission capabilities-based technological needs 
and implementing a strategic plan. We are providing systems engineering 
support to various BTS programs including US-VISIT and Unmanned Aerial 
Vehicles.The Science and Technology Directorate's support to the BTS 
Directorate is accomplished by implementing a capabilities-based 
technology planning process. The capabilities-based approach 
establishes the scope of effort and framework for a technology plan. 
Through a series of user conferences and technology opportunity 
conferences, requirements are developed and prioritized for new and 
improved capabilities. Operational personnel identify capabilities and 
technology personnel identify potential development opportunities. 
Capability gaps and possible technology solutions are proposed, and a 
budget is developed to distinguish between both funded and unfunded 
needs.
    The Science & Technology Directorate co-chairs with BTS, the 
Department's Unmanned Aerial Vehicle (UAV) Working Group, which is 
currently focused on developing the Border and Transportation Security 
operational requirements for UAVs and related technologies, e.g., 
aerostats, blimps, lighter than air (LTA) ships, and fixed and mobile 
towers. The starting point for the requirements generation process is 
six BTS capability objectives we have identified that could benefit by 
the utilization of UAVs: surveillance and monitoring communications, 
apprehension, targeting, intelligence, deterrence, and officer safety. 
Functional capabilities that could be filled or improved through the 
application of UAVs and other technologies have been identified. Based 
on these high-level requirements, the Science and Technology 
Directorate is developing concepts of operations and assumptions that 
will be used in conducting an Analysis of Alternatives that will 
include UAVs and other technologies.
    In fiscal year 2005 we will be involved in a wide range of 
activities supporting the components, based upon their needs. For BTS, 
we will focus on discovering and implementing technologies that include 
improved screening and inspection, access control, document 
verification and validity, and data compression and analysis.

    Support to Emergency Preparedness and Response
    The nation has more than 750 regionally accredited community 
colleges. Community colleges train more than 80 percent of our 
country's first responders; these first responders are critical for 
homeland security. The Science and Technology Directorate has a 
responsibility to ensure that these first responders have the necessary 
tools available to them to perform their jobs effectively and safely on 
a daily basis. This portfolio has a key role in our meeting that 
responsibility.
    The scope of our EP & R portfolio includes research, development, 
test and evaluation for state, local and Federal emergency responders 
and emergency managers. Particular emphasis is placed on technology 
integration at all levels of government, technology insertion for 
weapons of mass destruction detection and monitoring systems, and long- 
term sustained performance and interoperability to enhance state and 
local preparedness.

    Our work in the EP & R portfolio focuses on three major areas:
        <bullet> Technology development for first responders
        <bullet> Scientific and technical support to Federal response
        <bullet> Technology integration--Safe Cities
    The Safe Cities Program, a new initiative in fiscal year 2004, is 
focused on implementing technology and operational system solutions in 
local communities/regions. This program is being piloted in a select 
number of cities in fiscal year 2004 and will be conducted in close 
cooperation with state and local emergency managers and city planners 
to identify capability needs and gaps that advanced technologies being 
developed by the Science and Technology Directorate can meet. The Safe 
Cities Program seeks to provide technology and operational solutions 
that are sustainable by the communities in which they are implemented. 
The Safe Cities Program will enable us to better understand the 
operational context into which new technologies will be inserted. The 
Program will result in the creation of an infrastructure that 
facilitates the evaluation of new technologies in real-world operating 
environments as well as providing a venue for integrating these 
technologies with existing state and local systems.
    In fiscal year 2005 the EP & R portfolio will continue its focus on 
technology development and technical guidance for first responders 
(state and local), scientific and technical support to the EP & R 
Directorate; and expansion of technology integration--Safe Cities.

Support to United States Coast Guard
    The Science & Technology Directorate is integrating a major 
research program into a United States Coast Guard operational testbed 
in south Florida. The HAWKEYE program injects technologies (such as 
Surveillance, Command & Control, Sensor Fusion, and Communications) 
allowing simultaneous evaluation of technology performance as a direct 
impact on mission execution.

Support to the United States Secret Service
    We have coordinated with the United States Secret Service and 
established its first direct-funded R & D program. Based upon 
appropriated funding, four initiatives have been identified and 
prioritized, and are underway in fiscal year 2004. In addition, there 
will be joint activities in support of the assessment of emerging 
threats.

Homeland Security University and Fellowship Programs
    In this portfolio we seek to develop a broad research capability 
within the nation's universities to address scientific and 
technological issues related to homeland security. The portfolio places 
high priorities on developing academic programs and supporting students 
in order to build learning and research environments in key areas of 
Departmental interest.
    In fiscal year 2004, this portfolio established the Department of 
Homeland Security's first University based Center of Excellence, for 
Risk and Economic Analysis of Terrorism Events. The Center, based at 
the University of Southern California, will assess the level of risk 
associated with various terrorist scenarios, in particular the 
potential economic consequences. A request for proposals has been 
issued for the next two Centers of Excellence, which will focus on 
Foreign Animal and Zoonotic Disease Defense and Post-Harvest Food 
Protection and Defense.
    Last fall, we awarded our 2003-2004 academic year DHS Scholarships 
and Fellowships, and welcomed our new Scholars and Fellows with a 
reception in Washington, DC. The solicitation for this program received 
just under 2,500 applications for 100 Scholarships and Fellowships. 
Besides making immediate contributions to homeland security-related R & 
D, these students will be part of the development of a broad research 
capability within the Nation's universities to address scientific and 
technological issues related to homeland security.
    During fiscal year 2005, another 100 Scholars and Fellows will be 
supported for the academic year of 2004-2005, bringing the total of 
supported students to 200. We will also continue to support the 
Homeland Security University Centers of Excellence established in 
fiscal year 2004, each with a different subject expertise focused on 
reducing the terrorist threat on the United States. Each Center of 
Excellence is awarded an initial three-year contract whose annual cost 
we account for in our planning.

Counter-MANPADS
    The Counter-MANPADS program is focused on identifying, developing, 
and testing a cost effective capability to protect the Nation's 
commercial aircraft against the threat of man-portable, anti-aircraft 
missiles. This program also provides the science and technology base 
needed to reduce the vulnerability of commercial aircraft to terrorist 
attack using man-portable anti-aircraft missiles.
    Over the past year, we have had a successful solicitation 
announcing a program to address the potential threat of MANPADS to 
commercial aircraft. White papers responding to the Counter-MANPADS 
program solicitation were reviewed by technical experts from the 
Department of Homeland Security, Department of Defense, and other 
government agencies; proposals were evaluated; and awards were made to 
three contractor teams to perform the first of two program phases, 
which began in January, 2004. The first phase will result in a 
preliminary design and a test plan to demonstrate missile 
countermeasure equipment on selected commercial aircraft.
    The second program phase is an 18-month effort beginning in August 
2004, with the one or two contractors that produced the most promising 
results in Phase One. During this phase, the commercial prototype 
countermeasure equipment will be integrated on selected commercial 
aircraft, and live-fire range tests will be accomplished with extensive 
data collection and analysis. Results of this second phase will be 
presented to the Administration and Congress to aid in formulating an 
informed decision on how best to address the protection of commercial 
airlines from the MANPADS threat.

SAFECOM
    The SAFECOM (Wireless Public SAFEty Interoperable COMmunications) 
program is the umbrella initiative to coordinate all Federal, state, 
local, and Tribal users to achieve national wireless communications 
interoperability. The placement of SAFECOM in the Department of 
Homeland Security's Science and Technology Directorate allows it full 
access to the scientific expertise and resources needed to help our 
nation achieve true public safety wireless communications 
interoperability.

    Since the Science and Technology Directorate formally assumed 
responsibility for the management of the SAFECOM program barely seven 
months ago:
        <bullet> SAFECOM has been established as the one umbrella group 
        in the Federal government for the management of public safety 
        wireless interoperability programs;
        <bullet> Common grant guidance has been developed and 
        incorporated in the public safety wireless interoperability 
        grant programs of both the Department of Justice and the 
        Department of Homeland Security;
        <bullet> A Federal coordinating structure has, for the first 
        time, been created to coordinate all Federal public safety 
        wireless interoperability programs;
        <bullet> The first catalog of national programs touching on 
        public safety wireless interoperability has been developed and 
        published; and
        <bullet> The ten major state and local organizations concerned 
        with public safety wireless interoperability--the Association 
        of Public-Safety Communications Officials (APCO), International 
        Association of Fire Chiefs (IAFC), International Association of 
        Chiefs of Police (IACP), Major Cities Chiefs Association (MCC), 
        National Sheriffs' Association (NSA), Major County Sheriffs' 
        Association (MCSA), National Association of Counties (NACO), 
        National League of Cities (NLC), National Public Safety 
        Telecommunications Council (NPSTC), and the United States 
        Conference of Mayors (USCM)--released a statement in support of 
        the SAFECOM program which declared that ``With the advent of 
        the SAFECOM Program. . . Public safety, state and local 
        government finally have both a voice in public safety 
        discussions at the Federal level and confidence that the 
        Federal government is coordinating its resources.''

Prioritization
    The Science and Technology Directorate has prioritized its research 
and development efforts based on the directives, recommendations and 
suggestions from many sources, including:
        <bullet> Homeland Security Act of 2002;
        <bullet> The fiscal year 2004 Congressional Appropriations for 
        the Department of Homeland Security;
        <bullet> President Bush's National Strategy for Homeland 
        Security, the National Strategy for the Physical Protection of 
        Critical Infrastructure and Key Assets, the National Strategy 
        to Combat Weapons of Mass Destruction, the National Strategy to 
        Secure Cyberspace, and the National Security Strategy;
        <bullet> President Bush's nine Homeland Security Presidential 
        Directives;
        <bullet> Office of Management and Budget's 2003 Report on 
        Combating Terrorism;
        <bullet> Current threat assessments as understood by the 
        Intelligence Community;
        <bullet> Requirements identified by other Department 
        components;
        <bullet> Expert understanding of enemy capabilities that exist 
        today or that can be expected to appear in the future; and
        <bullet> The report from the National Academy of Science on 
        ``Making the Nation Safer: The Role of Science and Technology 
        in Countering Terrorism,'' and the reports from the Gilmore, 
        Bremer and Hart-Rudman Committees.
    Identifying and integrating the information contained in these 
sources has not been a small task, but the result, coupled with expert 
evaluation and judgment by our scientific staff, is the basis for 
determining the research and development needed to meet our mission 
requirements.

Division of Effort Among the DHS S & T Directorate and Research Efforts 
at Other Government Agencies
    One of the accomplishments of which I am personally most proud is 
the emphasis our new Directorate has put on interacting with other 
Federal departments and agencies. Knowledge of other science and 
technology programs and their results, appropriate collaboration 
between agencies, coordination of relevant programmatic activities, and 
information sharing are essential for us to best meet our mission 
requirements. Science and Technology Directorate cybersecurity 
personnel and those at the National Science Foundation and the National 
Institute of Standards and Technology have already established 
collaborative and coordinated programs to ensure no duplication of 
effort. Our biological and chemical countermeasures staff have 
partnered with the Department of Defense's (DOD's) Defense Threat 
Reduction Agency (DTRA) to plan and execute the BioNet program and 
roadmap the biological countermeasures R & D programs in both agencies 
to understand capabilities and shortfalls. They work with the National 
Science Foundation on pathogen sequencing. The BioWatch program, 
although led by the Science and Technology Directorate, was 
accomplished through collaboration with personnel from the Department 
of Energy's National Laboratories, contractors, the Environmental 
Protection Agency, and the Centers for Disease Control and Prevention. 
We work with DOD's Office of Homeland Defense to ensure the effective 
transfer to the Department of relevant DOD technologies.
    Our high explosives scientists are working with the interagency 
Technical Support Working Group, managed by the Department of State, to 
evaluate commercial off-the-shelf systems with capabilities against 
suicide bombers. The Director of the Homeland Security Advanced 
Research Projects Agency is a member of the TSWG Executive Committee. 
Our staff are in frequent contact with the Office of Science and 
Technology Policy on a range of issues, and several are members and co-
chairs of the Office of Science and Technology Policy's National 
Science and Technology Council. Our Office of Research and Development 
works closely with the Department of Agriculture to ensure that the 
Plum Island Animal Disease Center facility is operating smoothly and 
fully meeting its mission. The Office of Research and Development also 
interfaces with the Department of Energy to keep the Office of Science, 
as well as the National Nuclear Security Administration, apprised of 
our long-term homeland security requirements.
    The Department of Homeland Security, Science and Technology 
Directorate recognizes that many organizations are contributing to the 
science and technology base needed to enhance the nation's capabilities 
to thwart terrorist acts and to fully support the conventional missions 
of the operational components of the Department. Congress recognized 
the importance of the research and development being conducted by 
numerous Federal departments and agencies, and, in the Homeland 
Security Act of 2002, directed the Under Secretary of Science and 
Technology to coordinate the Federal government's civilian efforts to 
identify and develop countermeasures to current and emerging threats.
    We take this responsibility very seriously.
    We are now initiating the effort needed to coordinate homeland 
security research and development across the entire United States 
Government. It will come as no surprise to the members of this 
Subcommittee that good, solid, effective research and development 
relevant to homeland security is being conducted by the Departments of 
Agriculture, Commerce, Defense, Energy, Justice, Health and Human 
Services, State, and Veteran's Affairs; within the National Science 
Foundation, the Environmental Protection Agency and other Federal 
agencies; and by members of the Intelligence Community.
    Several interagency working groups already exist that are 
addressing issues important to homeland security. The Science and 
Technology Directorate has been, and continues to be, an active 
participant in these working groups, and in most cases has taken a 
leadership role. These fora foster an active exchange of information 
and assist each participating agency in identifying related needs and 
requirements, conducting research and development of mutual benefit, 
and avoiding duplication of effort.
    We also continue to have discussions at multiple levels of 
management with Federal Departments and Agencies, as well as with the 
Office of Management and Budget, the Office of Science and Technology 
Policy, and the Homeland Security Council. These discussions ensure 
that the strongest possible links are made and the best possible 
coordination occurs between our Department and those who are conducting 
sector-specific research. By the autumn of 2004, all Department of 
Homeland Security research and development programs will be 
consolidated and all United States Government research and development 
relevant to fulfilling the Department's mission will have been 
identified and coordinated as appropriate. It is important to note that 
this identification and relevant coordination does not imply the 
Department of Homeland Security should have the responsibility and 
authority for these programs within other Federal agencies; it does 
recognize that science and technology advances can have many 
applications, including homeland security.

    Outside Inputs to the S & T Budget
    The Science and Technology Directorate's budget is built to meet 
the Department's and our mission requirements. As previously discussed, 
we identify and prioritize our efforts using multiple national sources 
and the sharing of information relevant to homeland security among 
government organizations. Our Homeland Security Science and Technology 
Advisory Committee will hold its first meeting February 26-27, 2004, 
and this group will also provide input to the scope, priority and level 
of effort needed to meet our objectives.

    Metrics Developed by the Science and Technology Directorate
    The success of the Science and Technology Directorate depends on 
its ability to identify, develop and transition capabilities to end-
users that enhance the Nation's ability to protect itself. Appropriate 
goals and performance measures must be identified and used to measure 
our progress. The following table identifies the programmatic metrics 
developed by the Science and Technology Directorate's portfolio 
managers; these metrics will be used to measure our performance.

ST0001 Biological Countermeasures
Long term performance goal
        The United States will have a high-performance and well-
        integrated biological threat agent warning and characterization 
        system that willinclude sustainable environmental monitoring 
        capability for metropolitan areas; a national special security 
        event system for the nation at large; and identification of 
        needs for vaccines and therapeutics for people and animals. 
        Longer term research will support the development of biological 
        threat warning and characterization systems that address both 
        current and future threats.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
Capability to detect and assess biological threats, measured by a     FAR=10EE-4, Multiplex 10 assays
 set of attributes: increase sensitivity by decreasing false alarm
 rate (FAR), and increase multiplex samples.
FY2005 milestones: Decontamination technologies and standards for     Milestone will be achieved
 facilities and outdoor areas. National Milestones will be achieved
 Academy of Science study characterizes contamination risks.
FY2005 milestones: Establishment of a national capability in          Milestones will be achieved
 biodefense analysis and agro-bioterrorism countermeasures. Research
 operations begin; phased construction continues. BioForensics
 Analysis Center Hub operational.
Improved capabilities to detect threats in urban areas (Urban         Milestone will be achieved
 Monitoring Program), measured by increased sampling coverage and
 frequency, and capability to detect additional threats. FY2005
 milestone: increase coverage in top threat cities.
Integrated field demonstrations of next-generation solutions          2 Demos operational
 (Domestic Demonstrations and Applications Program).
Validated human and agricultural bioassays.                           10
----------------------------------------------------------------------------------------------------------------

ST0002 Chemical Countermeasures
Long term performance goal
        Develop and deploy a broad capability to prevent and rapidly 
        mitigate the consequences of chemical attacks.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
FY2005 milestone: Development of protocols for the highest priority   Milestone will be achieved
 toxic industrial chemicals (TICs) and toxic industrial materials
 (TIMs).
----------------------------------------------------------------------------------------------------------------

ST0003 Chemical High Explosives
Long term performance goal
        The Chemical High Explosives portfolio will improve explosives 
        detection equipment and procedures for all forms of 
        transportation as well as fixed facilities.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
FY2005 milestone: Pilot tests of standoff detection technologies.     Milestone will be achieved
----------------------------------------------------------------------------------------------------------------

ST0004 Radiological & Nuclear Countermeasures
Long term performance goal
        By FY2009. an effective suite of countermeasures against 
        radiological and nuclear threats will be developed with 
        capabilities in detection, intelligence analysis, response, and 
        preparedness.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
Federal, state and local sites that are integrated into an            5
 operational secondary reachback architecture to resolve
 radiological and nuclear alarms.
Performance measures associated with Test and Evaluation (T and E)    Milestone will be achieved
 of developmental prototypes of Radiation Detectors. Establish a
 long-range plan for T and E capability.
Progression on planned capability development for Nuclear Incident    Milestone will be achieved
 Management and Recovery. Demonstrate 2 advanced detection
 technologies.
Progression on pre-planned product improvement of deployed            Milestone will be achieved
 technologies. Perform critical design reviews for Phase One
 technology improvements for projects awarded in fiscal year 2004.
----------------------------------------------------------------------------------------------------------------

ST0005 Threat and Vulnerability, Testing & Assessments
Long term performance goal
        Provide measurable advancements in information assurance, 
        threat detection and discovery, linkages of threats to 
        vulnerabilities, and capability assessments and information 
        analysis required by Departmental missions to anticipate, 
        detect, deter, avoid, mitigate and respond to threats to our 
        homeland security.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
Improvement in the national capability to assess threats and          Improvement in 7 categories
 vulnerabilities to terrorist attacks: 10 categories to be assessed.
----------------------------------------------------------------------------------------------------------------

ST0006 Standards
Long term performance goal
        Establish an integrated infrastructure for determining and 
        developing standards, and test and evaluation protocols for 
        technology used for detecting, mitigating, and recovering from 
        terrorist attacks and also to support other Departmental 
        components' technologies. Provide consistent and verifiable 
        measures of effectiveness of homeland security-related 
        technologies, operators, and systems in terms of basic 
        functionality, interoperability, efficiency, and 
        sustainability. Facilitate the development of guidelines in 
        conjunction with both users and developers.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
Long-term implementation of SAFETY Act                                Certifications
FY2005 milestones: Technical standards and test/evaluation protocols  Milestones will be achieved
 will be established for WMD decontamination technologies and
 analysis tools. ``Consumer's report'' on radiation and bioagent
 detection devicesfor federal, state, and local users will be
 published.
----------------------------------------------------------------------------------------------------------------

ST0008 Homeland Security Fellowship Programs I University Programs
Long term performance goal
        Significantly increase the number of U.S. students in fields 
        relevant to homeland security including the physical life and 
        social sciences; and engineering.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
To increase the nation's science and technology workforce and         200 students
 research 200 students capability on issues related to homeland       3 centers
 security. Fiscal Year 2005: students supported/Centers of
 Excellence established.
----------------------------------------------------------------------------------------------------------------

ST0009 Emerging Threats
Long term performance goal
        To develop effective capabilities to characterize, assess, and 
        counter performance goal new and emerging threats, and to 
        exploit technology development opportunities as they arise.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
Improved capability to prevent terrorist attacks through annual       Baseline
 emerging threat assessment report (% of responding recipients
 indicating the report is valuable).
----------------------------------------------------------------------------------------------------------------

ST0010 Rapid Prototyping
Long term performance goal
        Support the development of innovative solutions to enhance 
        homeland security and work with federal, state, and local 
        governments; and the private sector to implement these 
        solutions. In partnership with the Technical Support Working 
        Group (TSWG), operate an effective and efficient clearinghouse 
        that will develop, prototype, and commercialize innovative 
        technologies to support the homeland security mission.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
Technologies prototyped or commercialized.                            3
----------------------------------------------------------------------------------------------------------------

ST0011 SAFECOM
Long term performance goal
        Provide public safety agencies with central coordination, 
        leadership and guidance to help them achieve short-term 
        interoperability and long-term compatibility of their radio 
        networks across jurisdictions and disciplines.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
Increased interoperability across local, tribal, state, and federal   3
 public safety jurisdictions and disciplines. Fiscal Year 2005:
 Based on fiscal year 2004 baseline, improvements in 3 categories.
----------------------------------------------------------------------------------------------------------------

ST0012 Counter Man-Portable Air Defense System (MANPADS)
Long term performance goal
        The Nation will have effective capabilities to defeat the 
        threat to commercial aircraft of man-portable anti-aircraft 
        missiles.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
Effective technology/technologies for commercial aircraft to defeat   2
 manportable anti-aircraft missiles identified. Fiscal Year 2005:
 Technologies identified, and prototypes developed and tested.
----------------------------------------------------------------------------------------------------------------

ST007 Support to Department of Homeland Security Components
Long term performance goal
        Increase the capabilities of mission-focused operational 
        components (BTS, EP & R, Coast Guard, and Secret Service) to 
        secure the homeland and enhance their ability to conduct their 
        missions.

----------------------------------------------------------------------------------------------------------------
                        Performance Measures                                         FY2005 Target
----------------------------------------------------------------------------------------------------------------
Improved capability of DHS Components to secure the homeland as       Baseline
 measured by assessment of customer organizations in accomplishing
 agreed-upon areas of assistance.
----------------------------------------------------------------------------------------------------------------

Short-Term and Lone-Term Research.
    In the 11 months that this Department has been in existence, the 
Science and Technology Directorate has focused its initial efforts on 
near-term development and deployment of technologies to improve our 
nation's ability to detect and respond to potential terrorist acts. 
However, we recognize that a sustained effort to continually add to our 
knowledge base and our resource base is necessary for future 
developments. Thus, we have invested a portion of our resources, 
including our university programs, toward these objectives. The 
following table indicates our expenditures in basic research, applied 
research, and development to date, excluding construction funding.

 Science and Technology Directorate R & D Investments (in millions of $)
------------------------------------------------------------------------
                      FY 2003(
    Fiscal Year       actual)     FY 2004(estimated)   FY 2005(proposed)
------------------------------------------------------------------------
            Basic   47           117                  80
          Applied   59           56                   229
        Developmenta398          608                  643
------------------------------------------------------------------------
            Total   504          781                  952
------------------------------------------------------------------------
          % basic   9.3%         15.0%                8.4%
------------------------------------------------------------------------

    Our initial expenditures in basic research are heavily weighted by 
our investments in university programs. These university programs will 
not only provide new information relevant to homeland security, but 
will also provide a workforce of people who are cognizant of the needs 
of homeland security, especially in areas of risk analysis, animal-
related agro-terrorism, bioforensics, cybersecurity, disaster modeling, 
and psychological and behavioral analysis.
    We expect to gradually increase our total percentage of basic and 
applied research to the level needed for sustaining our role as a 
research, development, testing and evaluation (RDT & E) organization.

Rationale for Budget Increases: BioWatch and the National Biodefense 
Analysis and Countermeasures Center
    President Bush's Fiscal Year 2005 budget request includes a $274 
million Bio-Surveillance Program Initiative to protect the nation 
against bioterrorism and to strengthen the public health 
infrastructure. Included in this request is an increase of $65 million 
for the Science and Technology Directorate to enhance current 
environmental monitoring activities. This requested increase is a 
direct outgrowth of the recently completed joint Homeland Security 
Council--National Security Council (HSC-NSC) Bio-Defense End-to-End 
study which identified the need for an integrated, real-time, human-
animal-plant surveillance system as a top priority national need. The 
DHS Bio Watch system, which currently provides a bio-aerosol warning 
for most of this nation's large metropolitan areas, figures prominently 
in the integrated Biosurveillance initiative. This initiative would 
entail: (1) Expanding BioWatch coverage in the top ten threat cities; 
and (2) Piloting of an integrated attack warning and assessment system 
known as BWICS (BioWarning and Incident Characterization System). 
Currently the ``average'' BioWatch city has about 10 collectors per 
city. Systems studies and city feedback provide a more 'needs based' 
guide to the optimal number of collectors in our large, high threat 
cities. The systems studies show that about 40-60 collectors provide 
optimal outdoor coverage for a city, while the cities themselves have 
requested additional collectors for key facilities (transit systems, 
airports, stadiums). Alternate labor contracting processes, simplified 
sample handling techniques, and the introduction of additional 
automation in analyses will allow us to do this expansion in a cost 
effective manner.
    The BWICS pilot will integrate real-time bio-surveillance and 
environmental monitoring data with plume hazard predictions, 
epidemiological forecasts, population and critical infrastructure 
databases, and other available resources in two of the highest threat 
cities.
    We also will accelerate R & D on next generation environmental 
monitoring systems. New classes of detectors, that can identify bio-
agents in two minutes or less with incredibly low false alarm rates 
will make it possible to do 'detect-to-protect' for key facilities--
allowing one to reroute air flow or evacuate a facility so as to 
minimize exposure and not simply begin the onset of early treatment. 
And tailoring of existing and emerging detection systems to monitoring 
key high volume nodes in our food processing will be critical to the 
development of proposed `food shields.'
    The National Biodefense Analysis and Countermeasures Center (NBACC) 
provides scientific support for intelligence activities, prioritizes 
biothreats, and also conducts bioforensic analyses contributing to 
attribution and hence to deterrence. Specifically, the NBACC (both 
facilities and programs) will support public and agricultural health, 
law enforcement, and national and homeland security by providing hub 
laboratory capabilities for:
        <bullet> Dedicated and accredited bio-forensic analysis 
        capabilities to support attribution of the use of bio-threat 
        agents (BTA) by criminals, non-state, and state-sponsored 
        actors
        <bullet> Laboratory-based, scientific data from the analysis 
        and assessment of biological threats to human health and 
        agriculture to support a national bio-defense net assessment 
        fundamental to development of national plans, risk assessment 
        evaluations and priorities to deter, detect, mitigate and 
        recover from BTA attack
        <bullet> Applied models, materials, and validation processes to 
        evaluate BTA countermeasures
        <bullet> Evidenced-based subject matter expertise to integrate, 
        analyze and distribute critical bio-defense and related 
        information assembled from multiple sources through a high 
        security and open clearinghouse.

Transfer of R & D Budgets and Activities from Other Directorates
    The Science and Technology Directorate is both a generator and a 
consumer of scientific and technological advances resulting from basic 
and applied research and development. We also have a responsibility for 
testing and evaluating capabilities to ensure that their deployment 
results in improved operational systems. Standards are needed to assist 
first responders and operational components of the Department in 
evaluating, procuring, and deploying new capabilities. This is a broad 
range of responsibility and one we take seriously. The Department has 
defined R & D activities as follows:
        Activities associated with R & D efforts include the 
        development of a new or improved capability to the point where 
        it is appropriate for operational use, including test and 
        evaluation. R & D activities include the analytic application 
        of scientific and engineering principles in support of 
        operational capabilities, concept exploration, systems 
        development, proof of principle demonstration and pilot 
        deployments, standards development, and product improvement 
        including application and integration of technologies. For 
        mission (non-management) systems, resources associated with 
        developing technology to provide new capabilities (including 
        systems engineering, research, development, testing and 
        prototyping) are covered under the R & D category.
    This definition encompasses all of the research, development, test, 
and evaluation (RDT & E) efforts of the Science and Technology 
Directorate. It also encompasses RDT & E efforts currently existing in 
other parts of the Department of Homeland Security. The Science and 
Technology Directorate has been tasked to consolidate these activities 
from elsewhere within the Department into our directorate.
    We have begun this coordination process by evaluating and producing 
a report on the research, development, testing, and evaluation work 
that was being conducted within the Department of Homeland Security but 
was not already under the direct cognizance of the Science and 
Technology Directorate. Where it is appropriate, the Science and 
Technology Directorate will absorb these R & D functions. In other 
cases, the Science and Technology Directorate will provide appropriate 
input, guidance, and oversight of these R & D programs.
    Research and Development activities are ongoing in fiscal year 2004 
within the following departmental elements: Border and Transportation 
Security (BTS), Emergency Preparedness and Response (EPR), United 
States Coast Guard (USCG), and United States Secret Service (USSS). The 
Information Analysis and Infrastructure Protection (IAIP) Directorate 
reported no fiscal year 2004 R & D activities.
    The Fiscal Year 2005 President's Budget contains three programs 
that have been identified to transfer to the Science and Technology 
Directorate. They are United States Coast Guard RDT & E activities 
conducted at their Groton, CT laboratory ($13.5 million); Emergency 
Preparedness and Response RDT & E activities supporting the U.S. Fire 
Administration ($0.65 million); and ICE-Federal Air Marshall's RDT & E 
activities supporting the development of their Air-to-Ground 
Communication System ($10 million).
    The transfer of these three RDT & E Programs is only the start and 
not the complete identification of the potential programs to review for 
consideration. S & T will be working throughout the year with the 
Department and with Congress to identify other existing programs and 
transfer them consistent with direction.

Budget and Activities Supporting Cybersecuritv R & D
    The cybersecurity program within the Science and Technology 
Directorate is conducted by the Threat and Vulnerability, Testing and 
Assessment portfolio. The approach of this program includes addressing 
areas not currently addressed elsewhere in the Federal government. An 
example of this is developing tools and techniques for assessing and 
detecting the insider threat. The cybersecurity budget request for 
fiscal year 2005 is $18 million dollars.
    An important component of the cybersecurity program is coordination 
with others who are performing cyber research and who are responsible 
for cybersecurity. For example, our staff have engaged in a series of 
meetings with staff members from the Department's Information Analysis 
and Infrastructure Protection Directorate (IAIP), both the National 
Cyber Security Division and National Communications System. These 
meetings provide an venue for general exchanges of information about 
each organizations' respective plans for cybersecurity, as well as 
specific discussions focused on IAIP technical requirements to feed 
into cybersecurity R & D programs funded by the Science and Technology 
Directorate.
    Further, we are coordinating with the National Institute for 
Standards and Technology (NIST) and the National Science Foundation 
(NSF) to plan our respective roles. We are funding two projects with 
NIST, Secure Domain Name System and Secure Border Gateway Protocol, 
which are protocols that the Internet relies on to function. We are co-
funding two projects with the NSF: a research project to create an 
experimental infrastructure network to support development and 
demonstration of next generation information security technologies for 
cyber defense, called Cyber Defense Technology Experimental Research 
(``DETER'') Network; and a project called Evaluation Methods in 
Internet Security Technology (EMIST), a testing framework that will 
include attack scenarios, attack simulators, generators for topology 
and background traffic, data sets derived from live traffic, and tools 
to monitor and summarize results.

Basis for Policy on the Use of the National Laboratories
    The Science and Technology Directorate has identified separate 
mechanisms to access the capability base at the DOE national 
laboratories and sites to guard against organizational conflicts of 
interest and inappropriate use of inside information in responding to 
competitive private sector solicitations. Five national laboratories 
(Livermore, Los Alamos, Oak Ridge, Pacific Northwest, and Sandia) have 
been identified as Intramural Laboratories. These labs will help S & T 
set research goals and requirements and formulate R & D road maps. This 
level of engagement would give the intramural labs unfair advantage if 
they were permitted to compete for funding awarded through open 
solicitations.
    All other DOE laboratories and sites have been identified as 
Extramural Laboratories. Because the Extramural Laboratories will not 
be involved in internal DHS research planning, they are eligible to 
compete in Homeland Security Advanced Research Projects Agency (HSARPA) 
and Systems Engineering and Development (SED) funding, such as the 
Broad Agency Announcement (BAA) valued at $50 million for radiological/
nuclear technologies that was recently issued. The majority of the 
Science and Technology Directorate's funding will be executed through 
HSARPA and SED. These labs may also freely team with industrial 
partners to seamlessly commercialize technologies they have developed.

Budget for University Centers of Excellence and Fellows Programs
    The President's fiscal year 2005 budget request of $30 million will 
sustain the current scholars and fellows program and a total of three 
Homeland Security Centers of Excellence. Each additional Center of 
Excellence would require a sustained investment of $5 million per year. 
If more than a total of three Centers of Excellence are desired without 
increasing the President's fiscal year 2005 budget request, a reduction 
in the scholars and fellows program would be required.

Staffing
    When the Department of Homeland Security (DHS) stood up on March 1, 
2003, the Science and Technology Directorate had a total staff of about 
87, including the 53 staff transferred from the Department of Energy's 
Environmental Measurements Laboratory. The balance was comprised of 
permanently assigned personnel, employees detailed from within and 
without the Department, Intergovernmental Personnel Act assignments, 
and personnel support from the National Laboratories.
    By January 6, 2004, we more than doubled our staff. In January 
2004, we had a total staff of 212, including 100 DHS employees, six 
Public Health Service Officers, 21 Intergovernmental Personnel Act 
employees, 26 individuals on assignment from other agencies, and 59 
contractors.
    We continue to be active in staffing our Directorate with well-
qualified individuals whose skills support the full breadth of our 
responsibilities and RDT & E activities. We continue to actively seek 
additional staff in accordance with our approved staffing plan.

Conclusion
    With less than a full year under the Department's belt, the 
scientists and engineers in the Science and Technology Directorate have 
accomplished more than I could have expected. I am proud to have shared 
with you today some of those success stories. We have appended a more 
comprehensive summary of accomplishments to date for the record.
    And yet, we also recognize that there is much to do, and we will be 
working just as hard in fiscal year 2005.
    I look forward to continuing to work with you on the Cybersecurity, 
Science, and Research and Development Subcommittee; other Federal 
departments and agencies; the academic community; and private industry 
to continue the work begun and continually improve our ability to 
protect our homeland and way of life.
    Mr. Chairman, Congresswoman Lofgren and Members of the 
Subcommittee, this concludes my prepared statement. I thank you for the 
opportunity to appear before this committee and will be happy to answer 
any questions you may have.

                                Appendix

       Accomplishments of the Science and Technology Directorate

                    Department of Homeland Security

                      March 2003 to February 2004

Biololgical and Chemical Countermeasures
Biowatch: National Urban Monitoring for Biological Pathogens
    The Biowatch program has been established and deployed to cities 
across the nation. The program--developed, funded, and managed by the 
Science and Technology (S & T) Directorate--is executed in cooperation 
with the Environmental Protection Agency (EPA) and the Centers for 
Disease Control and Prevention (CDC). It employs environmental sampling 
devices to quickly detect biological pathogens, such as anthrax, in 
time to distribute life-saving pharmaceuticals to affected citizens. 
The S & T Directorate is now focusing its efforts on piloting the next 
generation of environmental samplers, which will reduce the amount of 
labor required and the response time needed for detection while keeping 
the detection probability high and false alarm rates low. These devices 
will take advantage of the latest advances in micro-chemistry, commonly 
referred to as ``chemistry on a chip.''

PROTECT (Program for Response Options and Technology Enhancement for 
Chemical Terrorism): Chemical Defense and Response Capability for 
Transportation Facility
    The S & T Directorate, in collaboration with the Washington 
Metropolitan Area Transit Authority (WMATA), completed PROTECT (Program 
for Response Options and Technology Enhancements for Chemical/
Biological Terrorism). PROTECT, which is an operational chemical agent 
detection and response capability, is deployed in Metro stations and 
operated by the WMATA. PROTECT is a team effort that owes its success 
to the scientific and engineering talent from Argonne, Sandia, and 
Livermore National Laboratories and operational expertise from WMATA 
and the First Responder community (the District of Columbia; Arlington, 
VA; Montgomery County, MD; and others). Also contributing significantly 
to the project are private industry partners, including LiveWave Inc., 
ManTech Security Technology, the detector manufacturer (name withheld 
for security reasons); and Federal partners, including the Federal 
Transit Administration (FTA), Department of Transportation (DOT), 
National Institute of Justice (NIJ), and the Department of Homeland 
Security's (DHS's) Office of Domestic Preparedness (ODP). The system 
integrates chemical detector data and video feed and transmits the 
integrated information to the Operation Control Center (OCC), where the 
information is analyzed and an event confirmed. The information is then 
transmitted to the first responders who access it in both their OCC and 
through the use of wired jacks on the scene to facilitate response and 
recovery. PROTECT also has application in other areas, including fire 
and emergency response, security, and forensics. Upon completion, the 
system will be totally owned and operated by WMATA and expanded to 
approximately 20 stations. FTA is working with WMATA and Argonne 
National Laboratory to transfer the technology nationally. The 
information gleaned from PROTECT will have direct application to 
facility protection and response. A related effort is being piloted in 
the Boston subway system.

Joint Urban 2003: Experimental Atmospheric Transport and Modeling
    In June 2003, the S & T Directorate, in coordination with the 
Department of Defense's Defense Threat Reduction Agency, Department of 
Energy, and University of Oklahoma sponsored a month-long atmospheric 
dispersion study in Oklahoma City, OK. Nearly 150 scientists, 
engineers, and student assistants were dedicated to this study, which 
tracked the air movement of safe, non-toxic tracer gases in and around 
city buildings. The resulting data is being used to enhance and develop 
urban-specific atmospheric dispersion computer models that will allow 
emergency management, law enforcement and other personnel to train for 
and respond to potential chemical, biological, and radiological 
terrorist attacks.

ProACT (Protective and Response Options for Airport Counter Terrorism): 
Chemical and Biological Counterrorism Demonstration and Application 
Program

    The S & T Directorate and its partners at the San Francisco 
International Airport are involved in a pilot program that couples 
biological and chemical detection with vulnerability analysis, 
response, and restoration. This program integrates networked sensors 
with the operation of ventilation systems, allowing redirection of 
contaminated air and effective evacuation should an event occur. 
Guidance for the airport facility operators to manage biological and 
chemical crises will be finalized soon for distribution throughout the 
applicable community. Protocols and concepts of operation for 
restoration also are under development. This program is designed to 
serve as a template for deployment of these capabilities to other 
similar facilities.

LINC (Local Integration of National Atmospheric Release Advisory Center 
[NARAC] with Cities): Hazard Assessment Tool for Operational Event 
Management
    LINC demonstrates the capability for providing local government 
agencies with advanced operational atmospheric plume prediction 
capabilities that can be seamlessly integrated with appropriate federal 
agency support for homeland security. LINC's approach is to integrate 
NARAC capabilities with local emergency management and response 
centers. In the event of a chemical or biological release, NARAC 
predictions can be used by emergency managers and responders to map the 
extent and effects of hazardous airborne material. Prompt predictions 
are provided to guide front-line responders in determining protective 
actions to be taken, critical facilities that may be at risk, and safe 
locations for incident command posts. LINC provides response teams from 
multiple jurisdictions with tools to effectively share information 
regarding the areas and populations at risk. To date, several cities 
have participated in the project. New York City used LINC to help 
inform and manage an explosion and fire at a Staten Island refinery in 
the Spring of 2003.

BioNet: Integrated Civilian and Military Consequence Management
    The Department of Homeland Security (DHS) and the Department of 
Defense's Defense Threat Reduction Agency have initiated the BioNet 
program to address joint civilian-military consequence management 
issues for localities near military bases. Upon completion of BioNet, a 
seamless consequence management plan that incorporates concepts of 
operation, information products, area monitoring, population health 
monitoring, and sample analysis laboratory will be developed that can 
be used nationally.

Plum Island Animal Disease Center (PIADC)
    The S & T Directorate assumed responsibility for the operations of 
the ``facilities and liabilities'' of PIADC in June 2003. A 60-day 
review of security and operations resulted in immediate improvements 
and a plan for enhancements to security and operational maintenance. 
Dr. Beth Lautner has become new Center Director for PIADC. Dr. Lautner 
was with the National Pork Board for 13 years, most recently serving as 
the vice-president of Science and Technology. Highly respected 
throughout animal agriculture for her work on numerous issues, she 
pioneered the establishment of the Pork Quality Assurance (PQA) Program 
and has worked extensively with the USDA and other organizations on 
national agricultural security issues. In 1994, she was awarded the 
prestigious Howard Dunne Memorial A ward by the association. In 
addition, DHS announced on December 9, 2003, the selection of Field 
Support Services, Inc. (FSSI), as the new contractor for maintenance at 
PIADC. FSSI is a subsidiary of Arctic Slope Regional Corporation, an 
Alaskan Native corporation, headquartered in Barrow, Alaska.

TOPOFF2 Exercise
    In May 2003, leadership and staff members of the Science and 
Technology Directorate served as members of the Secretary's Crisis 
Assessment Team (CAT) and the interagency Domestic Emergency Support 
Team (DEST) and provided expert technical advice on understanding, 
communicating and responding to the hypothetical radiological and 
plague events during the TOPOFF2 exercise.

Radiological and Nuclear Countermeasures Programs
Radiation Detection in Metropolitan Areas
    The Science and Technology division formally assumed management of 
the Port Authority of New York and New Jersey's radiation detection 
test bed on August 2003. The test bed was previously managed by the 
U.S. Department of Energy. The transfer will broaden the project scope 
beyond testing and evaluation of individual pieces of technology to a 
systems approach including response protocols and operational concepts. 
Radiation detection equipment will be installed at tunnels, bridges, 
ports, and airports in the New York City metropolitan area, and all 
functions associated with their operational use will be evaluated. By 
judging the efficacy of fielded systems over time, the Science and 
Technology division will be able to influence future decisions on 
detection technology R & D investment, deployment of urban
monitoring systems, configurations best able to enhance security, and 
viable solutions for protecting the nation from radiological and 
nuclear threats.

Determined Promise Exercise
    In August 2003, staff members of the S & T Directorate participated 
in Determined Promise, a Department of Defense (DoD) exercise held in 
Las Vegas, NV. The exercise demonstrated the military's capability to 
assist in the response to a natural disaster, a bioterrorism event, and 
a number of other emergency situations nationwide. The exercise also 
provided a forum for initiating discussions that will foster 
interagency cooperation between DHS and USNORTHCOM.

Nuclear Threat Assessments
    The S & T Directorate has provided eight rapid nuclear threat 
assessments for the Federal Bureau of Investigation (FBI), and 
approximately two dozen assessments on reports of illicit trafficking 
in nuclear materials for the Department of State and other customers. 
The Department of Homeland Security has been leading the interagency 
Nuclear Trafficking Focus Group, which regularly brings together the 
operational players of all agencies involved in response to and 
understanding of nuclear smuggling events.

Secondary ``Reach Back''
    In August 2003, the S & T Directorate's Nuclear Assessment Program 
stood up a system to provide secondary ``reach back'' support to 
operational DHS entities employing radiation detection systems in the 
field. Secondary reach back provides inspectors with an additional 
information resource to utilize for the resolution of radiation 
detection alarms that draws upon experience in the analysis of nuclear 
smuggling incidents and threat analysis.

Standards
Radiation Detection.
    The S & T Directorate has developed a suite of four radiation 
detector standards under the auspices of the American National 
Standards Institute (ANSI)'s Accredited American Standards Committee on 
Radiation Instrumentation. The four standards deal with radiation 
pagers, handheld dosimetry instruments, radioisotope identifiers and 
radiation portal monitors. The S & T Directorate has formed three 
writing groups to prepare Test and Evaluation (T & E) protocols for 
hand-held radiation detectors, radionuclide identifiers and radiation 
portal monitors. The writing groups have met in working sessions in San 
Diego, CA (July 2003) and Las Vegas, NV (September 2003) and have 
prepared draft T & E protocols. Benchmark testing against these draft 
protocols has been initiated at four National Laboratories.

Biopathogen Identification
    The Science and Technology Directorate has partnered with the 
Department of Defense, Office of the Secretary of Defense to fund a 
contract with the Association of Analytical Communities International 
to develop Reference Methods and Official Methods for bulk assay of 
bacillus anthracis. This work will also permit the comparison of 
commercially available rapid identification methods (hand-held assays) 
for B. anthracis.

SAFETY Act
    On October 10, 2003, Secretary Ridge signed an interim final rule 
implementing the Support Anti-Terrorism by Fostering Effective 
Technologies (SAFETY) Act which was a requirement of the Homeland 
Security Act of 2002. The SAFETY Act is designed to encourage the 
development and rapid deployment of life-saving, anti-terrorism 
technologies by providing manufacturers and sellers with limited 
liability risks. The Department is now accepting applications for 
designation under the Act and evaluating the proposed technologies.

Interoperability of Communications
SAFECOM: E-Gov Initiative to Improve Interoperability of Wireless 
Communications
    The Department of Homeland Security is taking steps to boost the 
ability of the approximately 44,000 local, tribal and State entities 
and 100 federal agencies engaged in public safety to communicate 
effectively with one another, particularly during an emergency. SAFECOM 
is a Federal umbrella program under the S & T Directorate that is 
dedicated to improving public safety response through enhanced 
interoperable wireless communications. The goal is to enable public 
safety agencies to talk across disciplines and jurisdictions via radio 
communications systems, exchanging voice or data with one another on 
demand and in real time. SAFECOM is providing seed money for the 
Department of Justice's Integrated Wireless Network program, which will 
create interoperability among local, state and federal public safety 
agencies in 25 cities. In addition, technical guidance for 
interoperable
communications that was developed under SAFECOM is included in this 
year's Office of Domestic Preparedness grants.

Summit on Interoperable Communications for Public Safety
    In June 2003, the S & T Directorate, Project SAFECOM, the National 
Institute of Standards and Technology (NIST) and the National Institute 
of Justice hosted a Summit on Interoperable Communications for Public 
Safety. The event focused on familiarizing attendees with programs that 
assist public safety practitioners, including first responders, and is 
the first national effort ever undertaken to convene all the players. 
In addition, it provided insight on federal resource needs, how 
government can leverage existing program successes and resources in the 
area of standards development, approaches, and products and services. 
The Summit results provided help in formulating a coordinated approach 
toward nationwide communications interoperability.

SAFECOM Vendor Demonstration Day
    In August 2003, the Science and Technology Directorate held its 
first SAFECOM Vendor Demonstration Day, with an overwhelmingly positive 
response from technology providers. Due to the increasing number of 
vendor requests to present their technologies to the SAFECOM Program, 
the S & T Directorate is holding a vendor demonstration day on the last 
Friday of every month. These Friday sessions will offer a chance for 
SAFECOM to learn about new technologies for interoperability, provide a 
clear process for managing vendor requests, and ensure that every 
vendor has a fair opportunity to participate.

Information Analysis and Infrastructure Protection Programs
Addressing Threats and Vulnerabilities in the Oil and Gas Industries
    The S & T Directorate sponsored and delivered a prototype system to 
the Information Analysis and Infrastructure Protection (IAIP) 
Directorate to perform Graphical Information System (GIS) based 
computer assisted threat and vulnerability mapping of the oil and gas 
infrastructure in the American Southwest. S & T is also in the process 
of delivering to IAIP cutting edge visualization, data searching, data 
correlation, and all-source analytic aids to provide IAIP advanced 
analytic capabilities integrated with vulnerability information.

Advanced Algorithms for Biodetectors
    Researchers funded by the S & T Directorate's Advanced Scientific 
Computing Research and Development program achieved an important 
milestone in the speed acceleration of software used to develop 
advanced biodetectors. Scientists have made a pair of related 
algorithmic advances that will speed the creation of DNA signatures for 
pathogen detection at considerably reduced cost. These discoveries will 
result in cheaper, faster, and more reliable bio-detectors for homeland 
security.

Threat-Vulnerability Mapper
    Part of the Threat-Vulnerability Information System, the Threat-
Vulnerability Mapper (or TVM), was installed in the analysis center of 
the Information Analysis and Infrastructure Protection Directorate in 
December 2003 and is already in constant use. Developed by the S & T 
Directorate, the TVM provides counterterrorism analysts with a simple, 
straightforward way to not only depict the geographic distribution of 
threats across the United States, but also to search the underlying 
databases for information on the possible actors, agents, potential 
severity of attacks, and extent of the vulnerabilities to and effects 
of such attacks. A second TVIS component was delivered to IAIP in 
January 2003 and should be installed and operational by the end of 
February 2004.

Critical Infrastructure Protection Decision Support System
    On December 24, 2003, S & T's Critical Infrastructure Protection 
Decision Support System (CIP/DSS) team was asked to conduct a rapid 
analysis of potential consequences following discovery of a cow in 
Washington State with bovine spongiform encephalopathy (BSE), commonly 
known as Mad Cow disease. An analysis was developed within hours using 
available open literature, past historical data, and the results from 
an early stage, Dynamic Simulation agriculture model.

Cybersecurity
Experimental Infrastructure Network for Cyber Defense
    Led by the S & T Directorate, DHS is co-funding with the National 
Science Foundation a $5.45M, three-year research project to create an 
experimental infrastructure network to support development and 
demonstration of next generation information security technologies for 
cyber defense. This project supports national-scale experimentation on 
emerging security research and advanced development
technologies. Called Cyber Defense Technology Experimental Research 
(``DETER'') Network, this is a multi-university project led by the 
University of California, Berkley.

Evaluation Methods in Internet Security Technology
    DHS is co-funding with the National Science Foundation, a second 
cyber security project called Evaluation Methods in Internet Security 
Technology (EMIST). EMIST is a testing framework that can be adapted to 
simulators, emulation facilities, other testbeds, and hardware testing 
facilities. The framework will include attack scenarios, attack 
simulators, generators for topology and background traffic, data sets 
derived from live traffic, and tools to monitor and summarize results. 
EMSIT is a three-year, $5.6M, multi-university research project that 
includes Penn State; University of California, Davis; Purdue; and the 
International Computer Science Institute.

United States Coast Guard
Maritime Surveillance Testbed Prototype
    In September 2003, S & T's Homeland Security Advanced Research 
Projects Agency and the United States Coast Guard planned and funded 
the South Florida Coastal Surveillance Prototype Testbed, a port and 
coastal surveillance prototype in Port Everglades, Miami, and Key West 
areas. The prototype is an evolutionary testbed that:
        <bullet> Provides an initial immediate coastal surveillance 
        capability in a high priority area
        <bullet> Offers the Coast Guard and other DHS agencies the 
        means to develop and evaluate CONOPS (Concept of Operations) in 
        a real world environment
        <bullet> Implements and tests interoperability among DHS and 
        DoD systems and networks such as the US Navy/Coast Guard Joint 
        Harbor Operations Center (JHOC).
        <bullet> Tests and evaluates systems and operational procedures
        <bullet> Becomes the design standard for follow-on systems in 
        other areas and integration with wider area surveillance 
        systems.
    The program has two phases; an initial prototype development phase, 
and an improvements and update phase. The program is expected to begin 
operations in June 2004 and is funded at $2.4M for fiscal year 2003 and 
$5M for fiscal year 2004 .

Partnerships
Workshop on Scientific Computing in Support of Homeland Security
    The Science and Technology Directorate brought together experts 
from academia, private industry and the national laboratories with 
staff from various organizations within the Department to understand 
how the S & T Directorate's advanced scientific computing (ASC) 
capabilities, centered at the national laboratories, can help address 
needs across the Department. This workshop, held October 8-9, 2003, has 
resulted in identifying several areas of potential high payoff for the 
use of these unique capabilities; two examples are advanced research in 
data management and information extraction, and research and 
development of computational simulation tools. The workshop will 
produce a formal report identifying relevant ASC capabilities and 
matching them up with identified needs within the Department of 
Homeland Security for improved operational capabilities.

Infrastructure Subcommittee of the National Science and Technology 
Council
    Staff members of the Science and Technology Directorate had a major 
role in drafting the first charter for the National Science and 
Technology Council's (NSTC's) Infrastructure Subcommittee; the 
Subcommittee's first Co-Chairs are from the S & T Directorate and the 
Office of Science and Technology Policy. The Subcommittee serves as a 
forum within the National Science and Technology Council (NSTC) for 
developing consensus and resolving issues associated with coordinating 
R & D agendas, policy, and programs to develop and protect the nation's 
infrastructure. The Subcommittee will also be the vehicle used by the 
Department of Homeland Security and the White House Office of Science 
and Technology Policy to develop the National R & D Plan for Critical 
Infrastructure Protection.

Homeland Security Standards Panel
    The S & T Directorate worked with the American National Standards 
Institute (ANSI) and the National Institute of Standards and Technology 
(NIST) to establish a Homeland Security Standards Panel (HSSP) that 
would coordinate the development of consensus standards among the 280 
different standards development organizations. On June 9-10, 2003, the 
inaugural meeting of the ANSI Homeland Security Standards Panel was 
held at NIST. Plenary session presentations were given by four S & T 
Directorate staff members to outline the needs in Department for 
standards. The panel selected a small list of topics to address with 
focus workshops. The first of these occurred in September 2003 with a 
focus on needs for standards in biometrics.

Joint DHS/USDA National Strategy for Foreign Animal Disease
    At the request of the Congressional Appropriations Committees for 
both DHS and the Department of Agriculture (USDA), the two departments 
have coordinated a report on a national strategy for foreign animal 
disease. Participants in the joint study included DHS (S & T), USDA 
(the Agricultural Research Service and the Agriculture and Plant Health 
Inspection Service), and stakeholder groups. The joint study has 
prompted an end-to-end review of the national response strategy 
following the identification of a case of foot-and-mouth disease, 
including the R & D requirements and gaps for assays, diagnostics, 
vaccines, and antivirals. Comprehensive roadmaps have been developed 
for these research areas, in one-, three-, and five-year timeframes. 
These roadmaps are important elements of program planning for S & T.

National Security Council Attribution Working Group
    The S & T Directorate initiated and leads the National Security 
Council Attribution Working Group, which is revisiting national 
capabilities to rapidly perform forensic analysis in cases of nuclear 
and radiological events of any size. This effort is expected to lead to 
a robust and completely coordinated forensic capability for 
attribution.

Workshops on Comparative Analysis
    S & T's Office of Comparative Studies has sponsored two workshops 
on identifying analysis techniques and information sources crucial for 
analyzing the interaction of the terrorist threat with S & T 
activities. These workshops brought together participants from two DHS 
directorates, other government entities, academia and private industry 
and have helped to improve communication between these groups. 
Important analytical techniques and sources of information were 
identified and have been utilized. The workshops were also used to 
establish a set of topics which the office could profitably study. A 
proposal is being prepared which will solicit work on several of these 
topics.

Homeland Security Institute, and Homeland Security Science and 
Technology Advisory Committee
Homeland Security Institute
    A formal solicitation was issued in December for the Homeland 
Security Institute (HSI), and proposals were received in January 2004. 
Those proposals currently are being evaluated with an expected five-
year award by early May 2004. However, current legislation states that 
the Institute's operation will terminate in November 2005; this issue 
is of concern to the bidders.

    The HSI was mandated by the Homeland Security Act to assist the 
Secretary and the Department in addressing important homeland security 
issues that require scientific, technical, and analytical expertise. 
The Institute will provide a dedicated, high-quality technical and 
analytical support capability for informing homeland security decision 
making at all levels. This capability will consist of an extensive 
program of operational assessments, systems evaluations, technical 
assessments, and resource analyses comparable to the capability 
developed and used for decades by the Defense establishment. The 
Institute will also provide analytical and technical evaluations that 
support DHS implementation of the SAFETY Act. Finally, the Institute 
will create and maintain a field operations program that will help 
further introduce real-world needs and experiences into homeland 
security is a disciplined and rigorous way.

Homeland Security Science and Technology Advisory Committee
    The Homeland Security Science and Technology Advisory Committee 
(HSSTAC) was formally established in December 2003 and holds its first 
meeting in February 2004.
    The HSSTAC was mandated by the Homeland Security Act to be a source 
of independent, scientific and technical planning advice for the Under 
Secretary for Science and Technology.
    The committee will (1) advise the Undersecretary on the mission 
goals for the future; (2) provide advice on whether the policies, 
actions, management processes, and organization constructs of the 
Science and Technology Directorate are optimally focused on mission 
objectives; (3) provide advice on whether the research, development, 
test, evaluation, and systems engineering activities are properly 
resourced (capital, financial, and human) to accomplish the objectives; 
(4) identify outreach activities (particularly in accessing and 
developing, where necessary, the industrial base of the Nation); and 
(5) review the technical quality and relevance of the Directorate's 
programs.

Countermeasures to Man-Portable Air Defense Systems
    The S & T Directorate has selected three firms to provide analyses 
of the economic, manufacturing and maintenance issues needed to support 
a system to address the potential threat of MAN-Portable Air Defense 
Systems (MANPADS) to commercial aircraft. The next phase of the program 
will include development of prototypes using existing technology which 
will be subjected to a rigorous test and evaluation process. This 
initiative is not intended to develop new technology, but rather to re-
engineer existing technology from military to commercial aviation use.

University and Fellowship Programs
Fellowships and Scholarships
    In September 2003, the S & T Directorate named 100 students to the 
inaugural class of the Department of Homeland Security's Scholars and 
Fellows Program. The program, which received more than 2,400 
applications, supports United States students who choose to pursue 
scientific careers and perform research in fields that are essential to 
the homeland security mission. The first class consists of 50 
undergraduate students and 50 graduate students who are attending 
universities across the country majoring in the physical, biological, 
and social and behavioral sciences including science policy, 
engineering, mathematics, or computer science. The Directorate has 
already issued a notice inviting applications from students for the 
2004-2005 academic year. The website is http://www.orau.gov/dhsed/.

University Centers of Excellence
    The Science and Technology division has created the Homeland 
Security Centers Program that supports university-based centers of 
excellence dedicated to fostering homeland security mission critical 
research and education. The program has established the first Center of 
Excellence focused on risk analysis and modeling related to the 
economic consequences of terrorism at the University of Southern 
California, partnering with the University of Wisconsin at Madison, New 
York University and the University of California at Berkeley. A request 
for proposals has been issued for the second and third Centers of 
Excellence, which will focus on animal-related and post-harvest food 
agro-terrorism.

Homeland Security Advanced Research Projects Agency
Near-Term Technologies
    In May 2003, the Science and Technology Directorate's Homeland 
Security Advanced Research Projects Agency (HSARPA) released a Broad 
Agency Announcement through the Technical Support Working Group for 
near-term technologies that can be rapidly prototyped and deployed to 
the field. A total of 3,344 responses as received in the following 
broad categories: chemical, biological, radiation and nuclear 
countermeasures; personnel protection; explosives detection; 
infrastructure protection; physical security; improvised device defeat; 
and investigative support and forensics. The first contract award went 
to North Carolina State University for the development of the next-
generation of structural fire fighting personal protective equipment.

Detection Systems
    The S & T Directorate reviewed and selected proposals for funding 
in response to its Research Announcement for Detection Systems for 
Biological and Chemical Countermeasures, which was published through 
the Technical Support Working Group. In September 2003, the Homeland 
Security Advanced Research Projects Agency (HSARPA) held its first 
Bidders Conference in Washington, DC. Approximately 420 private sector 
and university representatives attended the event and over 500 white 
papers were submitted. Finalists have been selected for negotiation, 
and work has already begun in a number of the more important areas.

Virtual Cyber Security Center
    On December 13, 2003, a Request for Proposals and Statement of Work 
for technical and administrative support for the virtual Cyber R & D 
Center was published to seven capable performers listed on the GSA 
schedule. The deadline for response was December 15, 2003, and two 
responsive proposals were received. A three million dollar technical, 
management, and administrative contract was awarded to SRI 
International on February 2, 2004, to support the functions of the 
HSARPA Cyber R & D Center. The Cyber R & D Center will be the primary S 
& T interface with the academic and industrial cyber security research 
communities.
Small Business Innovation Research (SBIR) Program Solicitation
    On November 13, 2003, the Homeland Security Advanced Research 
Projects Agency (HSARPA) issued a Small Business Innovation Research 
(SBIR) Program
Solicitation. The purpose of this solicitation was to invite small 
businesses to submit innovative research proposals that address eight 
high-priority DHS requirements:
        <bullet> New system/ technologies to detect low vapor pressure 
        chemicals (e.g., Toxic Industrial Chemicals)
        <bullet> Chemical and biological sensors employing novel 
        receptor scaffolds
        <bullet> Advanced low cost aerosol collectors for surveillance 
        sensors and personnel monitoring
        <bullet> Computer modeling tool for vulnerability assessment of 
        U.S. infrastructure
        <bullet> Ship compartment inspection device
        <bullet> Marine Asset Tag Tracking System
        <bullet> Automatic Identification System tracking and collision 
        avoidance equipment for small boats
        <bullet> Advanced Secure Supervisory Control and Data 
        Acquisition (SCADA) and related distributed control systems.
    By the December 15, 2003, deadline 374 proposals had been received. 
The evaluation is complete and 66 proposers entered negotiation for 
Phase I contracts beginning February 11, 2004.

SAFECOM Vendor Demonstration Day
    SAFECOM held a Vendor Demonstration Day on January 30, 2004. 
SAFECOM's Vendor Day allows several communications equipment and 
service providers to present their products and/or technologies for 
SAFECOM. Responses from the SAFECOM Request for Information in November 
2003 were used to select vendors for this event. Each vendor selected 
represents a different approach to solving the communications and 
interoperability problems facing first responders.

International Programs
Agreement with Canada on Border and Infrastructure Security
    On October 3, 2002, Secretary Tom Ridge and Canadian Deputy Prime 
Minister John Manley initialed an agreement on Science and Technology 
Cooperation for protecting shared critical infrastructure and enhancing 
border security. The S & T Directorate is participating in a Working 
Group to develop near-term deliverables and projects to protect shared 
critical infrastructure such as bridges, dams, pipelines, 
communications and power grids; to develop surveillance and monitoring 
technologies to enhance the ability to disrupt and interdict 
terrorists; and to develop technologies for detecting the illicit 
transportation of chemical, biological, radiological, and nuclear 
weapons.

Weapons of Mass Destruction and Incident Management
    Between March and December of 2003, the Office of Weapons of Mass 
Destruction Operations and Incident Management (WMDO-IM) provided 
surveillance and operational incident response to the Homeland Security 
Operations Center and law enforcement officials on 24 separate 
occasions. In addition, the WMDO-IM provided operational support to the 
Homeland Security Operations Center during Hurricane Isabel and the 
Northeast blackout.
    The WMDO-IM established a scientific reach-back and rapid decision 
support capability through the Scientific and Technical Analysis and 
Response Teams (START). In addition to activating the START teams 
during the Code Orange time period in December 2003, WMDO-IM provided 
technical expert consultations on threats to the nation's water 
resources and responded to concerns about impacts of solar flares
    WMDO-IM helped develop the Initial National Response Plan (INRP) 
and its National Incident Management System; the INRP represents a 
significant first step towards an overall goal of integrating the 
current family of Federal domestic prevention, preparedness, response, 
and recovery plans into a single all-discipline, all-hazards plan.
    WMDO-IM provided technical support to the Homeland Security 
Operations Center (HSOC), assessing vulnerabilities and actions the 
HSOC can take to improve the ability to resist a chemical or biological 
terrorist attack.
    WMDO-IM, with the Defense Threat Reduction Agency and Nuclear 
Regulatory Commission, developed curriculum for a week-long training 
workshop on weapons of mass destruction for the Central Intelligence 
Agency University. Also in the area of education and training, WMDO-IM 
established a homeland security medical executive training course.

    Mr. Thornberry. Thank you, Dr. McQueary, and let me take a 
second to compliment you and your folks on the full statement 
that you have submitted for the record.
    I--you may not answer every question, but you, I think, do 
a very good job of going through the different areas that you 
all are working in, and also setting goals for 2005, and we can 
have this hearing again next year, and we can, as the 
gentlelady from California wants to ask, I know, about what you 
said last year, we can do it again next year, and see whether 
those goals have been made. And so I appreciate the work that 
you and your folks have done. It does help give us all 
confidence in what you are doing.
    I am going to reserve my time at this point and yield to 
the gentlelady from California for any questions she might like 
to ask at this point.
    Ms. Lofgren. Thank you, Mr. Chairman. I just have a few 
questions relative to the budget, I suppose, and the first 
thing I want to raise has to do with the academic--university 
centers.
    Now, I think we all thought that was a pretty good idea 
last year when we went through it, and--but in the budget, if I 
am correct, there is only $30 million allocated for this 
activity, and I don't think that is enough to do the centers 
that we--the number of centers that we talked about. I think it 
was appropriated $70 million, and I don't think that was all 
spent, so I guess that is a question. Was it all spent, and how 
are we going to award the 10 centers, and--that we had 
originally planned on, and if we are not going to do that, 
well, why not, and in particular, I will be a little parochial 
if I may, we have, in San Jose, a university center on 
transportation that I have heard from--not just from them, but 
I heard from the Navy and I also heard from Lawrence Livermore 
National Lab that they are doing very important work in terms 
of security, and--on transportation issues, and I know we have 
looked at ag, and we are looking at some other things, but we 
have infrastructure issues that are huge that I am not sure we 
are really dealing with in any department, and I was hoping 
that either with them, or--we might be able to do that. So can 
you address that whole issue, the university centers, for us, 
please?
    Mr. McQueary. Well, you have raised several important 
issues, and certainly, the request that we have in is $30 
million, with $30 million for this year, or--and if one had the 
same amount for outgoing years, that would support 
approximately 3 Centers of Excellence. These are approximately 
$5 million, minus the--our expenses. And then, the remaining 15 
will--$15 million would support another 100 Scholars and 
Fellows there. One of the things I have learned in this job is 
that we all work for someone, and it is my job--we had the 
adequate opportunity to debate the issue about what the size of 
the budget should be for the Fellows and Scholars program. At 
this point, I view my responsibility as one of trying to make 
the best performance that we can get out of the budget that has 
been requested, and that is what I can assure you I will do.
    Ms. Lofgren. So, without putting words in your mouth, it 
sounds like the 3 was a budget decision more than a policy 
decision that you made from your shop.
    Mr. McQueary. I didn't say--it is a consequence of a budget 
decision, yes. Okay.
    Ms. Lofgren. Okay. Was the $70 million appropriated 
actually spent?
    Mr. McQueary. No, ma'am. The--we have not spent all of the 
70. In fact, without going through the rigorous details of the 
arithmetic, an approach that we could use, and we--I am not 
proposing we do this, we have enough money so that we could 
actually create five--a total of five centers, but the problem 
would be at the end of the three year period, would be--we have 
been allocating these for three years, there would be at least 
two of them that would have to be stopped, because $30 million 
would not be sufficient to sustain five units at that--.
    Ms. Lofgren. Well, I don't know what the Chairman thinks, 
but it seems to me that you can get a lot of pretty good 
research done in three years, especially if you are honing in 
to assessments, not just solutions, and as we know from the 
Senate hearing and the hearings we have had, we are way behind 
in our threat assessment activity everywhere, in cyber and in 
critical infrastructure, and without good assessments, you 
really don't have a work plan for expenditures, so I would tend 
to favor doing something rather
than--.
    Mr. McQueary. Okay.
    Ms. Lofgren. I mean, that is just one person's opinion, 
obviously, but maybe we can get into that discussion at some 
point. I am also concerned about the Department of Energy labs, 
and I am interested in hearing about this designation of--I was 
surprised by intramural, extramural, what does this mean, and 
why was this done, and what are the implications for the 
various labs. I think that the feedback I have gotten from the 
scientific community is that those who have been designated 
extramural are grumpy, because they weren't good enough to be 
intramural. Those who have been designated intramural are 
grumpy, because they can't compete for funding, and nobody is 
happy, and so when you--so I am interested why we did this and 
whether we are going to continue to do this.
    Mr. McQueary. This has been quite a remarkable experience 
for me personally, to find the--what I will call the firestorm 
that we have been able to develop with something in which we 
actually thought--we truly thought and discussed this in great 
detail internally, and also with 9 of the labs, that we are 
trying to use the approach that would maximize the 
opportunities for the labs to participate in what we are doing, 
and so the logic in our thinking was as follows. Because of the 
charter, the--or the mission that we have, chemical, 
biological, radiological, and nuclear, and high explosives, 
some labs have more to offer in these areas than do other labs, 
and therefore, what we concluded is that there was a small 
number of the labs in which we expected to be using more than 
the others, and we would--and we needed to have those, we felt 
we needed to have those labs be participants in what I will 
call our internal planning and so forth, and so our conclusion 
was that it would not be appropriate to let those labs also 
compete externally, if they have insider information, so we 
concluded that what we should do is designate the five that we 
chose as the intramural labs, and with that goes the 
responsibility of--or the requirement that they not compete on 
any business or university teams for any of the work we do.
    The others, what we believed we were doing was providing an 
opportunity for them to either compete directly for--in other 
areas, such as through HSARPA, where we will be spending money, 
or to team with private industry and/or to have a larger 
possibility, because had we gone down a path, quite frankly, of 
choosing, let us say we chose all 9 or chose all 22 and made 
them all intramural, meaning that we gave them full access to 
all of our internal information, there would be some of those 
labs that would get virtually no money, because they just don't 
have the skills and expertise that we find that we need at this 
time. Now, that could change later on, but at least as we look 
at it right now.
    So we thought we were doing something that would be 
beneficial, but obviously, it has not been perceived that way, 
although one thing you did say that I have not personally 
encountered, those that have been designated as the intramural 
labs, I have not had any complaints from them. I have had a 
fair share from those who were designated as the extramural 
labs--.
    Ms. Lofgren. Well, I think their concern is that they will 
not be able to compete--I mean--.
    Mr. McQueary. Well, they will not be able to. That is 
the--.
    Ms. Lofgren. If--for example, I mean, you have got--without 
naming names, some labs where, I mean, the depth of the 
scientific experience is just breathtaking. I mean it is 
awesome.
    Mr. McQueary. In many cases, yes.
    Ms. Lofgren. And so they are the intramurals, but we are 
going to deny the best scientists in their field, maybe in the 
world, the opportunity to actually do work for us later.
    Mr. McQueary. Well, at the same time we have these views 
coming from the private labs, we also have a university and a 
private sector who looks at the labs as their competition.
    Ms. Lofgren. Right.
    Mr. McQueary. And a view that the labs have, well the 
insight into what the government wants to do, and therefore, 
they have the added advantage, and so we have been trying to do 
a--what I will call a balancing act--.
    Ms. Lofgren. Right. But--.
    Mr. McQueary. --to work something out, but excuse me.
    Ms. Lofgren. But our job is to get a job done, not to be a 
jobs program, right?
    Mr. McQueary. Absolutely right. And I completely agree with 
that, and in fact, you raise a point, if I may make it here, 
the amount of money that Science and Technology will spend in 
all of the labs on what I see as an ongoing basis, is about 
$200 million. DOE spends almost $9 billion, or they have a 
total budget on those labs of almost $9 billion. The Department 
of Homeland Security has about another $100 million, the 
balance being spent primarily in other directorates, Borders, 
and Transportations, so there is about $300 million out of $9 
billion, so we represent 3 percent of the total budgets they 
have got.
    And had we gone down a path of let us just put some of this 
in all the labs, it is my professional view that we would have 
such a small amount of money in any lab that it would be 
difficult to get the needed attention that we have to have on 
ours, other than through, you know, Congressional direction or 
something of that sort, and that is not the way to get 
scientists to perform.
    Ms. Lofgren. So, I will stop, because I--we will have a 
second round, but--.
    Mr. McQueary. Okay.
    Ms. Lofgren. You are not planning to change this 
intramural, extramural--.
    Mr. McQueary. Oh, at the--I had testimony before 
Congressman Boehlert's Committee the last week or week before, 
time runs together for me.
    Ms. Lofgren. Yes, it does.
    Mr. McQueary. And what we agreed to do is have an 
independent review team. I volunteered to have an independent 
review team to look at the methodology we had used to make the 
selection, because there was nothing magical about it, or 
intended to be surreptitious, and so I would be have it 
examined, and we will see where we go from there. Another--and 
we will look at options. We could make them all--as a 
possibility, although I would rather not do that today. I 
wouldn't do it today. It could all be intramural, but with that 
goes the requirement that they not be, as they get access to 
inside information, then they cannot compete, as I would see it 
today, because I view--that would be against fair competition 
with private industry and not something--a direction we should 
go in.
    Ms. Lofgren. We will have greater discussion on this.
    Mr. McQueary. Okay.
    Ms. Lofgren. And I--.
    Mr. McQueary. Sure.
    Ms. Lofgren. I am a big fan of the private sector, as you 
know, but I also think that you would be hard pressed to find 
the depth of science, and anybody in industry will tell you the 
same thing, in the private sector that you will find at some of 
these labs in some of these specialized subjects. I mean, it is 
just--.
    Mr. McQueary. In some areas, you are absolutely right.
    Ms. Lofgren. That is why we have the arrangements that we 
do to roll their science out into the private sector. I mean, 
there are really gems, national gems.
    Mr. Thornberry. Completely agree. Sometimes, I think if 
nobody is happy, that you have hit on a pretty good mean, but I 
don't know if that is completely true. The gentleman--.
    Mr. McQueary. That was not my intent, but--.
    Mr. Thornberry. The gentleman from New Jersey.
    Mr. Andrews. Thank you, Mr. Chairman. Thank you, Secretary 
McQueary, for an excellent job testifying and for the written 
materials as well. I too appreciate the establishment of 
benchmarks and measurement parameters, so we can see how you 
are doing, and so you can see how you are doing. I have three 
questions.
    The first is about biowatching. To the extent that you can 
tell us without breaching any classified information, was a 
Biowatch facility used in the Senate Office Building when the 
ricin incident occurred?
    Mr. McQueary. No, sir. It was not.
    Mr. Andrews. Was there a reason?
    Mr. McQueary. We did not--ricin is not something that would 
be detected by Biowatch, and I would rather not go into much 
more detail, but we could certainly have a classified 
discussion
about--.
    Mr. Andrews. Is it one of our goals to develop technology 
that would make ricin identifiable?
    Mr. McQueary. Ricin is readily identifiable if you begin to 
look for it, as I am told. I mean, my understanding of the 
details of the science, but the difficulty isn't--is not in 
identifying it, as we saw when the first indication, whether we 
have a scientific method of being able to determine, 
independent of human intervention, I can't answer that 
question, but I will be happy to--.
    Mr. Andrews. I understand.
    Mr. McQueary. --determine whether there is something and 
provide an answer for it.
    Mr. Andrews. The second issue is about standards. I think 
among the most important tasks among many important tasks that 
your agency has is to develop good, clear, high standards, and 
here is the measurement parameter I, in my own common sense, 
would have used to measure that. No doubt, somewhere in America 
today, some Port Authority executive is being approached by a 
vendor who wants to sell her or him a radiologic dirty bomb 
detection device, and the vendor will do a PowerPoint 
presentation and have a slideshow and a CD-ROM they could leave 
behind that says how well it works.
    Two questions. Does the Port Authority executive, under the 
law that we are working under, have the obligation to refer to 
standards that you have created, and second, have you created 
standards to which the Port Authority executive could refer to 
determine whether the product is workable or junk?
    Mr. McQueary. It is very difficult to tell whether it is 
junk, because junk is sometimes in the eye of the beholder. 
The--we do have standards that we are considering--.
    Mr. Andrews. Shouldn't you be the--we want you to be the 
beholder.
    Mr. McQueary. Okay. All right. Fair enough. We do, indeed, 
have standards for radiological detection devices. We have 
issued those standards, and they are available. The methodology 
that we propose to use for states and locals that would buy 
things for which we do provide standards, and we have many that 
we have to do, would be in the grant program that we have, we 
will specify, that is administered by Office of Domestic 
Preparedness, we would specify the types of equipment that 
should be purchased with that, and we believe that that will be 
motivation, because I can assure you at least in our 
interaction with state and locals, they are anxious to have 
standards from us. They are anxious to have equipment be 
interoperable.
    Mr. Andrews. Are we at the point where those standards are 
now being included in the contracts for the grant agreements to 
these local recipients?
    Mr. McQueary. Yes, sir.
    Mr. Andrews. That is great.
    Mr. McQueary. We have included--for the radiation 
detectors,
and--.
    Mr. Andrews. And I assume that that is on a continuously 
upgraded basis, as we learn more about these detectors, the 
standards will rise.
    Mr. McQueary. That is correct.
    Mr. Andrews. So something that meets the standards in 2003 
may not meet it in 2006, because we can do a better job in 
2006.
    Mr. McQueary. Right. And that is the very nature of 
standards, but you have a body. We of course use the National 
Institute of Standards and Technology as well as ANSI and other 
standard agencies. We are--we have not become a standards 
agency. What we have become is a stimulator--.
    Mr. Andrews. Right.
    Mr. McQueary. --of other organizations to help us prepare 
standards for areas that are technologically--.
    Mr. Andrews. I cannot emphasize enough how important it is 
that we broaden the substantive reach of those standards, and 
then increase the depth to which the standards reach, so that 
certainly no federal dollar is spent on unworkable technology.
    Mr. McQueary. Very important.
    Mr. Andrews. And hopefully, eventually, no dollar, private, 
public, federal, or local, is spent on such technology. The 
world, as Congresswoman Lofgren said, is just filled with 
charlatans right now. You know, two guys who can string 
together two soup cans and some fishing wire and call it a 
telecommunications system, and it is very important for reasons 
of protecting the public and protecting the public's wallet 
that we not secede to that wish. The third question is about 
standards in cybersecurity. What is a realistic expectation for 
a year from now for us to expect from your agency in 
stimulating standards in the area of cybersecurity. What would 
be a successful 2004 for your agency?
    Mr. McQueary. The--excuse me, the area of cybersecurity, as 
we all know, is a very complex one, because of the high degree 
of complexity of the Internet and all the interactions that 
that entails. Whether we can actually develop standards that 
will be--that we can point to in a year's time, I could not 
answer that question, and it would be inappropriate for me to 
even try to do that, because I don't think we are far enough 
into this. We do have the National Standards--the National 
Cybersecurity Division that has been formed as a part of the 
information analysis infrastructure protection, actually 
particularly reporting into--to the Assistant Secretary 
Liscouski. I believe that is the right place for it. We have a 
close relationship with the Director of that organization. In 
fact, I have a person dedicated full-time to working with that 
organization, so that we can help them from a scientific 
perspective understand the kinds of things that we need to do. 
We do have a couple of programs underway with the National 
Science Foundation, and the National Institute for Science and 
Technology that deals with cybersecurity, but I think it is 
premature for me to try to speculate on what we can actually do 
in a year's time, because of the complexity.''
    Mr. Andrews. Thank you very much. Thank you, Mr. Chairman.
    Mr. Thornberry. I thank the gentleman for his questions. 
The Subcommittee has been joined by the full Committee 
Chairman, the gentleman from California. Does the Chairman wish 
to be recognized at this point?
    Mr. Cox. I thank the Chairman. I would like to also thank 
Dr. McQueary for joining us today, and before I put just one 
question, I would like to acknowledge that this is the one year 
anniversary of the Department, and in particular, I would like 
to acknowledge the progress that you have made in your area of 
responsibility. You haven't even been there for a full year, if 
I am not mistaken.
    Mr. McQueary. That is correct.
    Mr. Cox. And so, the amount of territory that we have 
covered in a very short period of time is just absolutely 
extraordinary, particularly when we think that your 
responsibility, unlike some of what comprises Homeland 
Security, the merger of preexisting agencies, your 
responsibility is to create this S & T Directorate from whole 
cloth, and so it is truly formidable. I want to congratulate 
you on your successful implementation of Biowatch in 30 cities. 
I want to thank you for getting the SAFECOM program online, so 
that we can help our first responders with interoperability. I 
want to thank you for generally improving the flow of 
technology to our first responders, and finally, I want to 
thank you for your contribution to a metrics based strategic 
plan, the top line abstract of which we received here in 
Congress yesterday.
    Second, I want to let you know that there is significant 
support on both sides of the aisle on this Committee for the 
President's budget for R & D investment for S & T within the 
Department. The President's fiscal year 2005 budget proposal, 
across all of our Federal partners, is increasing R & D 
investment by 44 percent over 2001 levels, and that is going to 
take us to $132 billion next year alone.
    The commitment to Homeland Security, I think, is very 
clear, because your Homeland R & D budget is the largest 
increase of any executive branch agency or department. You are 
going to get--if the President's budget actually becomes 
authorized and appropriated, 15.5 percent, in Fiscal 2005, so I 
think that reflects the properly--support, not just in the 
legislative branch, but throughout the executive branch and at 
the White House as well, the strong support for your mission.
    The question I want to put to you concerns the Safety Act. 
The Safety Act, of course, which was part of the Homeland 
Security Act, is meant to provide some legal certainty for 
people who are developing and then deploying technology that 
can protect us from terrorism. It puts them in the crosshairs 
from a liability standpoint, because by definition, if this 
equipment is ever going to be useful, it is going to be useful 
in an event of mass catastrophe or mass murder or some really 
awful calamitous event, and when bad things happen, lawyers are 
sure to follow. We want to make sure that, you know, to the 
extent that people are following all the rules in the law that 
they are getting the protections of the Safety Act, which 
doesn't immunize them from lawsuit, but at least gives them 
some certainty, and that received, as you know, bipartisan 
support when we put it into the law.
    One of the responsibilities of your Directorate is that you 
are going to prioritize the applications under the Safety Act. 
We have got a website that is up, and the data that I am 
looking at here indicate that you are getting about 2,000 hits 
a week on this website, but we have only had 9 full 
applications under the Safety Act, and 5 of those antedate the 
website being up. We have only had 31 pre-applications, and 
there is some indication that part of the reason that this is 
so underutilized, and we are not bringing anything through to 
fruition, because nobody has been approved, is that there might 
be some undue burden, or we have got some barriers to entry 
here.
    There have been some expressions of concern about 
speculative questions, particularly regarding potential 
liabilities surrounding events in which these technologies 
might be used, and I know that it is your interest in avoiding 
any unintended burdens on applicants. So I am wondering what 
the Directorate can do, and what you have in mind to do, so 
that we can be a little more aggressive in implementing this 
part of the Act, and get some leverage so we can realize the 
Act's intended benefits.
    Mr. McQueary. The--well, the points you raise are very 
important ones, and as you well know, we issued the Act on an 
interim basis. It is still an interim Act at this point, and I 
believe it is March or April before we would expect the final 
version, and the intent of that all along has been to get as 
much feedback from industry and people who have an interest in 
this to try to make it be as--not have it be onerous in any 
way. Now--and we--the inputs that we primarily had, so far, 
some people still believe that it takes more time to fill out 
than the others, we have asked in each instance where people 
have submitted full applications, to give us their estimates as 
to how much time was spent, so that we can get a sense of what 
it is. That is one thing, and as I understand it, we have not 
had anyone coming back in a formal sense and telling us what 
they have actually spent on that.
    The other thing that we have asked to do is to visit--have 
some of our professional people out of the SAFETY Act Group 
visit with each one of those who have submitted a formal 
application, and review in detail what their issues are, so 
that we can try to move in a direction for making this be as 
simple as possible, because we--I completely agree with you. It 
needs--I think it needs to be thorough and professional, but it 
does not need to--we should not have it be overly burdensome 
and complex. We do have a difference in point of view within 
our people who put together the--request the information as to 
how complex it is, versus what some have said, and I think we 
need to reach closure on that, so we have a common 
understanding, and that is the path we are on right now.
    Mr. Cox. Well, I thank you, Dr. McQueary, and I thank you, 
Mr. Chairman. I yield back.
    Mr. Thornberry. I thank the Chairman. The Chair recognizes 
the gentleman from Texas, the Ranking Member.
    Mr. Turner. Thank you, Mr. Chairman. I was just thinking, 
as Chairman Cox was complimenting you on your progress, which 
we are all pleased with, that he probably didn't understand 
that as a graduate of the University of Texas, that should be 
expected.
    Mr. McQueary. Thank you.
    Mr. Turner. One of the areas that I have had some concern 
about, Dr. McQueary, is the fact that when we look at your 
budget as a whole, the lion's share of it is directed toward 
bio-countermeasures. We all know this is an area of great 
threat and need, so I don't mean to be critical of the 
commitment that we have made there, but as I look at some of 
the other areas, I am not sure that we are doing as much in 
some of these other areas as we need to be. We all know that we 
haven't yet completed this task within the Department of having 
this comprehensive threat and vulnerability assessment, and I 
think the head of that Directorate, a few months ago, said it 
might take 5 years. I talked to Admiral Loy the other day. He 
said no, that wasn't the date. That was unacceptable. It needed 
to be a lot shorter, and I urged him to continue to pursue that 
aggressively.
    In your written testimony, you set forth nine factors that 
your Directorate considers in prioritizing research and 
development activities. The sixth factor is a current threat 
assessment, as understood by the Intelligence Committee. The 
eighth factor is an expert understanding of enemy capabilities 
that exist today, or that can be expected to appear in the 
future. Both, obviously, are very critical and important 
factors, but in the absence of a completed, comprehensive 
threat assessment, please give us some feel as to how you 
interact with the IAIP Directorate in trying to discern those 
two factors, and make decisions with regard to allocation of 
budget requests.
    Mr. McQueary. The--that, of course, is one of several 
factors, as indicated in the testimony, that we use, and 
ultimately, we have professional people who--that are on the S 
& T staff, that take all of these inputs, and then render a 
judgment based upon their experiences and knowledge about the 
science involved, as to ultimately where we should be spending 
our money. The interaction with the IAIP group, I mentioned 
earlier, we have an individual in the cybersecurity area as the 
lead Director for our interaction in that area, dedicated full-
time to working with them. We have another group of people that 
work in the critical infrastructure protection area, and at 
least one of whom is in residence virtually full-time at the 
Naval facility on Nebraska Avenue there with the IAIP people. 
So, it is very much a--what I will call a human-to-human 
interaction and discussions among professional people, to help 
us render those judgments that we have to make, because we 
don't have any--I don't have a matrix, for example, of--I 
weight the nine different areas I mentioned, 1 through 10, and 
somehow end up with a numerical figure, and say, well, this 
tells me what to do. Ultimately, scientific judgment, and this 
is true no matter whether it is government or private industry. 
Smart people have to look at the circumstances and render 
judgments, and what you--we expect is to have them be right 
most of the time, and in this case, they need to be right all 
of the time, so--.
    Mr. Turner. What concerns me is that without that 
comprehensive threat and vulnerability assessment, in many 
ways, we are kind of operating ad hoc with regard to where we 
ought to spend our dollars. I know the bulk of the increase in 
your budget this year, the budget request, is in the bio-
countermeasure area. In fact, I guess if you took that out, 
your budget would probably be about level funding from 2004. 
So, if I am looking at the right line here, there is $407 
million in the bio-countermeasures area.
    Mr. McQueary. Yes.
    Mr. Turner. But when you look at cybersecurity, which we 
all know is another critical vulnerability, if I am reading 
your budget request correctly, it is $18 million.
    Mr. McQueary. Yes.
    Mr. Turner. And I am just not certain that I feel very 
comfortable with the process that leads us to the conclusion 
that $18 million is sufficient to deal with the threat in the 
cybersecurity area. Tell me how you feel comfortable with that.
    Mr. McQueary. Well, as you probably recall, we had $8 
million in there, and the first time I came before this group, 
and I certainly--I remember Chairman Cox and I am sure many 
others, pointed out that was inadequate. At that time, we did 
not have the National Cybersecurity Division in existence, and 
the Infrastructure Protection Group. We now have that. I 
believe they have a target. I have forgotten what he--I 
actually do not remember the budget that he has. So I view our 
$18 million as a supplement to the primary focus that is in the 
National Cybersecurity Division, and our job is to provide the 
R & D support for them, and based upon where we are right now, 
I am comfortable with that. Should we conclude that that was 
not the right amount, I would have no hesitancy to come back 
before this committee or any other that I deemed appropriate to 
ask for reprogramming if that were the case.
    If I may address the biologic area, would you--if I could 
just give you the--.
    Mr. Turner. Certainly.
    Mr. McQueary. --thinking on that. The way we--the biologic 
threat is what we refer to as a temporal threat. The other 
threats that we deal with are spatial threats, and what I 
specifically mean by that, the criticality for the biological 
threat is to be able to determine that something has occurred, 
and do that quickly, so that one can implement the necessary 
measures in order to try to deal with whatever that might be.
    In all the other threats, we know when that event has 
happened, whether--all the way from a nuclear bomb to some kind 
of dirty bomb, if you will. So you know where--and you know 
pretty much what the containment areas are, and so we 
understand what we have to do there. The way we determine where 
the money should be spent is by considering two critical 
factors. One is what is the magnitude--how severe is the 
threat, and certainly nuclear, in terms of the devastation it 
can cause, is very, very high--has a very high ``number'' 
associated with it, but there is also the factor of what is the 
probability or likelihood that that event will occur. And you--
when you look at the biological threat, the devastation that 
can be caused in the biological area is extremely high. The 
ease with which someone can inflict devastation upon this 
country is very easy, and therefore, from the standpoint of the 
place where I believe with all my heart and soul, where we need 
to spend a great deal of our effort and focus our attention is 
in that one. We don't do it at the exclusion of everything 
else, but I truly believe that the vulnerability in this 
country lies in the biological area as much as any, in terms of 
devastation of the country.
    Mr. Turner. When we heard that the Department was going to 
create a DARPA-like entity, most of us had in our minds that it 
would be for longer-term or advanced research kind of efforts. 
As I understand it, HSARPA, within your umbrella, has evolved 
more to deal with shorter term projects. I can understand the 
need for it, but I do regret that we still haven't been able to 
see a full advanced research agency similar to DARPA arise 
within the Department. Could you share with me your thoughts on 
that subject and what hope we might have for moving to the more 
advanced research kind of concept that we all thought we were 
creating initially?
    Mr. McQueary. Okay. I certainly will, because I view that I 
am responsible for the path that we are going down. As I got 
into this job, I--when I first took it, and probably, when I 
met with you in May of last year, if you had asked me what do 
you think your job is really going to be, I probably would have 
said I think setting the scientific direction that we need to 
go so we can determine what research areas we need to go into 
in order to make this country safer.
    After I once got into the job, and we began to see all of 
these interactions with companies and universities, and the 
labs, as Congresswoman Lofgren mentioned earlier, it became 
readily apparent to me that there is far more technological 
capability that exists in this country than we are taking 
advantage of, and so for us to launch onto a path of why don't 
we do more research before we determine how effectively we can 
use that which already exists, in my judgment, would not have 
been a proper course of action, number one.
    Number two, I think in view of the vulnerabilities that we 
have, it behooves us to spend money to try to make corrections 
today, if you will, today, tomorrow, short term, near term, in 
areas, and that is why I--that is the reason we have gone down 
that path. I believe over time that what we will do is evolve 
into more fundamental research, and so you will see a different 
balance. We are at about 10 percent in that range, 8 percent, I 
believe, fundamental research proposed in fiscal year 2005, and 
I would expect, over time, that will move in the direction that 
you have suggested, and appropriately so.
    Mr. Turner. Thank you, Doctor.
    Mr. Thornberry. I thank the gentleman. Dr. McQueary, just a 
stray thought that occurred to me. I am interested in your 
distinction between temporal and spatial. It may be that cyber 
has elements of both. They don't call them viruses for nothing, 
and it is interesting, because it may be a hybrid of some of 
the things, and we can talk about that later. The gentleman 
from North Carolina is recognized.
    Mr. Etheridge. Thank you, Mr. Chairman. Okay. I want to 
make sure we are on the same--Dr. McQueary, thank you for being 
here today, and thank you for your testimony, and as a former 
resident of the state of North Carolina, you probably, as well 
as anyone in this room, know that our state has had an awful 
lot of experience with natural disasters, especially floods and 
hurricanes that have been particularly devastating to our 
agricultural sector in North Carolina, and consequently, the 
state has developed a great deal of expertise, really, in this 
whole field of agricultural disaster planning, response, and 
recovery. And last year, the Association of Food and Drug 
Professionals, with the support of a number of Federal 
agencies, for officials, strongly encouraged the North Carolina 
Department of Agriculture and the Consumer Services area of 
that, along with the--a number of other agencies, to develop a 
national model for food safety and security systems. In 
response, the Governor easily established the North Carolina 
Food Safety and Security Taskforce, headed by Dr. Tom McGinn, 
the state veterinarian, who I am sure you are familiar with. 
This multi-agency group worked together for months, and worked 
to provide a comprehensive planning and response initiative, 
and it is entitled the North Carolina Food and Safety Security 
Project.
    It is now ready for implementation, and I am told by folks 
at the state level, because it is in this form, they didn't 
have the money to finish the work, but what they have done is 
shared it with a lot of other states, that are now looking at 
it. It is developed so that it can be implemented, and I am 
informed that they can't afford to shoulder an entire $6.8 
million cost of the Federally requested program, and I 
understand that they have--they are not eligible, apparently, 
for any DHS grant funding, in the definition of DHS grant 
funding, but it is obviously a project that was asked to be
done, and it would be of benefit to every state in this 
country,
because as you well know, agriculture now is a $1 trillion 
industry--.
    Mr. McQueary. Sure.
    Mr. Etheridge. --in this country, and the safety of it is 
very important. And I guess I am asking, and you might not want 
to answer today, but maybe have someone on your staff, is there 
any opportunity of assistance from S & T Directorate for some 
funding that could be used, that we could identify, because it 
is a piece that was asked to be done, and we could use it to 
share with other states, because I think it--this is the kind 
of thing that we ought to be working together to get done.
    Mr. McQueary. One thought that comes immediately to mind is 
that we--and I hope that the group has been--has submitted a 
proposal to be considered for our--I guess our third Center of 
Excellence, because that is an area in which we specifically 
are dealing with post-harvest food safety, is the purpose of 
that third Center of Excellence, and we have been out--we have 
been on the street with the RFP, so I have not seen the names 
of the participants, because I have tried to stay away from--.
    Mr. Etheridge. Sure.
    Mr. McQueary. --knowing the name, but I think we--.
    Mr. Etheridge. But I think this is at the university level, 
where they are pulling together--.
    Mr. McQueary. Well, it is at the university level--.
    Mr. Etheridge. But this is a little different, in that it 
was agency generated at the request of the Federal Government, 
and I hope we have someone in your Department we can talk with 
about that.
    Mr. McQueary. I would be happy to--.
    Mr. Etheridge. Because I think that is something that we 
could use right away to make a difference, so let me move on--.
    Mr. McQueary. You can have them contact--.
    Mr. Etheridge. --to another one.
    Mr. McQueary. Have them contact me, and I will be happy
to--.
    Mr. Etheridge. Okay.
    Mr. McQueary. --make sure that we take--.
    Mr. Etheridge. Fine. Thank you.
    Mr. McQueary. --a hard look at it.
    Mr. Etheridge. Let me get to know, is it in your written 
testimony, you say in 2005, the Emergency Preparedness and 
Response Portfolio will continue its focus on technological 
developments, and technical guidance for states and local first 
responders, one of the areas that has been alluded to earlier. 
Would you be kind enough to discuss the kind of focus you are 
talking about here, and give us some examples, if you have 
them, of the technology and guidance the S & T Directorate 
plans to offer to our first responders in this country?
    Mr. McQueary. In the area that we are currently working--in 
fact, we expect to make announcements, I believe it is on--that 
would be tomorrow, on some protective clothing standards, 
specifically geared towards first responders, and so that is a 
first step and something we are beginning, because that is very 
important. As you may or may not know, we--one of our first 
contracts that we let out of the Technical Support Working 
Group was to North Carolina State--.
    Mr. Etheridge. Right.
    Mr. McQueary. --to look at protective material, and so 
those are two examples of things that we have done. There is 
more to be done, but those are two that come to mind, and I 
could--I would be happy to take a look in more detail and 
provide more detail for you in the--.
    Mr. Etheridge. Let me thank you for that, because I have 
visited that site, seen that material, and for those who 
haven't on this committee, it is amazing what it does for 
protecting our first responders, and--not only in the fire 
area, but in--where equipment gets snagged and others, and I 
have another one. I hope when they get a second round and we 
will--thank you very much.
    Mr. Thornberry. I thank the gentleman. The Chair recognizes 
the distinguished gentlelady from Texas.
    Ms. Granger. Thank you, and thank you for being here. I 
have perhaps a statement more than a question. Some of us 
attended the National Defense University Tuesday morning for an 
exercise on cybersecurity, which is probably why you are 
getting these questions, and we left there, of course, with 
more attention to cybersecurity and the threat of cybersecurity 
and what it can mean to us. As we should be concerned, this 
is--what we should--be focused on, but when I heard you say, a 
question that said what can we expect in one year, and 
essentially, you said I don't know, and then the question was, 
well, if you don't know, then how do you arrive at $18 million, 
which is what we are seeing, the $18 million for cybersecurity 
R & D, and then some others, and the answer was well, if I need 
more, I can come back. That leaves me more concerned than I was 
when I walked in here, so I am going to say to you that that is 
there anything you can do to relieve that concern, and say 
``here is what we are doing in cybersecurity, and here is how 
we are going about it, setting the standards.''
    Mr. McQueary. That is fair enough. We specifically have two 
programs that are being funded jointly with the National 
Science Foundation and the National Institute of Health--or 
National Institute of Health--National Institute of Science and 
Technology, and in those programs, if I can find my notes here, 
I--actually, what I would prefer to do, if I could, could I 
send to you a detailed response to your question there, because 
it is quite a drawn-out number of different things that we are 
doing. I have got some 18 different--I think it is 17 different 
things that are listed here that are involved, and I would be 
happy to provide you great detail what we are doing, and--.
    Ms. Granger. If you would.
    Mr. McQueary. --welcome the response--.
    Ms. Granger. And then also, more specifically, about how 
you arrived at the $18 million figure.
    Mr. McQueary. Sure. That is fair enough.
    Mr. Granger. Thank you.
    Mr. McQueary. Okay. Thank you.
    Mr. Thornberry. Gentlelady, yield back.
    Ms. Granger. I do.
    Mr. Thornberry. Just wasn't sure if she was finished or 
not. And Dr. McQueary, I think the whole Subcommittee, of 
course, would be interested in those answers.
    Mr. McQueary. Of course.
    Mr. Thornberry. Because we have jurisdiction in both areas, 
and--.
    Mr. McQueary. Of course.
    Mr. Thornberry. --are particularly interested in that. The 
gentleman from Texas, has a question?
    Mr. Sessions. Yes, I am, and I thank the Chairman. Dr. 
McQueary, over the last few months and really years, we have 
heard a good bit about intelligence that has been gained as a 
result of our combat operations in Afghanistan and Iraq about 
the threat that existed within those countries. I am 
interested, and this is perhaps much like Congresswoman 
Granger's, this is a statement, not a question, but perhaps at 
some point, I am interested in the Department of Homeland 
Security utilizing what I think has been a very effective way 
to identify targets and people that are our enemy as it relates 
to cybersecurity.
    We got to see the flashcards or the playing cards with 
their pictures and names on them, but from my bit of serving on 
this Committee, I have not gotten a sense or a feel that we 
really know a lot about exactly who, where, and what those 
people are who are our enemies, as they relate to 
cyberterrorism. And it is my hope that in the coming year, and 
if I am wrong, feel free to tell me, but I believe that we need 
to make sure that we know more about who the specific targets 
are, aimed at the United States, who these people are, and what 
we are doing to combat them, and I have found myself, find 
myself today in a position of seeing each one of you put 
together a new department that is amazingly, and I think 
credibly, full of substance of what you are doing, but I hope 
you are aiming downstream at some things that we may have 
learned from the military about how to know who and where and 
what to expect and done some intel on that, so really it is an 
observation, that you are going to take the money and tinker 
and learn and, you know, the chalk and the marbles, and learn 
who people are. But this person on this on this Cyber--Science 
and Research Development Subcommittee would be interested at 
some point, if that is developed during the year. We learned 
the name Al-Qa`eda after the war, not before the war. We 
learned the name bin Laden--I think I heard about it first when 
the British Prime Minister talked about the Taliban and bin 
Laden, because they supply drugs, 80 percent of the heroin that 
is on the streets of Great Britain. I would like to become more 
cogent with the threat that is out there, who the people are, 
what they do, how they operate, even if it is on a privacy 
basis, because I want to know you know, too.
    I thank the gentleman, and I yield back.
    Mr. Thornberry. I thank the gentleman from Texas. Dr. 
McQueary, let me ask a couple questions about this coordination 
issue that I mentioned early on, and in your statement, you 
talked about, as is obvious, there are a number of Federal 
departments that have some work going on on, say, biodefense 
and biosurveillance, and in answer to one of the previous 
questions, I understood basically your answer to be we are 
working on coordination to--in getting our arms around what 
everybody is doing, and how they relate to one another, but the 
inference I took is we are not quite there yet. Is that a fair 
inference, as far as understanding what is going on and being 
sure that we are not overlapping, but also that there are not 
gaps?
    Mr. McQueary. Well, as you know, there is a substantial 
amount of R & D work that goes on in many different government 
agencies, so I don't know if it is ever possible to be 
completely current. Although--however, with that said, I do 
believe that we have established the relationships. We have a 
close relationship with Assistant Secretary Paul McHale's 
Department of Homeland Defense. We have quarterly scheduled 
meetings with his group, which I believe I talked about last 
time when I was here, something we started early on. We deal, 
of course, with the National Institute of Health, the 
Department of Energy, all of these.
    Now, in terms of could you--if you said to me, show me your 
calendar and let me see all of these formally scheduled 
meetings, many of these are not in that nature, because the 
more important thing is to have the scientific people in the 
various organizations interacting, and I truly believe that 
that is the way that most information truly gets transmitted, 
not through formal documentation, and so when you find an area, 
when we find an area, our people find an area, in which it is 
apparent that we need to interact, that interaction is taking 
place, and that comes back to a point that I made in earlier in 
testimony, choosing good people who are committed to the work 
that has to be done, so that you can have confidence that they 
will do those, assure that we have those kinds of interactions, 
and I am confident that we have the people in the science and 
technology organization.
    I am also confident that within the Federal Government, 
there is a huge support for the Department of Homeland Security 
and what it is trying to do, because the importance of the 
mission that we have to do. And we find that wherever we go.
    Mr. Thornberry. I have no doubt that that is also the case. 
It just seems to me it is a pretty big challenge, considering 
how many different agencies are involved, to know--and as you 
said, it doesn't mean that there needs to be a lot of meetings 
and pieces of paper floating around, but you have to have some 
sort of idea what people are working on to--.
    Mr. McQueary. And we do have various technical working 
groups that are there, and I work closely with Jack Marburger, 
for example, at OSTP, and of course, he has the vision of 
across the government, of the scientific portfolios that we 
have.
    Mr. Thornberry. The Homeland Security Advisory Council has 
recently been formed. Will they have a role in helping to set S 
& T's priorities, and where you put money, and so on.
    Mr. McQueary. The--I believe--the answer is yes, and I 
think the issue where the discussion comes about is on what is 
that role, as opposed to whether they should have a role, 
because I--if we weren't going to let them have a role in what 
we are doing, what is the point in engaging these people and 
using their time? We--I actually will be meeting that group the 
first time tomorrow. We had the individuals selected. We have 
18 of the 20 selected, membership, and so I will be meeting 
with them tomorrow to get that kicked off, and so, I am very 
anxious to have them review, you know, what we are doing, how 
we are doing it, and offer their professional views, because we 
have people from all walks of the scientific life, if you will, 
that are on that Committee, and I would welcome the input. 
General Welch is the Chair of the Committee, as you probably 
know, and so I am looking forward to the interaction. I think 
it is also important that that group have a connection back 
into Secretary Ridge's Homeland Security Advisory Council, too, 
and that will be conducted through Drs. Jared Cohen and Ruth 
David will be the point of contact we will have back into the 
Homeland Security Advisory Council.
    Mr. Thornberry. So they will go up to that other Council, 
but also, they will have direct access to you and can raise an 
issue if they think you are shorting cybersecurity, or whatever 
it is, they will be able to talk to you directly about that.
    Mr. McQueary. Yes, and we owe you a report at the end of 
each January on--their report on what their views are on what 
we are doing. We, obviously, do not do one this January, 
because the Committee did not exist at that time, but we will 
have a report next year.
    Mr. Thornberry. And let me ask one other thing in this 
round. Are there R & D programs you know of now that have not 
yet been brought into the S & T Directorate which will be, at 
some point?
    Mr. McQueary. We identify three in the testimony, that--
where we have made the transition, and that is included in our 
budget. We are not quite through with that process, with--and I 
am talking internal to DHS. We are not quite through with the 
process. I believe we know where those programs are. We have a 
draft recommendation to Secretary Ridge, since he ultimately 
makes the decision as to what would be transferred in. I do 
know that we have his full support on making that transition, 
and he has made it clear to the operational units that is the 
case, so I would expect within probably three months, we can 
give you a much more profound answer to your question.
    Mr. Thornberry. Something in addition to the three that are 
contained in--.
    Mr. McQueary. Yes, very definitely.
    Mr. Thornberry. Okay. Okay.
    Mr. McQueary. In addition to the three.
    Mr. Thornberry. I see. Thank you. The gentlelady from 
California.
    Ms. Lofgren. Just a few additional questions. They really 
mostly relate to how we amass the information that is 
available. First, that we find out what is out there, and then 
make use of it in a way that helps us. You, in your testimony, 
talk on page 10 about the standards for development of 
biometrics for precise identification of individuals, which I--
is great. That is something I have been wanting somebody to 
take the lead on for quite some time. However--and you also 
mention some place that you are working in coordination with 
US-VISIT. However, I am aware that US-VISIT is proceeding with 
their own biometric standard, that I guess has not been 
developed by you, and certainly, the FBI is doing their own 
thing, and I guess the concern I have is that all of this stuff 
is moving ahead, and I understand it needs to, but we are going 
to end up with different biometric standards that don't have 
the benefit of what you were planning to do. So, how are you--
what is your intention on getting your presumably excellent 
work that is yet to be done, actually adopted by the various 
segments of the government that need biometrics?
    Mr. McQueary. It has been an interesting prospect to create 
a new Science and Technology Division that is a service 
organization for--organization that has been in existence for 
many, many years, and are already underway with the programs. 
The approach that we chose to take in the beginning, in the 
formation of the Science and Technology group, was in those 
scientific endeavors that are--were already underway, to not 
try to take those over, because we were in a mode of trying to 
grow our staff. At the same time, we were trying to get our 
operational procedures in place, so what we did is choose to 
focus in the areas more in detectors and standards and things 
of that sort, that was not intrusive on existing programs. We 
did, however, have a role to play in the US-VISIT program, in 
that the Science and Technology organization contracted to have 
a systems engineer--a system engineering company, take over and 
provide some inputs into what was ultimately put out in the RFP 
for the development of that. We did not have great influence on 
it, but it was something that I felt very strongly. US-VISIT 
will have to evolve over time. It now uses two fingers, as you 
know, for that biometric. At some point, the data system 
becomes overloaded and two fingerprints are not adequate to be 
able to provide a full biometric identification, and so I see 
us needing to move towards more--certainly more fingerprints 
over time, and that will--and I am confident that will be done, 
and as we make those evolution, I think we will be having 
more--I am confident we will have more Science and Technology 
involvement in that program.
    Ms. Lofgren. So, basically you are thinking that that 
proceeds, but when you are finished, you might, for example--
they might want to add on an iris scan. There is a smaller data 
load there, and the reliability is at least as high, maybe a 
little bit higher than fingerprints, and it would be 
duplicative, but with the duplication, it would have a higher 
level of reliability.
    Mr. McQueary. And if we have done our job, they should be 
getting their scientific view on whether that is a good idea 
from the Science and Technology Directorate.
    Ms. Lofgren. And how do you plan to have them listen to 
you? Since they don't listen to us.
    Mr. McQueary. I can't comment upon that. The manner in 
which we try to make sure that we have close relationships. I 
have one of my--we have portfolios, which you probably read in 
the testimony. One of the portfolio managers is responsible for 
the direct interaction with the Borders and Transportation 
Organization. In fact, she came out of the Borders and 
Transportation--she came out of the old Customs organization to 
join us, because our plan all along was for the portfolio 
managers that represented the operational units, we wanted to 
get a person that came out of those units, so that one, that 
person knew the interoperations of that unit from which they 
came, and two, we would hope that they could be a trusted 
person to contact within Science and Technology by virtue of 
having come out of it.
    Ms. Lofgren. Let me ask about another sort of consolidation 
issue, and that is in the whole cybersecurity testing issue. I 
am aware that--well, let me ask you this. How many on-staff 
people do we have in that function, as compared to contractors? 
Do you know?
    Mr. McQueary. I do not know how many the Director of the 
National Cybersecurity Division has. I spoke with him recently 
and asked him--.
    Ms. Lofgren. Okay.
    Mr. McQueary. --the question, but I simply cannot recall--.
    Ms. Lofgren. All right.
    Mr. McQueary. --the answer he gave me.
    Ms. Lofgren. Well, they are doing some things, and we have 
got universities. I know that the University of California San
Diego--.
    Mr. McQueary. That is--and Berkeley, also.
    Ms. Lofgren. --and Berkeley, and Carnegie-Mellon are doing 
some things. Some of them are under contract with us. Some of 
them, they are just doing on their own. They have come with--up 
with different analyses of what might happen in various 
scenarios. It looks to me that we are primarily--in your 
testimony on page 36 on the Internet Security Technology, 
focusing in on cyberspace, but there is a physical 
infrastructure element of vulnerability that I am concerned has 
just not been attended to by--because it has not been assigned 
to anybody, and that that is maybe not being integrated into 
the diverse analysis that is going forward, some by the 
government, some funded by the government, some just 
independent. How do we get our arms around all of this good 
science information and integrate it into what you are doing?
    Mr. McQueary. Well, I--my view is that the appropriate 
thing to do is to look to the science--the National 
Cybersecurity Division that is in the Infrastructure Protection 
Directorate. That is their established responsibility. People 
like myself have a responsibility to provide the scientific 
support that they might need in order to do that.
    Ms. Lofgren. So we ask, I mean, not you.
    Mr. McQueary. Yeah, I am not saying ask them and not me. I 
am just saying that is the area of responsibilities as they 
have been currently divided.
    Ms. Lofgren. Okay. That is fine. If I could indulge the 
Chairman for just one final question. The RFP for the Homeland 
Security Institute requires that the contract management and 
all the full-time staff have to be in Washington, D.C., and my 
question is why are we limiting the universe that can respond 
to that RFP just to inside the Beltway. Is there a reason for 
that?
    Mr. McQueary. I wouldn't view it as limiting it at all. I 
view it as--I mean, many companies set up operations here in 
Washington when there is a need to have--.
    Ms. Lofgren. Well, but--.
    Mr. McQueary. --the interaction. It does not--.
    Ms. Lofgren. My understanding is that all contractor 
management and all full-time staff are to be located in the 
Washington, D.C. metropolitan area.
    Mr. McQueary. That is intended to be for the people that 
would be working in that Homeland Security Institute. That does 
not mean--it could be a larger company, it could be a 
university or a national lab or something of that sort, that 
had the--.
    Ms. Lofgren. What is the rationale for that?
    Mr. McQueary. Because the--we will have some classified 
material to deal with over time. We have a small amount right 
now, but the important thing is having that group, they will be 
involved heavily in systems engineering work for us. It is 
very, very important to have them close, so that our people can 
interact with them on an easy basis. Having somebody on the 
West Coast or Northeast or wherever, and where you have always 
got to travel in order to have a meaningful interaction, in my 
judgment, is simply not the most effective way to get the most 
out of them.
    Ms. Lofgren. So it is not that you have already decided who 
is going to get the--.
    Mr. McQueary. We have not decided who is--we have 
absolutely not decided who is going to get that.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Mr. Thornberry. The gentleman from North Carolina have 
additional questions?
    Mr. Etheridge. I do. Thank you, Mr. Chairman, and thank you 
again. We have, and I am sure other members have, too, is have 
several companies who--certainly in our district, because of 
the technologies you can appreciate, in the Triangle, and have 
some ideas that they want to share with the Department of 
Homeland Security, and in past hearings, we have been told that 
there is an email address that companies should use to submit 
those technology proposals. Although I hear from some of my 
constituents, number one, it is hard to find, and number two, 
even if they do send emails, they say they aren't getting 
responses. I don't know whether it is true, but that is what 
they tell me.
    Mr. McQueary. Okay.
    Mr. Etheridge. And I also note that from the DHS website, 
that you will be hosting an industrial forum here in March that 
will include discussions on how to apply for funding and for 
contracts.
    Mr. McQueary. Right.
    Mr. Etheridge. And the forum is here in Washington, D.C.
    Mr. McQueary. Right.
    Mr. Etheridge. And many of the small business owners, as 
you can appreciate, that will be a huge imposition, because 
they neither have the resources, in a lot of cases, don't have 
the staff, even though they may have some technical expertise. 
So my question is this. Do you plan, in addition to asking my 
first one, I hope you will respond to, do you plan to put this 
information on the website so it is easily accessible and 
understood by some of these small businesses?
    Mr. McQueary. The answer is yes. In fact, we are trying to 
make our website be the place for unclassified information, and 
most of what we do is unclassified at this point, so that 
people can go to it. My recommendation to you is to encourage 
them to go to dhs.gov, at that website, drill down on the 
Science and Technology area, and that--and you can find, I 
believe, everything that we are doing in terms of RFPs we are 
putting out, broad Agency announcements and so forth, because 
our intent is to try to make that be so that people could 
electronically get access to what we are doing. In the case of 
those that said you have submitted things, if you will give me 
the names of them, I will be happy to personally find out where 
those--why we have not responded, because I thought we had a 
process that assured that people would get a response, if it 
was nothing more than saying we have your proposal. We are 
looking at it, just so that people know that a human being has 
actually intercepted the correspondence.
    Mr. Etheridge. I promise you in the future we will keep a 
list, if they call. Are there any plans to--.
    Mr. McQueary. We have had an enormous number of
inputs--.
    Mr. Etheridge. I know.
    Mr. McQueary. --as you might guess.
    Mr. Etheridge. And I understand that. Are there any plans 
to change the way the Directorate deals with unsolicited 
proposals from small technology companies? I assume you are 
getting a lot of those, and are there full-time staff devoted 
to the outreach to companies and societies, because there are a 
lot out there that do have ideas, and it seems to me that is an 
area if we aren't doing it, we ought to be giving some serious 
consideration to.
    Mr. McQueary. Well, of course, we have just started the 
SBIR program, as you know about, and that will have, I think it 
is $19 million or so, whatever 2.5 percent of our budget is. 
Associated with that program, we have gotten very good response 
from that solicitation we put in, I believe, we have about 66 
that are going to be selected out of the I think 300 or so that 
we had submitted to us for that, so I think that is a good 
outreach. The unsolicited proposals, while we encourage 
unsolicited proposals, because you never know when you might 
get it, the--I would frankly say, the likelihood of someone 
sending in an unsolicited proposal about something that we had 
simply never thought of is not particularly high, and so many 
of the unsolicited proposals do not get the response that--
because it may not be an area that we are truly interested in 
right now, and so the better approach is to look for how 
unsolicited proposals can map into the areas that we have 
publicly identified that we do have funding established for and 
we are going forward in, but at the same time, I don't want to 
discourage people who had submitted unsolicited proposals, 
because you can't be sure that you are never going to get sort 
of the Rosetta Stone that comes in from that.
    Mr. Etheridge. I realize you get a lot of them, but if 
someone could just let them know you have gotten it sometimes 
on the unsolicited ones--.
    Mr. McQueary. That is--and my intent is to have--.
    Mr. Etheridge. --they would be very helpful.
    Mr. McQueary. --us do that.
    Mr. Etheridge. Okay.
    Mr. McQueary. Because there is nothing more frustrating 
than to not get any get of response there.
    Mr. Etheridge. And we lose the opportunity for some pretty 
creative people in the future may continue to participate.
    Mr. McQueary. Sure.
    Mr. Etheridge. Let me ask the final one, if I may. In the 
little time I have got left. The elimination of EPA Homeland 
Security Building Decontamination research funding, because in 
the budget, in the 2005 budget request, the elimination of $8 
million in current year funding for work focused on the 
improvement of methods and setting standards for 
decontaminating buildings following a potential chemical, 
biological, or radiological attack, and the budget language is 
the complete elimination of Homeland Security Building 
Decontamination research. EPA will not complete its core 
responsibilities to provide scientific, defensible, and cost-
effective decontamination methods, and forces it to disband the 
technical and engineering expertise that will be needed to 
address the known and emerging biological and chemical threats. 
If that is true, Mr. Secretary, if the EPA is no longer to 
carry out this research, will Homeland Security be continuing 
these activities within the Directorate, and if not, is it your 
belief and that of the Administration that issues regarding 
building decontamination research and that of the technical and 
engineering expertise that will be needed to address these 
known and emerging threats in the future, no longer will be 
needed?
    Mr. McQueary. I only recently saw that language, and I 
simply do not know what the thinking was that went into the 
change you have there. I would be happy to look into it and 
see--.
    Mr. Etheridge. Would you. Okay.
    Mr. McQueary. --what we can find out.
    Mr. Etheridge. I would appreciate that.
    Mr. McQueary. And provide that information back to you--.
    Mr. Etheridge. Because I think this is one of those areas 
that somebody--.
    Mr. McQueary. The EPA does have the statutorial 
responsibility--.
    Mr. Etheridge. Sure.
    Mr. McQueary. --for cleanup. That is certainly true, and so 
I would assume that it is somehow embedded in that. We do not, 
for example, in Science and Technology, have any money that we 
are spending on cleanup--.
    Mr. Etheridge. Right.
    Mr. McQueary. --issues right now.
    Mr. Etheridge. But this is on preparing for what to do in 
the future, if you would look at that, I would appreciate it. 
Thank you, sir.
    Mr. McQueary. Yes, sir.
    Mr. Etheridge. Thank you, Mr. Chairman.
    Mr. Thornberry. Thank you. Dr. McQueary, it occurs to me 
one of the first things that this Subcommittee did last year 
was to try to have a workshop for members and staff about 
dealing with the Department, you know, we have developed--you 
have developed a lot since then. It may be a useful thing to do 
again at some point, and maybe you need to have the conference 
in a couple weeks first, and--but we might set up some sort of 
an informal briefing, because the better we can help guide our 
constituents, and inform them, the better--the less hassle, I 
think, you all will have to deal with, and the more informed 
they are about how to deal with the Department, or access the 
Department, I think it would be easier on everybody. We might 
think about that. It is not all your Directorate. There are, 
you know, it cuts across a number of directorates, but it just 
occurs to me with some of the questions that we have had, that 
we may want to think about doing that.
    Mr. McQueary. We would be happy to take that on as a--to 
look and--if you maybe some of your staff members contact us, 
and we could work with them to see what--in more detail, what 
your interest is, and we could help work it.
    Mr. Thornberry. Great. Thank you. The gentleman from Texas 
have additional questions?
    Mr. Sessions. I do not, Chairman, thank you.
    Mr. Thornberry. Let me ask, I don't want to put you on the 
spot, because this is an unclassified setting, but I wonder, I 
think it would be helpful for me to kind of have the view from 
30,000 feet of where we are in certain key areas where we are 
trying to develop technologies that help make us safer. For 
example, patrolling, guarding our borders. And the kinds of--I 
guess what I am interested in, or--do we think there are some 
technologies out there that we just need to get fielded and we 
can make substantial improvements? Are the technologies not 
developed enough yet? Do we need to do a lot more research 
before we are ever in the ballpark? You know, kind of where we 
are with--in some of these areas, and I will throw that out to 
you, guarding the border as one. From your standpoint, without 
being too specific, where do you think we are?
    Mr. McQueary. Well, there is certainly plenty of work to be 
done, because we know there are people crossing our borders 
every day, illegally crossing the borders at places. The one 
area where I believe there is great promise is in the area of 
unmanned aerial
vehicles. We do have some testing that has gone on already. We 
are beginning to do more. In fact, I--the lady who manages my 
Borders and Transportation portfolio that I touched upon 
earlier has the responsibility from a Science and Technology 
organization to--and interfacing with the BTS organization and 
planning and executing that. Where we go with that, there are 
some--it is not clear yet. There are issues associated with 
aircraft flying and safety issues when you are around aircraft 
that has people on board and things, and all of that has to be 
worked out. However, I am confident that is an issue that can 
be worked. It is not--but it is something where you have a 
number of factors to consider, so it is--it would be my view 
that unmanned aerial vehicles and associated sensors, whether 
they be video sensors, or whether they be infrared, things of 
that sort, really offer the greatest opportunity for being able 
to provide information. The other thing would be if we can look 
farther into the other country, things are coming, so that you 
can anticipate. That sort of goes in the same category of what 
we are talking about. That is where I think there is a great 
emphasis, and I think also the President's proposal on how we 
deal with immigrants that are in this country now has a great 
deal of merit in helping move in the direction of solving some 
of those issues.
    Mr. Thornberry. Thank you. That is exactly the sort of view 
that is helpful to me. Let me throw out another area. What 
about technology at border crossings? And obviously, there are 
a number of things that you are working on, but it looks to me 
like that we are pretty far along with the technology. It is 
just a question of making decisions, getting it deployed, and 
that sort of thing.
    Mr. McQueary. I think we are. I think the greatest 
challenge at the borders, as you probably know, is doing things 
that do not slow things down. I mean, there--we already have 
``congested borders,'' and I don't mean that a pejorative 
sense, but it is factually true, so if you slow something down 
a minute, well, a minute doesn't sound very much, but I am told 
that what you do is in effect cause the cars and trucks to 
begin backing up into Mexico or wherever it might be, where 
they are trying to come across. So whatever we do has to have 
an element, we need to do it reliably, and we need to do it 
quickly, and so that, I think, provides the--is where the great 
challenge is, because you can think of lots of things. I mean, 
you could say why don't we just take every truck and inspect 
every bit of it, and obviously, we couldn't live with that, so 
it is--whatever we do has got to be focused on doing it 
quickly, I believe. There are sensor technologies that are 
available, and how we implement those, I think, is a 
contribution that the Science and Technology group can make in 
concert with the Borders and Transportation people.
    Mr. Thornberry. What about port security, particularly 
cargo shipments and trying to screen our cargo?
    Mr. McQueary. I mentioned the radiation detection work that 
we are doing in New York, and the Port Authority in New York 
and New Jersey. I believe that that work is going to provide a 
direction that we can go in to provide greater capability at 
the ports. I have also seen some interesting technologies that 
I don't have a scientific view yet as to whether they can be 
made to work, but I have seen some interesting technologies in 
what you could--conceive of doing a complete X-ray of a 
container as it is being taken off the ship, with the equipment 
on the crane that is lifting it, telemetry, the information 
from that scan over to a remote place, have someone looking at 
it, and essentially in the time period it takes to be able to 
get it off. Now, this is the view of the contractor who has 
this offer. I have not rendered a complete view as to whether I 
think this could be made to work in a manner that could be 
afforded by the country. But it is an interesting concept, and 
there are others like that, too.
    The key thing, though, I believe, is that we must do 
everything we can to try to know what is in the containers 
before they show up at our shores, and that is where it is very 
important to play the emphasis, because in your--if you wait 
until it shows up to shore, we are in a defensive mode then, 
and when you are in a defensive mode, it is difficult to always 
be right.
    Mr. Thornberry. Where do you see us technologically at this 
point on the--in the biosurveillance area? It--you know, you 
have explained earlier its importance, and I think most people 
agree with you, it is, in some ways, the area of, I guess, 
greatest--I don't want to say greatest vulnerability, but when 
you put all the things together about the impact and the 
dangers and--it is on most people's--top of their priority 
list. Where are we in--.
    Mr. McQueary. I believe we know where we need to get to. I 
am very pleased with the manner in which Biowatch--we have had 
well over a half a million samples that have been taken by 
those sensors. We have yet to have our first false alarm in 
that, and that false alarms are a huge issue for anything in 
which you are dealing with the general public. It is very 
important not to continue to blow the whistle and say there is 
something there, when it isn't. We have had some detections 
that were made in Houston, which you probably know about, that 
were made on those Biowatch sensors. We actually picked up 
tularemia in the Houston area. It was not a terrorist attack. 
It was naturally occurring, as many of these pathogens are, and 
so I am pleased with what we are seeing in the performance.
    The issue, though, is one of, I mentioned earlier, 
biological threats are temporal in nature, and therefore, we--
right now, we go out once a day, sample these, take the 
samples. We then have to go and do the analysis on the samples, 
and so you could be talking 48 hours before you know that 
something actually happened. So, the ultimate detector that we 
need is one that makes a detection, does the assay in place, 
and sends a radio signal of some sort to wherever you might 
like to have it saying we have a detection. We have got a 
problem. And then you have got the measurement being made close 
to the event. And I believe--I don't believe that we are there 
scientifically yet. I do believe that it is an engineering 
problem, not a scientific breakthrough problem, and therefore, 
that is where the emphasis needs to be placed.
    Mr. Thornberry. That is very helpful. Let me ask you about 
one other, interoperable communications, particularly of the 
first responders. We have had--the Subcommittee held a briefing 
on that last year, and it is a far more complex issue than one 
sees on the surface.
    Mr. McQueary. Yes, it is.
    Mr. Thornberry. But where do you think the technology is on 
that?
    Mr. McQueary. Well, the--for--first of all, interoperable 
is a word that means many things. If you had 10 people in the 
room, and said please write down what you think interoperable 
means, it is very likely you would have maybe 9 or 8 different 
views on what it means. So it is really important, I think, to 
construct the language around what one means. The ultimate in 
interoperability would be where you and I are emergency 
responders. You have got your phone, I have got mine. We pick 
up and we can have an immediate conversation. We have got 
established protocols or overrides that might be there, so that 
because we are working in a threat condition, that we can 
assure that we are going to be able to have that communication. 
We do not have that right now. As we know, the--as in the south 
of New York, policemen, firemen can't even communicate among 
themselves. There are technologies that exist today, and if you 
read or heard Secretary Ridge's speech, he laid out what our 
plans are in dealing with interoperable communications. There 
are technologies where you can literally have an electronic 
box, if you will, and you have one phone, the simplest example, 
one phone communicates with a box, and then it can send out a--
it can convert the signal into whatever format some other phone 
needs to have in order to have a conversation.
    However, that means you have got this concentrator, if you 
will, which is not as efficient, nor will it be as cost-
effective, but I do believe it is an important first step that 
we can take, and we can--and we do intend to provide standards 
associated with that. We are not quite through with where we 
want to be, but we will be providing standards that will be 
helpful to state and locals as they look at how they may want 
to spend grant money or--money. If you have not been to 
Chicago, and you get a chance to go, I would encourage you and 
other members of the Committee to take a look at what Chicago 
has done for its interoperable communications for the city. 
They have really solved the problem of how to communicate among 
all of their policemen, emergency responders, firemen, and they 
have a central control station, where people know what is going 
on throughout the city at all times among all of those, and so 
it is first-rate, but it is for Chicago only, and so there is 
more to it than just one city, but it is obviously a large 
area.
    Mr. Thornberry. Great. Thank you. The staff has helped to 
remind me of one other area. I want to just see if you can tell 
us anything about in this setting, and that is the MANPADS 
issue, missiles which could be launched against airplanes. Do 
you--can you tell us anything about where the technology stands 
for dealing with that concern?
    Mr. McQueary. We--based upon what we have seen, as you 
know, we have awarded three contracts to three different views. 
We have--and each one of those contractors has an airline 
participant as a part of it, and I think that is a really 
important thing in order to give credibility to what gets done, 
because if the airline industry doesn't believe it, it becomes 
a very difficult thing to sell. I am confident that we are 
going to be able to identify a solution reasonably quickly. I 
know there are views that why don't we just take what is--some 
views, and why don't we take what the Defense Department has 
done and apply it on commercial aircraft. It is not that simple 
of a problem at all. I believe that within the time
period we have laid out, which is aggressive, within the two-
year period, we can make a firm recommendation to the 
Administration and the Congress as to what the technical 
solution can be, and then a decision can be jointly made as to 
where the country wants to place the burden of that cost for 
making it happen, and I think that our job, I view, is not to 
make the decision as to whether to do it, but rather, to 
provide the technical wherewithal on which a decision can be 
made.
    Mr. Thornberry. Great. I agree. Thank you. Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. I--as you were 
talking, I was remembering the other questions that I forgot to 
ask. And really, there is just three, and they all really 
relate to the same subject, which is information that is out 
there in other parts of the Federal Government in some cases, 
that may or may not be known to you, because there is no good 
source. For example, as you were talking about the detection of 
bio-agents, I was recalling that the Post Office actually has 
deployed, and I know this, because one of the component parts 
is manufactured not in my district, but nearby, and I visited, 
where they do air samplings 24/7, and the component that is 
made in California actually does the testing for DNA of the 
biohazard. It produces a result that is 99.9 percent accurate, 
according to the Army--you know, they did a competition at the 
testing ground in under 35 minutes. So, I don't know whether 
that is the right--I mean, it was good enough for the Post 
Offices. They are just a component. It is a major defense 
contractor has got the prime contract, because they are testing 
for other things, but we don't need to invent that, because it 
has already been done, and I am--just one example, NASA is 
doing all kinds of interesting things, not for homeland 
security, for space, but they have, for examples, Ames has come 
up with a piece of equipment, at NASA Ames, where they can 
detect life, you know, in very dense rubble, and they were 
thinking it wasn't devised for rescuers, but that it would have 
an application for rescuers, but there is really nothing in 
place for the NASA Ames scientists to funnel that in to you, or 
the CIA, and they got so frustrated or alarmed about what was 
going on in Silicon Valley in terms of invention, I am sure you 
are aware that they hired Gilman Louie to be a venture 
capitalist, to go out and find out about this stuff. I don't 
know if Gilman gives reports to your department or not.
    Mr. McQueary. We have met with Gilman. I have not 
personally met him, but we have had people--.
    Ms. Lofgren. I see him on the airplane all the time, but 
he--you know, I mean, there is just--there is--but there is no 
real way to funnel this information into you, and I guess I am 
thinking. I don't know that I have the solution either, but 
there needs to be some thought given to how we harness the 
brainpower and diverse elements of the Federal Government, 
things funded by the Federal Government, so we don't end up 
reinventing what has already been invented.
    Mr. McQueary. I completely agree with you, completely agree 
with you.
    Ms. Lofgren. So what are your thoughts on how to do that?
    Mr. McQueary. Well, the--I certainly, at the top level, I 
think Jack Marburger, Dr. Marburger, is in the best position to 
have the view of what is going on scientifically throughout the 
government. Now, he is one individual, and he has a relatively 
small staff, and so how much detail he can get into--.
    Ms. Lofgren. I don't think it is possible--.
    Mr. McQueary. --in order to be able to provide that, so--.
    Ms. Lofgren. --for him to play that ball.
    Mr. McQueary. --probably not. But other than that, I--the 
only way I know of is through working groups. By the way, we 
have had contact with NASA. I don't recall whether it was Ames, 
but early on, when I was reading all of the emails, I got an 
email from someone at NASA that had some ideas that I can't 
reconstruct at this point, as to what they might be able to do 
to help us. But that is informal, and it would be--I share your 
view that if we had a more formalized way of stimulating the 
interaction, we all could be better served by the money the 
Federal Government is spending, and I will take it on to try to 
see if I can come up with a better thing than saying why 
doesn't Jack Marburger help me.
    Ms. Lofgren. I would be very interested if you would give 
some thought to that, and maybe--.
    Mr. McQueary. Okay.
    Ms. Lofgren. --that is one of the questions we should pose 
to our Advisory Council as well. Thank you, Mr. Chairman.
    Mr. Thornberry. Is the TSWG going to continue, or what is 
its role as you develop and move forward?
    Mr. McQueary. The TSWG has done a wonderful job for us, and 
I can't say enough, because we could not have launched our 
activity in May of this past year without their help, and so it 
has been really important for us to do that, and as you may 
recall, we had 3,344 white papers that were submitted at that 
very first TSWG announcement, and so enormous support there. We 
have support--we have funded them another $30 million in fiscal 
year 2004. The one area where I am looking for some change, and 
we are having a discussion back and forth. They are not able to 
move as quickly, for whatever reasons, as I would like to see 
us move. I think it is very important that we make our 
decisions, and get on with it, and MANPADS took us about three 
and a half months from start to issuance of contracts. We have 
been able to do similarly in chem-bio detectors, because of the 
OTA authority that was given by the Congress to be able to move 
quickly. So, I--it is an open question as to whether we will 
continue with the TSWG or not. Ultimately, I think it would be 
beneficial for us to have the capability, whether we have it 
indigenous into Science and Technology, or whether we have 
someone, some other agency manage it for us, it could be good, 
but I am--I would rather not give you a yes or no answer.
    Mr. Thornberry. I appreciate it. I do think the ability to 
move quickly is just one of the essential elements for the 
military of the future, or for protecting our homeland.
    Mr. McQueary. Right. Absolutely.
    Mr. Thornberry. I have got two or three more questions, but 
I would prefer to submit those for the record, and ask for a 
written response, and ask unanimous consent that all members 
have five days to submit written questions for the record, and 
to revise and extend their remarks. And if my colleagues have 
nothing else, let me thank you again, Dr. McQueary, for being 
here with us today, for answering our questions, and for all of 
the work that you and your colleagues are doing to get this 
Department up and running and to make us safer day by day. We 
appreciate you.
    Mr. McQueary. We appreciate the support we receive from 
you, too, I assure you. And your staff does a great job in 
working with us.
    Mr. Thornberry. Well, now, don't say that. They are going 
to ask for raises. But I appreciate you being here, and the 
hearing is now adjourned.
    [Whereupon, at 2:43 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record

         Questions for the Record From the Hon. Mac Thornberry

1. Developing meaningful metrics to measure progress in making the 
nation safer is difficult yet it must be done. What do you think are 
the most important indicators of your Department's success and what is 
the status of your efforts to develop a formal set of metrics?
    Answer: In compliance with GPRA, the DHS has established 
performance goals and supporting performance measures for each of its 
programs. These measures are the most important indicator as they 
provide both macro and individual program status of success. For a 
macro view the DHS Strategic Plan provides the framework for carrying 
out the Department's Mission. Each program, and its associated 
performance goals and measures are linked to the DHS strategic plan 
goals they support. This linkage enables the department to collect 
information on progress in achieving goals and accomplishing the 
Mission of DHS.  . . . lead the unified national effort to secure 
America. At the program level, the program performance goal and ensuing 
supporting performance measures provide consistent critical insight 
into the achievement of programs achieving their intended results. 
During fiscal year 2004 we began collecting quarterly performance 
results information on all our programs to monitor success at both the 
strategic goal and program level.
    Although much has been accomplished, we recognize the need for 
continual improvement of performance measures. We have therefore 
planned further agency-wide training in developing better measures to 
be completed this year. This year performance information will further 
be refined by linking each program to DHS strategic objectives under 
each strategic goal, and development of additional performance measures 
as needed to reveal how each program explicitly supports each DHS 
strategic objective.

2. We know that the budget and planning is broken out by countermeasure 
portfolio. However, the implementation of the work is done by your four 
offices
        <bullet> Office of Plans, Programs, and Budgets
        <bullet> Office of Research and Development
        <bullet> Office of HSARPA
        <bullet> Office of Systems Engineering and Development
What are the budget breakouts for these Offices and how do they work 
together especially in getting technologies transferred to the end-
user?

    Answer: The fiscal year 2004 funds allocation by managing office is 
as follows:

----------------------------------------------------------------------------------------------------------------
                              Managing Office                                  FY 2004 Funds Allocation ($M)*
----------------------------------------------------------------------------------------------------------------
Office of Plans, Programs, and Budgets                                      118.6
Office of Research and Development                                           400.2**
Office of HSARPA (Includes SBIR)                                            246.5
Office of Systems Engineering and                                           ....................................
Development                                                                 108.7
----------------------------------------------------------------------------------------------------------------
Total                                                                       874.0
----------------------------------------------------------------------------------------------------------------

*Does not reflect fiscal year 2004 general rescission of $5.2 million.
**This amount includes $88 million for construction.
    The Offices of the Science and Technology (S & T) Directorate work 
together through Integrated Product Teams (IPT). Membership from all of 
our Offices--Office of Plans, Programs, and Budgets (PPB), Office of 
Research and Development (ORD), Homeland Security Advanced Research 
Projects Agency (HSARPA) and the Office of Systems Engineering and 
Development (SED)--participates actively in the planning and budgeting 
process through these IPTs. The IPTs for each portfolio work as a team 
to determine their mission space, their strategic goals for the next 
five years, and a list of prioritized deliverables. The executing 
Offices--ORD, HSARPA and SED--then respond to the prioritization 
process with programs that are subsequently executed.
    The primary executors of the Technology Transfer function are the 
Offices of HSARPA and SED. When HSARPA or SED are assigned a project 
for demonstration and deployment by the IPT, that Office takes on full 
responsibility to ensure that all end-user requirements are met and 
that the technology delivered is affordable, manufacturable, 
interoperable, sustainable and easy to use.

    3. The HSARPA has put out several Broad Area Announcements. Have 
the proposals received from these calls been reviewed, selected and 
funded by the HSARPA? What percent of the HSARPA budget is obligated at 
this time? What is the projected budget obligation by the end of fiscal 
year 2005? Is this process moving fast enough?
    Answer: The Science and Technology Directorate is committed to 
ensuring technologies to secure the Nation are developed using the 
extensive resources, assets and experience of the private sector. 
Through the Homeland Security Advanced Research Projects Agency 
(HSARPA), the Directorate has already completed the selection process 
for two solicitations. Forty teams or individual companies were 
selected to enter negotiations from HSARPA's first research 
announcement (RA03-01, Detection Systems for Biological and Chemical 
Countermeasures) issued in September 2003. To date, eight teams are at 
work through an awarded agreement and all others were allowed to begin 
work through pre-award costs authorization. HSARPA issued its first 
Small Business Innovation Research (SBIR) Program Solicitation on 
November 13, 2003. All 66 winners are currently under contract.
    Currently, HSARPA has four Broad Agency Announcements (BAAs) active 
and has publicly announced that in the next three months an additional 
five BAAs will be released. Additional solicitations are in preparation 
for late summer and fall of2004.
    As of April 28, 2004, HSARPA has committed 84 percent of its 
allocated fiscal year 2003 and fiscal year 2004 budgets. HSARPA plans 
to have all fiscal year 2004 funds obligated by the end of the first 
quarter of fiscal year 2005.
    The HSARPA solicitation process is moving at a rate commensurate 
with its allocated funding and staffing. As noted above, our process is 
accelerating.

    4. As you know, this Committee has strongly supported the enactment 
of the Project Bioshield, which is unfortunately still pending in the 
Senate. However, as you also know, Congress has already appropriated 
hundreds of millions of dollars to develop and procure medical 
countermeasures for a variety of potential terrorist threats, whether 
nuclear, radiological, biological or chemical. Notably, this includes 
the $127 million for ``nuclear and radiological countermeasures,'' $266 
million for ``biological countermeasures,'' $874 million for ``general 
research and acquisition,'' and $890 million for drug development 
projects under Project Bioshield. These funds were intended to create a 
guaranteed funding stream to encourage the development of WMD medical 
countermeasures in cases where there is not likely to be any other 
commercial market for these drugs.
    While we all would like to see the Project Bioshield legislation 
enacted tomorrow, can you please reassure the Committee that your 
Department, in conjunction with the Department of Health and Human 
Services, is moving forward to utilize these funds to get needed drugs 
for anti-radiation?
    Answer: The Office of Science and Technology Policy (OSTP) National 
Science and Technology Council, Weapons of Mass Destruction 
Countermeasures Subcommittee, Radiological and Nuclear Threat 
Countermeasures Subgroup is the advisory committee that is providing 
priorities and guidance to Project Bioshield in the area of anti-
radiation drugs. Efforts through licensure of these drugs may be 
provided by Project Biosheild funds. The funds available for the 
purchase of anti-radiation drugs are provided by the Strategic National 
Stockpile which is managed by an interagency group lead by the 
Department of Health and Human Services (HHS). The Department of 
Homeland Security (DHS) participates on this interagency group, which 
is currently developing a national acquisition strategy. Additionally, 
coordination of research and development (R & D) in the areas of both 
radioprotectants and radiation treatment drugs occurs on many levels 
including the Counterproliferation Technologies Coordinating Committee 
(CTCC) and the development of the National Plan for Homeland Security S 
& T currently underway.

           Questions for the Record from the Hon. Jim Turner

    1. We understand that the Directorate is doing a strategic plan for 
fiscal years 2006 through 2010. How will you prioritize resources over 
that period, and do you expect the distribution among the portfolios of 
biological, chemical, nuclear, and other countermeasures to remain the 
same as in the current budget?
    Answer: The S & T Directorate is currently conducting its fiscal 
year 2006 through 2010 Strategic Planning Process. Our planning process 
is centered around the use of Integrated Product Teams (IPTs). As 
mentioned above, IPTs are composed of representatives from each of our 
Offices, including the Office of Plans, Programs, and Budgets (PPB), 
the Homeland Security Advanced Research Projects Agency (HSARPA), the 
Office of Research and Development (ORD) and the Office of Systems 
Engineering and Development (SED). The IPTs for each portfolio work as 
a team to determine their mission space, their strategic goals for the 
next five years, and a list of prioritized deliverables. The 
Directorate's strategic planning and prioritization will be influenced 
by statutory requirements, national guidance, and user needs as well as 
subject matter expertise of our portfolio managers.
    S & T's Corporate Review Board, composed of the Office Directors, 
reviews each Portfolio Plan and provides final S & T portfolio guidance 
regarding resource and program adjustments through a Decision 
Memorandum from the Under Secretary for Science and Technology. This 
Decision Memorandum, which may include shifts in budgetary priorities 
for the Directorate, will be issued in May, 2004.

    2. Does the Directorate have a long-term list of the most important 
scientific innovations for homeland security? For example, are you 
looking down the road at handheld detectors that can identify all 
biological and chemical weapons? If so, how are research and 
development efforts being focused on these specific needs, as opposed 
to general work in their larger portfolios?
    Answer: The Science and Technology Directorate recognizes that many 
organizations across the U.S. Government are contributing to the 
science and technology base needed to enhance the Nation's capabilities 
to thwart terrorist acts and to fully support the conventional missions 
of the operational components of the Department. Congress recognized 
the importance of the research and development being conducted by 
numerous Federal departments and agencies, and in the Homeland Security 
Act of 2002, directed that ``The Secretary, acting through the Under 
Secretary for Science and Technology, shall have the responsibility 
for. . . developing, in consultation with other appropriate executive 
agencies, a national policy and strategic plan for, identifying 
priorities, goals, objectives and policies for, and coordinating the 
Federal Government's civilian efforts to identify and develop 
countermeasures to chemical, biological, radiological, nuclear, and 
other emerging terrorist threats, including the development of 
comprehensive, research-based definable goals for such efforts and 
development of annual measurable objectives and specific targets to 
accomplish and evaluate the goals for such efforts.''
    The development of this National Plan for Homeland Security Science 
and Technology is now underway. This National Plan will highlight the 
high priority areas and scientific innovations for homeland security in 
the short-, mid- and long-term time periods. The National Plan will 
incorporate much of the strategic planning described in the preceding 
answer.

    3. Please provide additional information as discussed during the 
hearing on the plans to finish consolidating all Departmental research 
and development into the S & T Directorate.
    Answer: The S & T Directorate is in the process of administrative 
actions and agreements that will establish management relationships 
with the following R & D activities within DHS:
        <bullet> Transportation Security Laboratory (Border & 
        Transportation Security Directorate, Transportation Security 
        Administration);
        <bullet> Customs Applied Technology Division (Border & 
        Transportation Security Directorate, Bureau of Customs & Border 
        Protection);
        <bullet> Customs Laboratory System's Laboratories & Scientific 
        Services Research Facility (Border & Transportation Security 
        Directorate, Bureau of Customs & Border Protection);
        <bullet> Immigration and Naturalization Services (INS) Forensic 
        Document Laboratory (Border & Transportation Security 
        Directorate, Bureau of Immigration & Customs Enforcement);
        <bullet> In addition, S & T will establish management 
        relationships with the U.S. Coast Guard R & D Center and with 
        U.S. Secret Service Laboratory R & D activities that will take 
        into consideration the traditional and protective missions 
        respectively of these entities.
    We will complete the administrative requirements to establish 
management relationships between these R & D activities and S & T by 
September 30, 2004. Our intent is to develop and expand collaborative 
relationships as these new management relationships are established.
    To accomplish administrative actions to establish these management 
relationships, S & T is taking the following steps:
        <bullet> The proposed management relationship between S & T and 
        each R & D activity is being determined;
        <bullet> Second, Memoranda of Agreement will be promulgated 
        between S & T and each R & D activity; and
        <bullet> Third, mutually agreed-to transition plans will be 
        developed.
    Forthcoming administrative actions will result in the formation of 
official management relationships between the S & T Directorate and 
each R & D activity in the Department and will address responsibilities 
for coordination and oversight of R & D activities as appropriate. 
Details of actions required to establish new management relationships 
and integrate R & D activities in the Department will be finalized by 
the Secretary.

    4. How has the Directorate determined what areas are appropriate 
for university centers? After the next center on behavioral and social 
science studies on terrorism, what is planned for additional centers?
    Answer: To date, DHS has established three university-based 
homeland security centers of excellence (HS Centers). The first HS 
Center awarded was the University of Southern California's Homeland 
Security Center for Risk-Based and Economic Analysis of Terrorist 
Events. DHS purposely focused the first HS Center in this area to 
validate models that may provide direct input on the risk and economic 
impacts of terrorism, which in turn help prioritize S & T's research 
agenda. This topic was also included in the National Academies of 
Sciences report, Making the Nation Safer.
    On April 27, 2004, the Department announced awards to Texas A & M 
University and the University of Minnesota to lead two new Homeland 
Security Centers of Excellence (HS Centers) on agro-security. Texas A & 
M will lead the HS Center dedicated to the study of high-consequence 
foreign animal and zoonotic diseases; the University of Minnesota will 
lead the Center for Post-Harvest Food Protection and Defense. Both 
institutions have solidified partnerships with supporting academic 
institutions. Private industry will also be a partner with the 
University of Minnesota for post-harvest food protection and defense.
    DHS has solicited input from the National Academies of Science, and 
considered Section 308, as amended, of the Homeland Security Act of 
2002, to determine appropriate topics and prioritized areas for future 
university-based Homeland Security Centers. Having addressed 
countermeasures and cross-cutting portfolio needs in its first three HS 
Center awards and the forthcoming competition for a center in the 
social and behavioral sciences, an emphasis on research to support 
operational response is a likely direction for a future competition.

    5. I am very concerned over the increasing use of security 
classifications and other labels (such as ``Sensitive Security 
Information'' or ``Sensitive But Unclassified'') to prevent 
dissemination of information that may not truly need to be kept from 
the public. Some in the academic community have found it so difficult 
to deal with these secrecy provisions that they give up on trying to 
work on homeland security issues. Do you share this concern? What is 
the S & T Directorate doing to make sure that areas of research that 
don't need to be classified are kept open? Is it possible to have 
portions of contract work be done under secrecy agreements without 
classifying the entire work?
    Answer: The Science and Technology Directorate is committed to 
harnessing the vast resources our Nation's universities offer in the 
difficult challenge of protecting our homeland. To this end, the 
Department is committed to keeping as much research in the academic 
arena open to the public as possible. The S & T Directorate currently 
functions under the direction established by the 1985 National Security 
Decision Directive 189 (NSDD 189). NSDD 189 states that to the maximum 
extent possible, the products of fundamental research remain 
unrestricted. While future research supported by DHS S & T may require 
classification, the Directorate remains committed to the tenets of NSDD 
189 and will work to ensure that the portions of research activities 
that are fundamental in nature remain unrestricted.

    6. I have heard from the academic community that there has been a 
fairly successful effort, called the Federal Demonstration Partnership, 
to standardize the process for applying for and administering grants 
and contracts. This process makes it much easier for individual 
researchers and universities to work collaboratively with the federal 
government. Will DHS be using the standard FDP mechanism for university 
centers and HSARPA work conducted at universities?
    Answer: The Department of Homeland Security is not currently a 
member of the Federal Demonstration Partnership (FDP). DHS Office of 
Procurement is currently reviewing the FDP mechanism to determine if it 
will be a process that should be incorporated for university grants and 
cooperative agreements.
    The S & T Directorate considers universities as an important part 
of the technical community available to work on DHS problems. The 
Directorate held a public workshop in December, 2003, specifically to 
understand the needs and outlook of the academic community. 
Participants from more than 100 universities and educational 
institutions attended the workshop. S & T solicitations have received 
good participation from universities at workshops, bidder's 
conferences, and at the white paper and proposal stages.

    7. Under Project Biowatch, sensors are placed in cities across the 
country for the purposes of detecting airborne release of biological 
agents. This is a much-needed and profoundly locally-based federal 
program. Outside of the science, it seems the main challenge will be in 
coordinating with so many jurisdictions, the EPA as the owner of many 
of the detector platforms, and the CDC who arranges for the sensor 
testing. Does your Directorate have ultimate budget responsibility for 
the systems? And does that budget responsibility include the day-to-day 
operations incurred at the local level, or is that not covered by the 
federal government?
    Answer: Yes, the DHS S & T Directorate has ultimate budget 
responsibility for the Bio Watch Program. The day-to-day operations and 
local expenses are funded by the DHS S & T Directorate as part of the 
BioWatch day-to-day operations. The BioWatch program currently does not 
fund local response activities related to a Bio Watch initiated event.

    8. What will the activities and responsibilities of the National 
Biodefense Analysis and Countermeasures Center will be? How will its 
role differ from and interact with the activities of DOD and NIH? Does 
it have a role in Project Bioshield? What is the timeline for the 
facility's completion?
    Answer: The National Biodefense Analysis and Countermeasures Center 
(NBACC) provides an integrated land responsive biosecurity enterprise 
that facilitates homeland security, law enforcement, and medical and 
veterinary communities' ability to understand, respond, deter and 
recover from the biological threats to the United States. This mission 
is critical to government policy and decision makers who manage 
national resources and programs to minimize human casualties and 
infrastructure damage associated with a deliberate attack with a 
biothreat agent.
    NBACC directs and coordinates scientific efforts to improve our 
defenses against biological agents by gaining better information about 
current and future threats, understanding the risks associated with 
these threats, evaluating methods that may be used to deliver the 
threats, and conducting forensic analysis on threats to determine 
attribution. NBACC will develop a knowledge management system that 
integrates science, technology and intelligence.
    Efforts undertaken through the NBACC will advance DHS S & T's close 
working relationship with the BioShield Program Office (Office of 
Emergency Preparedness, Department of Health and Human Services) to 
determine, validate, and prioritize biothreats as well as identify 
countermeasure gaps and guide biothreat countermeasure acquisition 
decisions. A coordinated decision process has been established whereby 
the Secretaries of Homeland Security and Health and Human Services make 
certifications and forward the purchase decision to the President 
through the Director of the Office of Management and Budget (OMB).
    The NBACC concept is already being implemented through interim 
capabilities in science-based threat characterization and bioforensics 
operations and research, leveraging the U.S. Army Medical Research 
Institute for Infectious Diseases (USAMRIID)'s aerosol biocontainment 
laboratories and scientific expertise to accomplish near-term threat 
characterization objectives. Additional capabilities are currently 
being established through the Department of Energy National 
Laboratories' research and development in information management, 
sensors, surveillance, and related areas; and through ongoing research 
and diagnostics work in the area of foreign animal diseases, a 
capability of the Plum Island Animal Disease Center (PIADC). The 
current estimated timeline for completion of the NBACC facility is mid-
year of fiscal year 2008.

    9. The budget request includes $129 million for ``nuclear and 
radiological countermeasures,'' which I assume covers detection and 
treatment. Can you discuss the balance between detection and treatment? 
Also, how much is requested in the budget for antidotes for radiation 
exposure, which are generally quite close to market, compared to 
treatments for biological agents?
    Answer: The budget for radiological and nuclear countermeasures 
includes all areas that must be addressed in conducting national 
research, development, testing and evaluation (RDT & E) to (1) prevent 
the importation of radiological and nuclear weapons and materials; and 
to (2) detect, prevent, protect against and respond to terrorist 
attacks. The balance between detection and treatment is critical and 
evolving. At present, the Science and Technology Directorate is in the 
early stages of executing programs and has sought to emphasize 
prevention. Hence, detection RDT & E is currently receiving the largest 
portion of funding. Under the Incident Management portion of S & T's 
Radiological and Nuclear Countermeasures Portfolio, assessment efforts 
for identifying the needed RDT & E for relevant technologies and 
treatments of radiation exposure is included and will soon receive 
funding. In the next few years, the balance between detection and 
treatment will change to put a greater emphasis on the Incident 
Management portion of the portfolio.

    10. I commend you on the inclusion of 21 performance metrics in 12 
categories in your written testimony, but there are no metrics on how 
well the Directorate is reaching out to the private sector to identify 
new technologies--the unsolicited proposals that are often the most 
innovative ideas.
    There is, however, a metric for the numbers of new ``technologies 
prototyped or commercialized.'' The goal for fiscal year 2005 is three. 
Can you describe what it means to have three new technologies 
prototyped and commercialized? Is this the same as saying that three 
HSARPA contracts are successful?
    Answer: The DHS S & T Directorate, in coordination with the DHS 
Private Sector Liaison Office, has several sustained outreach efforts 
with industry. These efforts include multiple forums that provide for 
the exchange of dialogue between DHS S & T program managers and our 
industrial partners. These forums allow industry to better understand 
the future programmatic direction of the Directorate and provide an 
opportunity for DHS S & T Program Managers to learn about unique 
technical capabilities of industry and small business. Some of these 
conferences are focused on particular program areas, others cover many 
areas. The next of these broad conferences will be held July 12-15, 
2004, in San Diego, CA. In addition, DHS sponsors a website for all 
businesses interested in submitting unsolicited proposals to the 
Department (www.dhs.gov/openforbusiness).
    Among its first public gatherings, HSARPA hosted a Best Practices/
Worst Practices workshop for industry and the participation was 
enthusiastic: 172 industry representatives attended. This event gave 
industry a face-to-face chance to explain their preferences for 
solicitations, awards, contract types, time schedules, and other 
administrative details, when working with the Science and Technology 
Directorate.
    Complicated or extensive HSARPA solicitations are published first 
in draft form. This allows any potential bidder's comments to be read 
and reviewed before the actual solicitation is published. In this way, 
new areas of research can be identified and covered, recent commercial 
developments may be included, and realistic, understandable goals can 
be set in the formal solicitation.
    Well before the first deadline for white papers, it is standard 
HSARPA practice to hold either a technical workshop or a bidders 
conference, or both. These public meetings establish common technical 
foundations, provide general and technical directions, and introduce 
the published solicitation in detail.
    In addition, S & T solicitations executed by HSARPA provide a 
teaming website for the convenience of the smaller bidders who may not 
have the breadth of technical expertise in-house to compete for a full 
technical topic. This site facilitates discussion among potential 
bidders and promotes collaboration to achieve the challenging goals set 
by the solicitation.
    Finally, the Small Business Innovation Research (SBIR) Program 
Manager not only manages the mechanics of the program, he is also the 
small business advocate for HSARPA research. An important part of his 
mission is traveling the country explaining the S & T Directorate's RDT 
& E program and providing hands-on help to small business. He explains 
to small companies with new ideas and concepts how to interact most 
effectively with the S & T Directorate. HSARPA has already awarded 66 
Phase I (feasibility study) contracts to small businesses for research 
efforts in eight important areas. The next small business solicitation 
will be issued in May, 2004.
    A successful prototype or commercialization is not the same as a 
successful HSARPA contract.
    Typically, a new technology is developed and prototyped, then 
commercialized.
    HSARP A contracts with the private sector for research that 
explores discoveries, expands original scientific work, or shows 
evidence of development potential. HSARPA also contracts for multiple 
technology development efforts. As development continues, prototypes 
are created in a laboratory to prove that the idea or concept can be 
physically constructed and made to work. The goal of development is to 
make prototypes that perform satisfactorily in operating environments.
    Commercialization is bringing a capable prototype out of the 
laboratory into the commercial market for retail sale. There are many 
steps in commercialization. Systems Engineering and Development 
entrains mature prototypes and contracts for full scale engineering 
development and manufacturing engineering development activities 
necessary for commercial production. Development, proto typing, and 
especially commercialization take a long time, and multiple serial, 
parallel, and supporting contracts to do successfully.
    Our stated goal is to have three technologies prototyped or 
commercialized in fiscal year 2005.

                Question from the Hon. Kendrick B. Meek

    1. Mr. Secretary, how do you plan to execute the mandate given by 
Congress in the Fiscal Year 2004 Homeland Security Conference report 
regarding the participation of minority serving institutions (MSI) for 
DHS's University-based Homeland Security Centers program?
    HBCU's have not historically received the sustained funding other 
institutions have received for infrastructure for research, 
particularly in the formula funding used to allocate federal and state 
dollars to land grant institutions. Currently, the federal funding 
disparity at the federal level has been estimated to be approximately 
10 to 1 ratio or more between the 1862 and 1890 land grant 
institutions.
    In the Fiscal Year 2004 Homeland Security Conference Report it 
stated ``The Conferees encourage the Department to consider all 
colleges and universities that meet the requirements of U.S.C. 188 in 
the selection of university-based centers, including historically black 
colleges and universities, tribal colleges, Hispanic-serving 
institutions, and Alaskan Native-serving institutions.''
    It appears this language was implicitly suggesting that due 
consideration be given to minority-serving institutions or at least 
suggests that DHS should be sensitive to the historical significance of 
these institutions when designating centers.
    Answer: DHS University Based Homeland Security Centers are selected 
through a peer-review merit-based competition, in which DHS openly 
solicits proposals to meet mission and technical criteria contained in 
a Broad Agency Announcement. DHS S & T invited representatives of 
minority-serving institutions (MSIs) to participate in the external 
peer review process, leading to the selection of an institution to lead 
a given Center. In addition, DHS S & T encourages institutions hosting 
Centers to establish collaborative relationships with other 
institutions, including MSIs.

                                 <all>

</pre></body></html>
